<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY'S R&D BUDGET PRIORITIES FOR FISCAL YEAR 2008</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                       THE DEPARTMENT OF HOMELAND
                         SECURITY'S R&D BUDGET
                    PRIORITIES FOR FISCAL YEAR 2008

=======================================================================



                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2007

                               __________

                            Serial No. 110-8

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                      U.S. GOVERNMENT PRINTING OFFICE
33-611 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

               Subcommittee on Technology and Innovation

                    HON. DAVID WU, Oregon, Chairman
JIM MATHESON, Utah                   PHIL GINGREY, Georgia
HARRY E. MITCHELL, Arizona           VERNON J. EHLERS, Michigan
CHARLIE A. WILSON, Ohio              JUDY BIGGERT, Illinois
BEN CHANDLER, Kentucky               JO BONNER, Alabama
MIKE ROSS, Arizona                   ADRIAN SMITH, Nebraska
MICHAEL M. HONDA, California             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
      RACHEL JAGODA BRUNETTE Democratic Professional Staff Member
          COLIN MCCORMICK Democratic Professional Staff Member
             SHEP RYEN Republican Professional Staff Member
            AMY CARROLL Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


                            C O N T E N T S

                             March 8, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    10

Statement by Representative Phil Gingrey, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........    11
    Written Statement............................................    12

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    13

                               Witnesses:

Mr. Jay M. Cohen, Under Secretary of Science and Technology, 
  Department of Homeland Security
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    30

Mr. Vayl S. Oxford, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security
    Oral Statement...............................................    30
    Written Statement............................................    33
    Biography....................................................    37

Dr. Gerald L. Epstein, Senior Fellow for Science and Security, 
  Homeland Security Program, Center for Strategic and 
  International Studies
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    45
    Financial Disclosure.........................................    46

Mr. Jonah J. Czerwinski, Managing Consultant, IBM Global Business 
  Services; Senior Fellow, Homeland Security, IBM Global 
  Leadership Initiative
    Oral Statement...............................................    47
    Written Statement............................................    48
    Biography....................................................    52

Ms. Marilyn Ward, Executive Director, National Public Safety 
  Telecommunications Council (NPSTC)
    Oral Statement...............................................    53
    Written Statement............................................    55
    Biography....................................................    74

Discussion.......................................................    74

              Appendix: Answers to Post-Hearing Questions

Mr. Jay M. Cohen, Under Secretary of Science and Technology, 
  Department of Homeland Security................................    90

Mr. Vayl S. Oxford, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security................................    96

Dr. Gerald L. Epstein, Senior Fellow for Science and Security, 
  Homeland Security Program, Center for Strategic and 
  International Studies..........................................   106

Mr. Jonah J. Czerwinski, Managing Consultant, IBM Global Business 
  Services; Senior Fellow, Homeland Security, IBM Global 
  Leadership Initiative..........................................   109

Ms. Marilyn Ward, Executive Director, National Public Safety 
  Telecommunications Council (NPSTC).............................   112


THE DEPARTMENT OF HOMELAND SECURITY'S R&D BUDGET PRIORITIES FOR FISCAL 
                               YEAR 2008

                              ----------                              


                        THURSDAY, MARCH 8, 2007

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       The Department of Homeland

                         Security's R&D Budget

                    Priorities for Fiscal Year 2008

                        thursday, march 8, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, March 8, the Subcommittee on Technology and Innovation 
of the Committee on Science and Technology will hold a hearing to 
consider the President's fiscal year 2008 (FY 08) budget request for 
research and development at the Department of Homeland Security. Agency 
officials and outside observers will comment on budget priorities 
within the Science and Technology Directorate (S&T) and the Domestic 
Nuclear Detection Office (DNDO).

2. Witnesses

The Honorable Jay M. Cohen (R.Adm., USN ret.) is the Under Secretary of 
Science and Technology at the Department of Homeland Security (DHS).

Mr. Vayl Oxford is the Director of the Domestic Nuclear Detection 
Office (DNDO) at DHS.

Dr. Gerald L. Epstein is the senior fellow for science and security in 
the Homeland Security Program at the Center for Strategic and 
International Studies (CSIS).

Mr. Jonah J. Czerwinski is a senior fellow with the Global Leadership 
Initiative at IBM. He is also a Senior Advisor for Homeland Security 
Projects at the Center for the Study of the Presidency (CSP).

Ms. Marilyn Ward (minority witness) is Executive Director of the 
National Public Safety Telecommunications Council (NPSTC).

3. Brief Overview

        <bullet>  The FY 2008 budget request for the Department of 
        Homeland Security's Science and Technology Directorate (S&T) is 
        $799.1 million. This is a $90.1 million (9.5 percent) decrease 
        from the FY 2007 enacted funding.

        <bullet>  The FY 2008 budget request for the Domestic Nuclear 
        Detection Office (DNDO) is $569.1 million. This is an $80.9 
        million (17 percent) increase over the FY 2007 enacted funding. 
        The bulk of the increase is for research, development, 
        operations and systems acquisition.

        <bullet>  The S&T Directorate was reorganized into discipline-
        oriented divisions in mid-2006. While the FY 2008 budget 
        request clarifies priorities among disciplines, there remains a 
        question of whether DHS' R&D portfolio is properly balanced. 
        The bulk of R&D funding goes towards biological and nuclear 
        detection research. It is unclear if these priorities are in 
        response to recognized risks or based on a completed risk 
        assessment.

        <bullet>  There is a problematic lack of balance between basic 
        and applied research and development. DHS dedicates the 
        majority (52 percent) of its R&D funding to ``product 
        transition'' (short-term development), while allocating only 11 
        percent to applied research and 13 percent to basic research. 
        The remainder funds operational activities. De-emphasizing 
        longer-term basic and applied research may curtail the ability 
        of DHS to react to emerging and future threats.

4. Background

    Research and development at the Department of Homeland Security is 
concentrated in the Science and Technology (S&T) Directorate and 
Domestic Nuclear Detection Office (DNDO). The S&T Directorate has 
responsibility for carrying out or coordinating nearly all federal 
homeland security related research. DNDO was separated from S&T in 2005 
to specifically coordinate all research, development, and operations of 
technology to detect and report unauthorized transportation of nuclear 
and radiological materials.
S&T Directorate Organization
    The S&T Directorate was reorganized into six divisions by Under 
Secretary Jay Cohen in mid-2006. The discipline-oriented divisions are 
intended to reflect specific threats to public safety and critical 
infrastructure. They include:

        <bullet>  Chemical and Biological: detection and mitigation of 
        chemical and biological weapons threats

        <bullet>  Explosives: detection of and response to conventional 
        (non-nuclear) explosives

        <bullet>  Human Factors: social science research to improve 
        detection, analysis, and understanding of threats posed by 
        individuals as well as how communities respond to disasters

        <bullet>  Infrastructure and Geophysical: identifies and 
        mitigates threats to critical infrastructure

        <bullet>  Border and Maritime: develops technologies for 
        surveillance and monitoring of land and maritime borders

        <bullet>  Command, Control, and Inter-operability: research and 
        development support for inter-operable communications and cyber 
        security

    In addition to the six independent divisions, three offices 
coordinate the Directorate's R&D activities with extramural researchers 
and technology customers (typically other Directorates of DHS) and 
facilitate technology transfer. As part of the extramural research 
portfolio, the S&T Directorate funds the University Centers of 
Excellence program, which supports research across a broad variety of 
homeland security-related topics at university-based centers across the 
country.

DNDO Organization
    DNDO was created to coordinate federal efforts to detect and 
respond to unauthorized transportation of nuclear or radiological 
materials into and within the United States. DNDO, which reports 
directly to the Secretary of Homeland Security, was transferred from 
the S&T Directorate in 2005. DNDO is responsible for coordination of 
federal agency efforts at DHS, the Department of Defense (DOD), the 
Department of Energy (DOE), the Federal Bureau of Investigations (FBI), 
the Nuclear Regulatory Commission (NRC), and the State Department to 
prevent the transport of nuclear and radiological materials across U.S. 
borders. It also works with international partners on detection and 
interdiction activities.
    DNDO is responsible for research, development, testing and 
evaluation of detection technologies; acquisition of detection 
technologies; threat assessments; and technical support and training 
for State, local, and Federal Government partners and first responders. 
In 2006, DNDO completed a catalog of currently deployed global nuclear 
detection assets and an assessment of current detection capabilities, 
including an analysis of capability gaps across federal agencies.

5. FY 2008 Budget Request

S&T Directorate
    In FY 2008, requested funding for the Science and Technology 
Directorate is cut by $174M or 17.8 percent to $799.1 million. (TABLE 
1) As in previous years, the request is strongly weighted towards 
biological and chemical countermeasures research. This division 
represents 29 percent of the overall Directorate budget. Other 
priorities include research into explosives detection and mitigation, 
which represents eight percent of the overall budget; and command, 
control, and inter-operability, which also represents eight percent.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The S&T Directorate also categorizes its research by timeline, 
defining ``product transition'' as short-term (0-3 years) development; 
innovative capabilities as mid-term (2-5 years) high-risk, high-payoff 
applied research; and ``basic research'' as long-term (>8 years), high-
risk fundamental science. The remainder of the portfolio, including 
testing and standards, laboratory operations, and policy work is 
classified as ``other.'' The FY 2008 budget strongly favors short-term 
development (TABLE 2), with just over 10 percent of funding dedicated 
to basic research. The balance of research funding is overseen by the 
Office of the Director of Research, which is also responsible for 
integrating internal and external basic research into DHS missions and 
S&T Directorate divisions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Within the S&T Directorate, the Administration requests reduced 
funding for nearly every division, with the only increases going to the 
relatively small Human Factors division and a nearly flat budget for 
the Command, Control, and Inter-operability division. Additionally, 
funding is cut significantly for University programs. A summary of some 
the major division and office budgets follows:
            Innovation
    A significant funding increase is provided to the Office of 
Innovation, which manages the Homeland Security Advanced Research 
Projects Agency (HSARPA) grant program. However, the funding increase 
will mainly support advanced technology development and demonstrations 
and does not provide funding for the basic and applied research 
priorities included in HSARPA's mandate. Additionally, $7.5 million of 
the total $59.9 million is budgeted for the Scalable Composite Vessel 
Prototype, a project to develop an improved hull for Coast Guard 
skippers.
            Chemical and Biological
    Funding for R&D in this division stayed flat, but $84.1M in funding 
was transferred to the new Office of Health Affairs for the operational 
(non-R&D) components of three programs (BioWatch, the Biological 
Warning and Incident Characterization (BWIC) system, and the Rapidly 
Deployable Chemical Detection System) which monitor for releases of 
biological or chemical weapons. The remaining budget will support R&D 
for the next generation of BioWatch, which is a monitoring program for 
detecting release of biohazards. This division represents by far the 
largest budget priority in the S&T Directorate.
            Command, Control, and Inter-operability (C2I)
    Funding for C2I stayed relatively flat from FY 2007, but follows a 
41 percent reduction from FY 2006. This division covers research into 
cyber security, communications inter-operability, surveillance and 
investigative technologies, and threat assessment. In FY 2007, funding 
was cut for the emergent and prototypical technologies and rapid 
prototyping portfolios in this division, which limited the DHS' ability 
to address threats outside the existing divisions, perform basic 
research to identify vulnerabilities and countermeasures, and quickly 
address DHS-specific requirements for technologies.
            Explosives
    Funding for the explosives portfolio is reduced by $41.5 million or 
40 percent from FY 2007 to $63.7 million. A portion of this reduction 
in funding is a result of the completion of the Counter-MANPADS 
program, which developed an airplane based defense against shoulder-
fired missiles. If the Counter-MANPADS program is not considered in the 
budget calculation, the total funding for explosives countermeasures is 
decreased from $86.6M to $63.7M, a reduction of $22.9 million or 26.4 
percent.
            Testing, Evaluation, and Standards
    The requested funding for this division is $25.5 million, which is 
relatively flat compared to FY 2007. This division is responsible for 
activities that include coordinating the development of metrics for 
equipment performance and certification, protocols for testing and 
training, and evaluation of equipment.
            University Programs
    Funding for University Programs is reduced by $9.9 million (20 
percent) from FY 2007 to $38.7 million. The S&T Directorate plans to 
establish four new University Centers of Excellence--in spite of the 
reduced funding--and improve the capabilities of Minority Serving 
Institutions (MSIs) to conduct research in homeland security related 
areas and incorporate MSIs into the University Centers program.
DNDO
    In FY 2008, the Administration requests $561.9 million for DNDO 
(TABLE 3). This request increases total funding for the Office by $80.9 
million or 17 percent. The budget is increased for every component of 
DNDO, with the bulk of the increase going towards Research, 
Development, and Operations and Systems Acquisition.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A summary of the major categories follows:
            Management and Administration
    The $3.5 million increase for Management and Administration 
provides reimbursement to other federal agencies providing staff 
members to DNDO as detailees and goes toward creating additional full-
time positions. Many of these staff support research, development, and 
operations activities and aviation and maritime security activities. A 
larger full-time, non-detailee staff will improve DNDO's ability to 
conduct testing and evaluation and support improved acquisition 
protocols that will result in use of better detection technology.
            Research, Development, and Operations (RD&O)
    Research, development, and operations (RD&O) activities within DNDO 
include engineering and architecture for detection systems, high-risk 
transformational R&D, technology assessments, operations support for 
government partners, and the National Technical Nuclear Forensics 
Center. Together, these components aim to support a seamless system of 
nuclear detection from basic research through technology development 
and implementation. The requested funding increase of $47.4 million or 
17 percent will go primarily to transformational research and 
development (up $22.9 million or 30 percent).
    Within the transformational R&D portfolio, the FY 2008 priority 
will be the initiation of several Advanced Technology Demonstrations 
(ATDs). For example, one of the ATDs will focus on radioactive material 
detection in various transit systems such as ship or airplane transit. 
Other priorities will be port security, training for State and local 
law enforcement, and assessing hand-held detection technologies.
            Systems Acquisition
    The budget request for systems acquisition activities of $208 
million includes funding for deploying radiation monitors at ports of 
entry and the Securing the Cities Initiative, which is a program to 
deploy nuclear detection equipment at entryways into a city, including 
ports, highways, and airports. New York City was the pilot city in 
2006, and the Administration requests funding in FY 2008 to expand the 
program. The requested $30 million (17 percent) increase in funding for 
Systems Acquisition will go entirely toward this second phase of the 
Securing the Cities Initiative.

6. Issues and Concerns

How does the Department of Homeland Security use risk assessments to 
determine R&D priorities? The budget request for R&D at DHS raises a 
number of concerns, some of which are ongoing from the inception of the 
Department. The Department's mission is to reduce the vulnerability of 
the United States to--and mitigate the effects of--threats, both 
manmade and natural, but the overall justification of the DHS R&D 
portfolio makes no indication that there was any threat used to inform 
how research areas were prioritized. The S&T Directorate plans to issue 
a five-year strategic plan in April 2007 that will include some input 
from the Homeland Security Institute, a policy advisory board, on risk. 
The lack of investment in risk assessment is wasteful at best and 
potentially dangerous, as there is no basis for prioritizing 
unexpectedly urgent threats. In one example cited by the Under 
Secretary, following the liquid explosives threat to airplanes in 
August 2006, it took the S&T Directorate two months to set up a 
research program to evaluate the risks of and countermeasures against 
liquid explosives. This delay hampered the ability of the 
Transportation Security Administration (TSA) to develop guidelines for 
transporting liquids on planes, causing countless delays and problems 
for travelers and airlines.

Is the balance between short- and long-term research at DHS 
appropriate? What criteria does DHS use to determine the balance 
between long- and short-term research? While the requested funding for 
basic research within DHS S&T has more than doubled from FY 2007 to 
approximately 13 percent in FY 2008, the Department's R&D portfolio 
remains strongly weighted towards end-stage technology development with 
funding for basic research well below the Under Secretary's goal of 20 
percent of all research dollars. Likewise, DNDO does not give adequate 
priority to basic research, requesting $100 million for 
transformational R&D but only directing 11 percent ($11.1 million) of 
that funding to basic research. The remainder funds technology 
development.
    The large proposed cuts to the University Centers of Excellence 
program further reduce investment in basic research. Funding for 
emergent and prototypical technologies, cut significantly in FY 2007, 
also remains low. Emphasizing short-term research makes the Department 
significantly less agile and responsive, locking it into a single 
technological response to emerging and future threats.

How do DHS R&D priorities reflect the needs of customers, including 
other Directorates within DHS, interagency partners, and State and 
local governments? Under Secretary Cohen has said that the research 
priorities of the S&T Directorate should directly serve ``customers''--
defined as users of DHS' research results and developed technologies. 
To that effect, the Under Secretary established ``integrated product 
teams'' comprised of officials from other DHS components who advise the 
S&T Directorate on their technology needs, thus informing specific 
research priorities. While these interdisciplinary teams are a step in 
the right direction, the Department needs a much stronger focus on 
integrating the opinions of interagency and outside partners. At least 
10 agencies, including the National Institute of Standards and 
Technology (NIST), the National Science Foundation (NSF), the 
Department of Transportation (DOT) and others perform homeland 
security-related R&D. However, there is no formal mechanism for 
leveraging the R&D work of other agencies within DHS. Both the S&T 
Directorate and DNDO have been criticized for ignoring the work and 
advice of other federal agencies. Similarly, State and local officials, 
including first responders, have complained that DHS is not responsive 
to their requests and recommendations related to technology 
development. The Department must development a formal mechanism for 
responding to the final users of the R&D it supports.
    Chairman Wu. I would like to call the Subcommittee to 
order. We want to welcome everyone to this morning's hearing on 
the fiscal year 2008 Research and Development budget for the 
Department of Homeland Security. I want to offer a special 
welcome to Under Secretary Jay Cohen, who joined the Department 
of Homeland Security's Science and Technology Directorate in 
August, 2006. Your reputation as a problem-solver precedes you 
from the Office of Naval Research.
    I also want to welcome our other witnesses, who represent a 
valuable pool of expertise across Homeland Security related 
topics. Mr. Vayl Oxford is the Director of the Domestic Nuclear 
Detection Office at the Department of Homeland Security. Prior 
to his appointment at DNDO, Mr. Oxford served as the Director 
for Counter Proliferation at the National Security Council.
    Dr. Gerald Epstein is a senior fellow for Science and 
Security for Homeland Security at the Center for Strategic and 
International Studies. He has served at the Institute for 
Defense Analysis and with the White House Office of Science and 
Technology Policy.
    Mr. Jonah Czerwinski is a senior fellow for Homeland 
Security with IBM's Global Leadership Initiative. He is also a 
senior advisor for Homeland Security projects at the Center for 
the Study of the Presidency.
    Ms. Marilyn Ward is the Executive Director of the National 
Public Safety Telecommunications Council; Representative 
Gingrey will tell us a little more about her background in a 
moment.
    We look forward to hearing your thoughts on how to support 
a world class R&D enterprise at the Department of Homeland 
Security that keeps our communities safe.
    When the Science Committee helped write the legislation 
authorizing the R&D Programs at DHS, we envisioned an 
organization that would support the Science and Technology 
needs of people on the front lines of domestic security; from 
first responders to computer security professionals, from 
medical workers to civil engineers. Frankly, it has been a bit 
of a rough start. We are familiar with management problems that 
have caused a lack of focus on important R&D priorities and the 
attrition of some of the best and brightest minds from the S&T 
Directorate.
    I have also heard some concerns from communities and cities 
and users of some of the DHS technology, which feel that DHS 
R&D Programs at the S&T Directorate and at DNDO have not been 
entirely responsive to their needs.
    But I do remain hopeful. Under Secretary Cohen has launched 
an ambitious new management structure to insure a more cohesive 
S&T Directorate. Hopefully the R&D results will flow smoothly 
from the earliest research concepts to the most advanced 
technology development. Only time will tell.
    Under Secretary Cohen has admirably acknowledged the 
problems within the S&T Directorate which is the first step in 
formulating solutions. This committee stands ready to work with 
all of you and your staffs to insure that we have a strong and 
responsive research operation at DHS.
    I am concerned, though, about the lack of a strategic plan 
based on risk assessment that should be the basis for research 
priorities within DHS. We can fund billions of dollars in 
research, but if we don't pay attention to the risks we should 
be addressing, we won't have the answers we need when we need 
them. We can base research on anecdotal impressions of need, 
but that is not the scientific approach that the American 
people have a right to expect.
    I strongly encourage you to carry out a detailed, 
systematic, scientific risk assessment soon so that we know 
whether our investments are in the right place. Nuclear threats 
will obviously be a major part of any threat assessment. I am 
especially eager to see signs of close cooperation between the 
S&T Directorate and the DNDO. It is imperative that you all 
take advantage of the complementary efforts of your offices and 
avoid duplication.
    I am committed to working with the Department to insure 
that our R&D efforts there are successful in increasing our 
knowledge of how to confront catastrophes, whether from human 
or nature causes.
    I look forward to hearing all of the witnesses' thoughts on 
the fiscal year 2008 budget request and how that budget 
supports science and technology to make our nation safer.
    I now want to recognize my colleague and the Ranking Member 
from Georgia, Dr. Gingrey, for his opening remarks.
    [The prepared statement of Chairman Wu follows:]
                Prepared Statement of Chairman David Wu
    I would like to call the Subcommittee to order.
    I want to welcome everyone to this morning's hearing on the FY08 
research and development budget for the Department of Homeland 
Security. I want to offer a special welcome to Under Secretary Jay 
Cohen, who joined the Department of Homeland Security's Science and 
Technology Directorate in August 2006. Your reputation as a problem-
solver precedes you from the Office of Naval Research. I also want to 
welcome our other witnesses, who represent a valuable pool of expertise 
across homeland security-related topics. Mr. Vayl Oxford is the 
Director of the Domestic Nuclear Detection Office at the Department of 
Homeland Security. Prior to his appointment to DNDO, Mr. Oxford served 
as the Director for Counter-proliferation at the National Security 
Council. Dr. Gerald Epstein is a senior fellow for science and security 
in the Homeland Security Program at the Center for Strategic and 
International Studies. He has served at the Institute for Defense 
Analyses, and with the White House Office of Science and Technology 
Policy. Mr. Jonah Czerwinski is a Senior Fellow for Homeland Security 
with IBM's Global Leadership Initiative. He is also a Senior Advisor 
for Homeland Security Projects at the Center for the Study of the 
Presidency. Ms. Marilyn Ward is the Executive Director of the National 
Public Safety Telecommunications Council. Representative Gingrey will 
tell us a little more about her background in a moment.
    We look forward to hearing your thoughts on how to support a world-
class R&D enterprise at the Department of Homeland Security that helps 
keep our communities safe.
    When the Science Committee helped write the legislation authorizing 
the R&D programs at DHS, we envisioned an organization that would 
support the science and technology needs of people on the front lines 
of domestic security--from first responders to computer security 
professionals, from medical workers to civil engineers. Frankly, it's 
been a rough start. We're familiar with management problems that have 
caused a lack of focus on important R&D priorities and the attrition of 
the best and the brightest minds from the S&T Directorate. I've also 
heard from communities and cities which feel that DHS R&D programs at 
the S&T Directorate and the Domestic Nuclear Detection Office (DNDO) 
have not been entirely responsive to their needs.
    But I remain hopeful. Under Secretary Cohen has launched an 
ambitious new management structure to ensure a more cohesive S&T 
Directorate. Hopefully, the R&D results will flow smoothly from the 
earliest research concepts to the most advanced technology development. 
Only time will tell whether the changes Under Secretary Cohen has made 
will bring about the radical improvements to the S&T Directorate that 
our nation needs. Under Secretary Cohen has admirably acknowledged the 
problems within the S&T Directorate, which is the first step in 
developing a solution. This committee stands ready to work with Under 
Secretary Cohen and all of his staff to ensure that we have a strong 
and responsive S&T Directorate.
    I am concerned though about the lack of a strategic plan or risk 
assessment that should be the basis for research priorities within the 
Department of Homeland Security. We can fund billions of dollars in 
research, but if we don't pay attention to the risks we should be 
addressing, we won't have the answers we need when we need them. We can 
base research on anecdotal impressions of need, but that is not the 
scientific approach that the American people have a right to expect. I 
strongly encourage you to carry out a detailed, scientific risk 
assessment soon, so that we know whether our investments are in the 
right place. Nuclear threats will obviously be a major part of any 
threat assessment. I am especially eager to see signs of close 
cooperation between the S&T Directorate and Domestic Nuclear Detection 
Office. It is imperative that you take advantage of the complementary 
efforts of your offices and avoid duplication.
    I am committed to working with the Department of Homeland Security 
to ensure that R&D investments are successful in increasing our 
knowledge of how to confront catastrophes, whether from human or 
natural causes. I look forward to hearing all of the witnesses' 
thoughts on the FY08 budget request and how that budget supports 
science and technology to make our nation safer.
    I now want to recognize my colleague and the Ranking Member from 
Georgia, Dr. Gingrey, for his opening remarks.

    Mr. Gingrey. Mr. Chairman, thank you and in the interest of 
full disclosure I want to say that I do know Dan Quayle, and I 
am a lot like him. I can't spell tomato or potato, and I don't 
know if I could give the best impersonation of him like my 
colleague did of President Clinton, but if I stumble, forgive 
me. It is my staff. They gave me remarks that are written in 
very small type, and I will talk to them about that later.
    Great to be with my Chairman this morning at this important 
hearing. I want to thank him for holding the hearing on science 
and technology developments at the Department of Homeland 
Security, and also a special thank you to our esteemed panel of 
witnesses, taking time to dialogue with us about the role that 
science and technology is playing in securing our nation.
    Mr. Chairman, I strongly believe our nation's scientific 
enterprise remains a critical component of national security. 
The efforts of the Science and Technology Directorate and the 
Domestic Nuclear Detection Office contribute to the 
preparedness of our nation against terrorism and nuclear 
disasters. These organizations tap into the limitless 
creativity of our nation's scientists and engineers to bring 
cutting-edge technology to those defending our nation, from 
servicemen and women to border patrol agents and first 
responders.
    I am particularly pleased to welcome Under Secretary Cohen 
and Mr. Vayl Oxford to this subcommittee hearing. Gentlemen, 
your service to our great nation is greatly appreciated. I very 
much enjoyed meeting both of you earlier this week. That was my 
pleasure, and I look forward to continuing the conversations we 
started in regards to the exciting opportunities that 
scientific research is providing to securing our homeland. This 
committee is committed to supporting your work and helping you 
create both a balanced and innovative research portfolio.
    And I would like to take this opportunity to thank Ms. 
Marilyn Ward for joining us today to take part in this 
discussion. Ms. Ward's organization, the National Public Safety 
Telecommunications Council, includes representatives from many 
different first responder communities. Such representatives 
include the International Association of Chiefs of Police, 
emergency managers, as well as fire chiefs. Ms. Ward, I look 
forward to hearing from you on how the Department's research 
and the development activities can further support our nation's 
first responders.
    In particular, your appearance will allow us to examine one 
highly-influential program in the Science and Technology 
Directorate, and that is the Office for Inter-operable 
Communications, and I know you will tell us about that. This 
office has worked for the last several years with first 
responders to improve the inter-operability of communication 
equipment, and that work continues today in cooperation with 
the new Office of Emergency Communications within DHS 
Preparedness Directorate.
    I am eager to not only hear from our witnesses how Science 
and Technology efforts save or are yielding immediate benefits 
to the defense of our nation but also ways we can improve upon 
your efforts. The President has requested over $1.3 billion in 
funding for the two organizations before us today for this next 
'08 fiscal year. How that funding is allocated across the 
various programs and projects in your organization no doubt is 
a difficult task, considering the reality of the world that we 
now live in. Whether the greatest threat to our country is a 
radiologic device coming through our ports or an infectious 
disease outbreak or a cyber attack on our nation's financial 
infrastructure, the fundamental challenges before us how to 
best distribute the limited funding in the face of these 
highly-uncertain and varied threats.
    In addition to prioritizing these various threats our 
country now faces, we must also consider the nature of research 
performed to combat them. Do we focus federal spending towards 
long-term basic research? What percentage of the funding do we 
allocate towards incremental improvements to our current 
capabilities? With these overarching questions in mind, I look 
forward to delving more deeply into the activities of Science 
and Technology Directorate and the Domestic Nuclear Detection 
Office.
    I once again thank all of the witnesses for taking the time 
to be here with us today. I anticipate this hearing will yield 
a fruitful and productive conversation. Mr. Chairman, I look 
forward to hearing from them and continuing to work with you on 
this very important subcommittee, and with that I will yield 
back to the Chairman.
    [The prepared statement of Mr. Gingrey follows:]
           Prepared Statement of Representative Phil Gingrey
    I first want to thank Chairman Wu for holding this critically 
important hearing on the science and technology developments at the 
Department of Homeland Security. Also, a special thank you to our 
esteemed panel of witnesses for taking time to dialogue with us about 
the role science and technology is playing in securing our nation.
    Mr. Chairman, I strongly believe our nation's scientific enterprise 
remains a critical component of homeland security. The efforts of the 
Science and Technology Directorate and the Domestic Nuclear Detection 
Office contribute to the preparedness of our nation against terrorism 
and natural disasters. These organizations tap into the limitless 
creativity of our nation's scientists and engineers to bring cutting 
edge technology to those defending our nation from servicemen and women 
to border patrol agents to first responders.
    I'm particularly pleased to welcome Admiral Cohen and Mr. Vayl 
Oxford to this subcommittee hearing. Gentlemen your service to our 
great nation is greatly appreciated and I very much enjoyed meeting 
with you both this week. I look forward to continuing the conversations 
we started in regards to the exciting opportunities scientific research 
is providing to the securing of our homeland. This committee is 
committed to supporting your work and helping you create both a 
balanced and innovative research portfolio.
    I would like to take this opportunity to thank Ms. Marilyn Ward for 
joining us today to take part in this discussion. Ms. Ward's 
organization, the National Public Safety Telecommunications Council 
includes representatives from many different first responder 
communities. Such representatives include the International 
Associations of Chiefs of Police, emergency managers, as well as fire 
chiefs. Ms. Ward, I look forward to hearing from you on how the 
Department's research and development activities can further support 
our nation's first responders. In particular, your appearance will 
allow us to examine one highly influential program in the Science and 
Technology Directorate, the Office for Inter-operable Communications. 
This office has worked for the last several years with first-responders 
to improve the inter-operability of communications equipment and that 
work continues today in cooperation with the new Office of Emergency 
Communication within the DHS Preparedness Directorate.
    I am eager to not only hear from our witnesses how science and 
technology efforts are yielding immediate benefits to the defense of 
our nation, but also ways we can improve upon these efforts.
    The President has requested over $1.3 billion dollars in funding 
for the two organizations before us today for fiscal year 2008. How 
that funding is allocated across the various programs and projects in 
your organizations, I have no doubt, is a difficult task considering 
the reality of the world we now live in. Whether the greatest threat to 
our country is a radiological device coming through our ports, or an 
infectious disease outbreak, or a cyber attack on our nation's 
financial infrastructure; the fundamental challenge before us is how to 
best distribute limited funding in the face of these highly uncertain 
and varied threats.
    In addition to prioritizing these various threats our country now 
faces, we must also consider the nature of research performed to combat 
them. Do we focus federal spending towards long-term, basic research? 
What percentage of funding do we allocate towards incremental 
improvements to current capabilities?
    With these overarching questions in mind, I look forward to delving 
more deeply into the activities of the Science and Technology 
Directorate and the Domestic Nuclear Detection Office. I once again 
thank all the witnesses for taking the time to be here today and 
anticipate this hearing will yield a fruitful and productive 
conversation. Mr. Chairman, I look forward to continuing to work with 
you on this subcommittee, and with that I yield back the balance of my 
time.

    Chairman Wu. Thank you, Dr. Gingrey. Other Members who wish 
to submit opening statements, the opening statements will be 
added to the record.
    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you Mr. Chairman.
    As you know, we have a problem in Arizona. Our border is broken and 
the Federal Government is failing to fix it. The border is porous, and 
monitoring is inadequate. We have deployed systems and technology to 
help, but not nearly enough to stem the flow of illegal immigrants, 
drugs and threats of terrorism.
    We should be investing in border-related research and development, 
but unfortunately, the budget proposal before us today, seeks cuts.
    This just doesn't make any sense. Not for Arizona, and not for our 
country.
    Budgeting is about priorities, and I believe our priorities should 
be based on solid risk assessment. Unfortunately, it doesn't look like 
today's proposal does that.
    Clearly biological and nuclear threats deserve our attention, but 
so do University Centers for Excellence and much of the long-term 
research and development that our Federal Government undertakes to 
protect us from future risks. Not to mention the border.
    I look forward today's testimony.
    I yield back the balance of my time.

    Chairman Wu. And I now turn to our witnesses. As each of 
you all already know, please try to keep your testimony to 
within approximately five minutes or so, summarizing your 
substantial written testimony. And after your testimony the 
Members of the Committee will have a rotating period of five 
minutes each to ask questions. And we will start with Under 
Secretary Cohen.

 STATEMENT OF MR. JAY M. COHEN, UNDER SECRETARY OF SCIENCE AND 
          TECHNOLOGY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Cohen. Good morning, Chairman Wu, Congressman Gingrey, 
and Congressman Bonner. I can tell you it is a personal honor 
to appear before the distinguished Science Committee, and I 
have had the opportunity to testify in the past. I note that 
both the chairman and the Ranking Member went to medical 
school, so you will appreciate I may limit my comments here.
    Chairman Wu. One of us finished, one of us didn't. Since 
his title is doctor, you can take your guess.
    Mr. Cohen. Well, I won't venture----
    Chairman Wu. The one that didn't finish went on to become a 
rich man.
    Mr. Cohen. Yes, sir.
    Chairman Wu. And the other one is struggling.
    Mr. Cohen. I won't venture to guess who is smarter. And I 
am also humbled to be sitting in a panel with such 
distinguished individuals as are sitting before you. But I am 
here to update you on the progress that the Department of 
Homeland Security Science and Technology Directorate has made 
and discuss the President's budget request for fiscal year 
2008, and how I believe it will position us to develop and 
transition technology to protect the Nation from catastrophic 
events as the Congress and the Administration wisely envisioned 
in the 19 pages of enabling legislation for the Department of 
Homeland Security.
    As the Chairman has already indicated, my directorate is 
committed to serving our customers. Those are the 22 DHS 
components and their customers, the customers of my customers, 
our heroes, the first responders, the police, fire, and EMT. 
But the customers as customers are greater than that. For the 
Coast Guard, they are the guardsmen who sail in harm's way, for 
the Border Patrol, the agents who man the border, and for the 
TSA, the screeners. They are the hardworking men and women on 
the front lines of Homeland Security, and they appreciate your 
support, and in prior testimony I commented on Chairman Bennie 
Thompson's very kind e-mail to those many hardworking people, 
appreciating what they have done.
    I greatly appreciate the support and the leadership of the 
Congress. Last year you took a very hard and strong decision in 
September to restore the fiscal year 2007 funding. That has 
been enormously helpful to me in kick starting the directorate 
to achieve the results that we all desire, and I am especially 
grateful of that in what I know is a difficult election year. 
So thank you so much.
    And I also want to thank the staff, special staff of the 
Science and Technology Committee, but all the staffs of the 
committees that I work with who have worked with me, have tried 
to educate me, and it is a very professional relationship. And 
I congratulate you both on the selection of the new staff for 
the Science and Technology Committee.
    As you are aware, the focus of my first months on the job 
have been laying the foundation to align the directorate for 
success, and that was to excel in four key areas, and I shared 
this with you last September when I testified previously. It 
was to get the organization, the people, the books, and the 
content of the program right. Those were my four gets. But they 
were focused on the threats as you mentioned, Mr. Chairman, and 
the threats as I defined them simplistically were bombs, 
borders, bugs, and business. And bombs, borders, and bugs we 
can all feel, we can all sense. They are tangible, but the 
business is really about the cyber backbone that enables this 
incredible technology-focused economy that we have. And if the 
bad guys that you have mentioned can take that away from us, we 
will have as much panic as I believe we would from a nuclear 
device.
    I believe the record will show that we made good progress 
in my first six months on the job in all of these areas and 
just to give a quick highlight, we have, in fact, with the 
approval of the Congress and Secretary Chertoff in the first 
month realigned the directorate. I have a strong leadership 
team in place where all the key positions are filled. We have 
welcomed over 20 new highly-qualified scientists and engineers, 
subject-matter experts, and professionals into the directorate, 
and four Government Service personnel who left the directorate 
last spring have asked to come back and are now back on board, 
and welcome them and the continuity that they bring.
    I am basically two-thirds manned of where I need to be by 
the end of this fiscal year and we are making very good 
progress. I have no shortage of volunteers. Even some who want 
to work pro bono I am trying to figure out how I do that.
    The six technical divisions are all led by veteran S&T 
members. My three research investment portfolio directors for 
research, basic research, transition, and innovation, my high 
risk, provide the crosscutting coordination amongst those six 
divisions so I don't end up with stovepipes.
    And finally, those divisions are focused on what I believe 
you have mandated and the public expects are the high priority 
issues of explosives, things that go bang, of the nuclear 
radiological, that is Mr. Oxford, but we work closely together, 
chem bio, half of my budget, and it is a threat which I believe 
the other witnesses will indicate is as significant as the 
nuclear radiological threat in today's world. Command, control, 
and inter-operability, and I know you will ask more about that. 
Borders and maritime. I initially thought about that as two 
divisions, but our borders on the west coast are sea on the 
north land, sea on the southeastern land and the southwest, 
48,000 border patrol, 40,000 Coast Guardsman. The synergies 
there are impressive. It is one division, but the comment of 
the Coast Guard has detailed an active duty Coast Guard captain 
to be my deputy director so we are seamless. And at the end of 
the day the more we can do to remove seams, the safer we will 
be against a terrorist.
    We have established a division of human factors. Dow 
Chemical has a wonderful commercial today about the human 
element. It is hostile intent, the psychology of terrorism. 
These may be the light sciences, but they are critically 
important if we are going to defend the country. I came on 
board on the 10th of August. That was the day of the liquid 
explosives plot in England. The Brits did it right. They got 
the bomber. You get the bomber, you don't have to worry about 
the bomb, but regrettably, there may always be leakage, so we 
do worry about the bomb. But human factors, like command, 
control, and inter-operability, crosscut.
    And finally, infrastructure protection and geophysical 
sciences. I am responsible, as you have noted, for all hazards, 
not just man-made. And so tsunamis, hurricanes, fire, flooding, 
earthquakes, we have got to do a better job of protecting 
against those.
    Now, there is much more I could say, but I will reserve 
that for the question and answer period. I did want to note a 
statement that I have been making. Chairman Wu, I know I 
finally arrived because I am in a blog now, last Friday, when I 
said that we are in crisis in science and technology. In the 
middle schools, kids are turning away from math and science. 
You know this better than I do. And Congressman Bonner, I was 
so pleased to see Governor Riley's State of State Address, 
where he devoted nearly half of his message, and we are seeing 
that in so many states; Kentucky, and there were hearings 
yesterday on the Hill. But we are in crisis, and if we don't 
get the kids to take the hard subjects of science and math, we 
will not enjoy the economic society, the technological 
dominance that we have enjoyed for so long. And so I compared 
it to the Play Station society or the Play Station generation, 
and some people viewed that as derogatory, but I stand by those 
remarks. And we want instant gratification, but science and 
technology require much more.
    So we are moving forward on Centers of Excellence. We 
currently have seven. We are realigning them to be in line with 
my divisions. We have broad agency announcements out for an 
additional four to meet the needs that we weren't meeting, and 
I am allotting my very robust thanks to you, Scholarship and 
Fellowship Program, to those Centers of Excellence, which 
currently include over 80 universities and colleges in the 
states but shortly will include more than 100. This is 
exciting. The S&T Directorate appreciates the many demands on 
the taxpayers' precious dollars. We are committed to being wise 
stewards of those public monies that you have and will entrust 
to us. I appreciate the Science and Technology Committee's 
support. I welcome your oversight, and I will be happy to take 
your questions. Thank you so much.
    [The prepared statement of Mr. Cohen follows:]
                   Prepared Statement of Jay M. Cohen

INTRODUCTION

    Good Morning Chairman Wu, Ranking Member Gingrey, and distinguished 
Members of the Subcommittee. It is an honor to appear before you today 
to update you on the progress of the Department of Homeland Security's 
(DHS) realigned Science and Technology Directorate (S&T Directorate) 
and discuss how the Directorate's priorities in the President's Budget 
Request for Fiscal Year 2008 will position us to develop and transition 
technology to protect the Nation from catastrophic events.
    The S&T Directorate is committed to serving our customers, the 
components that comprise the Department of Homeland Security--and their 
customers--the hardworking men and women on the front lines of homeland 
security, especially the first responders, who need ready access to 
technology and information to perform their jobs more efficiently and 
safely. I am honored and privileged to serve with the talented 
scientists, engineers and other professionals who support these 
dedicated Americans in our shared mission to secure our homeland and 
defend our freedoms.
    First and foremost, I am very appreciative of the leadership of the 
Congress in its support of the S&T Directorate, and of me personally, 
as I assumed the role of Under Secretary for Science and Technology 
last August. The informed counsel of Committee Members with homeland 
security oversight, and that of their staffs, has been invaluable to my 
efforts to position the S&T Directorate for accountability, tangible 
results and success, both for today and in the future.
    Also, thank you for your vote of confidence in the Directorate, 
evidenced by the decision to appropriate $848 million in FY 2007. This 
has been enormously helpful in my efforts to better align people with 
our mission to develop a robust science and technology capability to 
protect the Nation as Congress envisioned in the enabling legislation 
for the Department. We look forward to working with the 110th Congress 
in a bipartisan and non-partisan manner to use science to better secure 
the Nation.
    I am also grateful for the leadership of the President and Homeland 
Security Secretary Michael Chertoff and for the vision and guidance 
that the Secretary and Deputy Secretary Michael Jackson have 
contributed to the realignment process.

THE FIRST 180 DAYS--ALIGNED AND OPEN FOR BUSINESS

    My first six months on the job have been focused on laying the 
foundation in organization, people, and processes to enable the 
Directorate to skillfully apply the resources you have wisely provided 
in ways that best serve the American people and better secure our 
homeland. I am pleased to report that we are ``open for business,'' and 
your support of the President's FY 2008 Budget Request will allow us to 
build upon that momentum.
    As I've said on many occasions, the S&T Directorate must excel in 
four key areas if we are to accomplish these goals: We must get the 
organization, the people, the books, and the program content right. 
These four ``gets'' are the cornerstones of the realignment effort and 
we've made significant progress in each of these areas. In addition to 
the four gets, the four Bs--bombs, borders, bugs and business--provide 
the thematic approach to help keep us focused on the priority areas for 
the S&T Directorate.
    I have realigned the S&T Directorate to help it fulfill its 
potential of becoming the customer-focused, output-oriented, science 
and technology management organization that Congress intended it to be 
and the Nation deserves. I thank Congress for its support of the new 
organizational structure that, in turn, is supportive of a broad and 
balanced range of activities that are aimed at identifying, enabling 
and transitioning new capabilities to our customers to better protect 
the Nation. We have organized our program management into six technical 
divisions that are led by veteran S&T Directorate staff members and 
linked to three research and development investment portfolio directors 
in a ``matrix management'' structure. The technical divisions are 
focused on enduring homeland security disciplines of Explosives; 
Chemical and Biological; Command, Control & Inter-operability; Borders 
and Maritime Security; Human Factors; and Infrastructure Protection and 
Geophysical Sciences. The effort to combat the threat posed by nuclear 
or radiological weapons is primarily led by the Domestic Nuclear 
Detection Office. The portfolio directors--Director of Research, 
Director of Transition, and Director of Innovation/Homeland Security 
Advanced Research Projects Agency (HSARPA)--provide cross-cutting 
coordination of their respective aspects of the investment strategy 
within the technical divisions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I am pleased to report that today the S&T Directorate has a strong 
leadership team in place with all key positions filled. Since August, 
we have also welcomed 20 new highly qualified subject matter experts 
and professionals to the S&T Directorate, including three former DHS 
S&T employees who had previously left the Directorate and who have 
returned. Overall, we are 66 percent staffed and plan to have 100 
percent of staff in place by the end of 2007.
    I have made significant strides in ``getting the books right'' by 
holding the S&T Directorate to a high standard of fiscal 
responsibility. Toward this end, I have established an Office of 
Strategy, Policy & Budget Division led by the S&T Chief Financial 
Officer that has put in place the systems and protocols that will 
enable the S&T Directorate to be fully responsive and transparent in 
the budget development process and in the sound fiscal management of 
S&T appropriations. This new office is enhancing the efficiency of S&T 
operations by integrating related functions of policy, planning, 
programming, budgeting and execution. Centralizing financial oversight 
has enabled the S&T Directorate to implement corrective actions to 
address financial management deficiencies and accelerate the 
distribution of funds to DHS Laboratories, Department of Energy (DOE) 
National Laboratories, private industry and academia. As a result, the 
S&T Directorate has committed approximately 50 percent of its FY 2007 
budget compared to six percent at the same time last year, 
significantly accelerating the distribution of funds to DHS Labs, DOE 
Labs, industry and academia, which will result in accelerated 
technology development and delivery to keep our nation safer.
    In other developments, I have added a director of Special Programs 
to work in select, mission-critical areas. And a new director of Test & 
Evaluation and Standards is building upon the S&T Directorate's 
previous work in homeland security standards and adding test and 
evaluation capabilities to advance this effort and draw greater 
industry participation in developing new technologies for homeland 
security applications throughout DHS. We have also established a 
Corporate Communications Office to inform and engage our customers and 
their customers in the S&T Directorate's broad investment portfolios.
    I also know that we must look beyond our Department, indeed beyond 
our nation's borders, for solutions in combating domestic terrorism. 
Therefore, consistent with DHS enabling legislation, I have established 
Interagency and International Program Offices responsible for, 
respectively, coordinating with other Executive Branch agencies to 
reduce duplication and identify unmet needs, and coordinating our 
international outreach efforts to help us tap into science and 
technology communities across the globe for solutions to counter 
domestic terrorism. Embedded S&T Directorate liaisons in Europe, the 
Americas and Pacific/Asia are casting a wide global net to identify the 
most viable homeland security solutions and their providers. This 
office will allow S&T to benefit from and leverage off of the efforts 
of our allies in the War on Terror.
    I have developed mechanisms in three areas to better coordinate the 
scientific research and technical development activities of the S&T 
Directorate with those of other federal Agencies.
    First, our overarching policy is to leverage research and 
development efforts across the Federal Government to benefit our DHS 
customers as well as first responders. Our preference is to avoid 
replicating efforts underway by other federal agencies in favor of 
coordinating and collaborating with our federal counterparts in 
research areas of mutual interest and benefit. The Homeland Security 
Act of 2002 provides me with specific authorities in this regard.
    The second coordinating mechanism is aimed at better positioning 
the Directorate to increase our awareness of, and the opportunities to 
participate in or otherwise benefit from, other federal research, 
development, test and evaluation (RDT&E) efforts that are relevant to 
our mission. The new directors for Interagency Coordination and Special 
Programs report directly to me regarding their progress in this area.
    The third mechanism for coordinating research and development (R&D) 
is through specific agreements and relationships. For example, in 
December of 2006, the Department of Defense (Homeland Defense), the 
Department of Justice, and DHS S&T signed a Memorandum of Agreement 
(MOA) to promote closer coordination and collaboration of our R&D and 
technology transfer efforts. The S&T Directorate is also actively 
engaged in various committees, subcommittees, and working groups of the 
National Science and Technology Council. In recent months, we have 
developed a closer working relationship with U.S. Northern Command, 
U.S. Joint Forces Command, the Technology Support Working Group, the 
National Guard Bureau, and the Joint IED Defeat Organization regarding 
research and development initiatives, defining their inter-operability 
requirements through established Defense Department, Joint, and 
military service-based processes as appropriate. In addition, S&T has 
established a pilot program and assigned a liaison official to the 
California Governor's Office of Homeland Security in Sacramento in an 
effort to recognize and address coordination and inter-operability 
issues early on.
    Last December, we saw the ``physical manifestation'' of our 
restructuring plan spring to life with the relocation of 340 of our 
staff members within the Directorate. Staff are now physically co-
located within their new organizational alignments. At the same time, I 
issued the first S&T Organization and Requirements Manual (STORM) that 
defines functions, duties and responsibilities for the administration 
and management of the Directorate. The STORM tells our customers who we 
are and how we function so they may better understand the capabilities 
we can bring to bear in support of their protective missions.
    Throughout this process, it was very important to me personally 
that S&T staff be kept informed of our plans for the realignment and 
that they have a forum for asking questions and expressing their views 
and concerns. Since last August, I have held four ``All Hands'' 
meetings at regular intervals to brief all S&T staff, including 
teleconference links with staff in other locations such as the 
Transportation Security Laboratory in Atlantic City, Plum Island Animal 
Disease Center, and the Environmental Measurements Laboratory in New 
York City. These meetings also allow me to recognize the achievements 
of staff members, to answer questions and solicit input, and, most 
importantly, express my gratitude for their excellent work and for all 
the cooperation, support and patience they have exhibited during this 
transitional period.
    During the first six months of my tenure as Under Secretary for 
Science and Technology, I have focused on building the organization, 
team and processes that are necessary for any science and technology 
management organization to succeed. While our effort to completely 
institutionalize these changes continue, we now have a foundation in 
place that allows us to focus on delivering products to our customers 
as we execute our FY 2007 appropriation. The S&T Directorate is 
striving to be effective, cost-efficient, responsive, agile and 
flexible, and with your support of the President's FY 2008 Budget 
Request we will build on our current momentum.

CUSTOMER/OUTPUT FOCUSED

    The S&T Directorate functions as the science and technology manager 
within the Department. We invest in science and technology that 
supports DHS components in their efforts to protect our homeland 
against catastrophic events--technology that makes the Nation safer. In 
the last six months, we have established meaningful working 
relationships with our DHS operational component customers. As they 
appear before you this year, I encourage you to ask them about the ways 
that S&T is addressing their operational needs. Thanks to the support 
of the Congress and the leadership of the Department, we are gaining 
significant momentum, and I humbly ask for your continued trust and 
support so that we can build on those efforts.
    The S&T Directorate develops and manages an integrated program of 
science and technology, from basic research through technology 
transition to customers that are the operating components of DHS, 
State, local and tribal governments, first responders and private 
sector entities. The managers of this program are predominantly active 
scientists and engineers in the many disciplines relevant to Homeland 
Security. They are guided by a multi-tiered investment strategy and 
review process based on higher guidance, the stated needs of our 
customers, and technology opportunities.
    S&T's three R&D portfolios support a broad range of program 
activities across the Directorate. The President's FY 2008 Budget 
Request includes $86 million for the basic research portfolio which 
addresses the long-term R&D needs for the Department in sciences of 
enduring relevance to Homeland Security. The transition portfolio, 
designed to provide mission-capability relevant technology in support 
of the Department's acquisition programs, is driven by customer needs 
through a DHS customer-led IPT process. The President has requested 
$343 million in FY 2008 for this effort. The Director of HSARPA 
administers the $73 million innovation portfolio (including the Small 
Business Innovation Research program) to promote revolutionary changes 
in technologies with a focus on prototyping and deploying technologies 
critical to homeland security. This portfolio, balanced around risk, 
cost, impact and time to delivery, produces capabilities of high 
technical quality responsive to homeland security requirements.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Basic Research (> 8 years)

    The S&T Directorate's basic research portfolio addresses long-term 
research and development needs in support of DHS mission areas that 
will provide the Nation with an enduring capability in homeland 
security. This type of focused, protracted research investment has the 
potential to lead to paradigm shifts in the Nation's homeland security 
capabilities.
    The S&T Directorate's basic research program enables fundamental 
research at our universities, government laboratories and in the 
private sector. Approximately $95 million is allocated for basic 
research in FY 2007 and $86 million or 13 percent of S&T's RDT&E 
budget, is allocated in FY 2008. Eventually, I would like up to 20 
percent of the S&T Directorate budget allocated for basic research. It 
is critical that basic research be funded at consistent levels from 
year to year to ensure a continuity of effort from the research 
community in critical areas that will seed homeland security science 
and technology for the next generation of Americans and prevent 
technological surprise.

Product Transition (0 to 3 years)

    The centerpiece of the S&T Directorate's product transition 
portfolio are Capstone Integrated Product Teams (IPT) that function in 
mission-critical areas to identify our customers' needs and enable and 
transition near-term capabilities for addressing them. These Capstone 
IPTs engage DHS customers, acquisition partners, S&T technical division 
heads, and end-users as appropriate in our product research, 
development, transition and acquisition activities.
    The IPT process enables our customers to identify and prioritize 
their operational capability gaps and requirements and make informed 
decisions about technology investments. The S&T Directorate, in turn, 
gathers the information it needs to respond with applicable technology 
solutions for closing these capability gaps. The science and technology 
solutions that are the outcome of this process, referred to as Enabling 
Homeland Capabilities, draw upon technologies that can be developed, 
matured, and delivered to our customer acquisition programs within 
three years.
    Capstone IPTs have been established in 10 major areas: Information 
Sharing/Management; Cyber Security; People Screening; Border Security; 
Chemical/Biological Defense; Maritime Security; Explosive Prevention; 
Cargo Security; Infrastructure Protection; and Incident Management 
(includes first responder inter-operability).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The S&T Directorate's product transition/IPT process ensures that 
appropriate technologies are engineered and integrated into the DHS 
acquisition system for our customers. The $343 million allocated for 
product transition for FY 2008 represents nearly half of my RDT&E 
budget.
    The IPT process has created an excellent forum for the S&T 
Directorate to gain a better understanding of the most important issues 
of our customer agencies. Another tangible benefit of this Capstone IPT 
process has been improved coordination in addressing common functional 
challenges across the Department. This is due in large measure to the 
enthusiastic participation of DHS agency heads such as TSA 
Administrator Kip Hawley, Secret Service Director Mark Sullivan, and 
Border Patrol Chief David Aguilar and many other DHS leaders who have 
all personally chaired the IPTs relevant to their interests.
    In FY 2008, the S&T Directorate plans to transition or transfer 
four programs that pre-date the IPT process. These programs have 
reached technical maturity and will be transferred to other DHS 
agencies who will be responsible for their continued operation. The 
budget request reflects the transfer to the Office of Health Affairs of 
the operations portions of BioWatch 1 & 2, the Biological Warning and 
Incident Characterization (BWIC) system, and the Rapidly Deployable 
Chemical Detection System, totaling $84.1 million. Moving the 
operations portions of BioWatch out of S&T allows us to focus on 
completing the development of BioWatch 3. BioWatch is a bio-aerosol 
monitoring system designed to provide cities the earliest possible 
detection of a biological attack. BWIC interprets warning signals from 
BioWatch and public health surveillance data using incident 
characterization tools (e.g., plume and epidemiological models) to 
quickly determine the potential impacts a release may have. Together, 
these two systems provide emergency personnel with the information they 
need to respond effectively and initiate life-saving medical 
countermeasures. In addition, the FY 2008 budget request reflects the 
transfer of the non-R&D component of the SAFECOM program to the 
National Protection and Programs Directorate, totaling $5.0 million.
    It is important that the S&T Directorate also engage the emergency 
responder community and address operational issues to help them do 
their jobs more quickly, effectively and safely. S&T's Technology 
Clearinghouse and TechSolutions initiatives provide direct support to 
emergency responders' technology needs. The Technology Clearinghouse, 
created in accordance with a provision of the Homeland Security Act of 
2002, is designed to be a ``one-stop shop'' for access to technology 
information for federal, State, and local public safety and first 
responder communities. TechSolutions provides a Web-based mechanism for 
responders to register their input regarding capability gaps that need 
to be addressed to help them in their jobs. S&T responds by identifying 
existing technology that may meet the need, or if nothing is available, 
proceeding with the rapid prototyping of an appropriate solution to be 
fielded in less than 18 months. S&T also houses the Office for Inter-
operability and Compatibility, which includes some components of the 
legacy SAFECOM program and aims to increase levels of emergency 
responder inter-operability by developing tools and methodologies, as 
well as advancing standards that emergency response agencies can put 
into effect.

Innovative Capabilities (2 to 5 years)

    S&T's Innovation/HSARPA portfolio supports a key goal of mine for 
the Directorate in its efforts to put advanced capabilities into the 
hands of our customers as soon as possible. It has made important 
inroads in research areas aligned with our DHS customers. Toward this 
end, S&T has introduced two important new initiatives. One of these, 
Homeland Innovative Prototypical Solutions (HIPS) is designed to 
deliver prototype-level demonstrations of game-changing technologies 
within two to five years.
    The second initiative, High Impact Technology Solutions (HITS), is 
designed to provide proof-of-concept solutions within one to three 
years that could result in high-payoff technology breakthroughs. While 
these projects are very high-risk, they offer the potential for ``leap-
ahead'' gains in capability should they succeed. While projects are 
separately budgeted in ``Innovation/HSARPA'' (based on moderate to high 
risk with a high payoff, if successful), ALL are executed within the 
six technical divisions.
    The S&T Directorate also continues to manage an active Small 
Business Innovative Research (SBIR) program on behalf of DHS that 
currently issues two solicitations each year and generates multiple 
awards for the small business community. The first solicitation for FY 
2007 opens in mid-February and the second solicitation is planned for 
release in May. The solicitations will address topics in areas that are 
aligned with the six technical divisions.
    The Innovation/HSARPA portfolio is receiving $60 million in FY 2008 
funding for the innovative/leap-ahead HIPS and HITS projects. Because 
of the short timeline for HIPS and HITS, we anticipate that these 
projects will respond to the urgent needs of the DHS components for 
solutions to fill capability gaps.

ENABLING U.S. LEADERSHIP IN SCIENCE & TECHNOLOGY

University-Based Centers of Excellence
    The S&T Directorate is developing a robust, results-oriented 
network of Homeland Security Centers of Excellence (COEs) to leverage 
the independent thinking and ground-breaking capabilities of the 
Nation's colleges and universities. The COEs are conducting multi-
disciplinary research and education, each focused on an area critical 
to homeland security. The Office of University Programs is providing 
the communications and infrastructure to produce, share, and transition 
the Centers' research results, data, and technology to customers and 
end-users.
    Currently, seven pre-existing COEs connect experts and researchers 
at more than 80 colleges and universities, including several Minority 
Serving Institutions (MSI). More than 20 partners representing 
industry, laboratories, think tanks, nonprofit organizations, and other 
agencies also participate. University Programs is coordinating COE 
efforts with other S&T Directorate-sponsored, university-based 
initiatives. Under the new S&T organizational construct, existing COEs 
are being strategically aligned with at least one S&T division, or to 
Directorate-wide activities such as Operations Analysis and the 
Homeland Security Institute, in a structure that will best support the 
Divisions' fundamental research and development activities and other 
requirements.
    We are proceeding with plans to establish four additional COEs over 
the next two fiscal years to help round-out the Directorate's need for 
university-based fundamental research. The new COEs will combine the 
research missions of some existing COEs and add new research areas 
under the division-aligned construct to meet DHS needs. S&T has 
released Broad Agency Announcements (BAAs) regarding plans to establish 
new COEs in the areas of explosives detection, mitigation, and 
response; border security and immigration; maritime, island, and 
extreme/remote environment security; and natural disasters, coastal 
infrastructure and emergency management. The competitive selection 
process is designed to ensure that institutions of high quality and 
academic merit participate from as many areas of the United States as 
practicable.

DHS Scholars and Fellows Program
    DHS education programs are helping to attract and nurture future 
scientific leaders for the homeland security workforce and to 
strengthen the expertise of our existing labor pool. University 
Programs is engaging high-performing students through the DHS Scholars 
and Fellows program. Increasingly, S&T's scholarships and fellowships 
will become aligned to the Centers of Excellence and to the DHS 
mission. During this period of transition, we will honor our 
commitments to all currently participating Scholars and Fellows.
    The FY 2008 budget requests $38.7 million for S&T's University 
Programs, which includes the Homeland Security Centers of Excellence 
and the Scholars and Fellows Program.

Office of National Laboratories
    In carrying out its mission, the S&T Directorate works to develop, 
sustain, and renew a coordinated network of DOE National Laboratories, 
federal laboratories and University Centers, the infrastructure needed 
by multi-disciplinary teams of scientists, engineers and academics to 
discover, develop and transition homeland security capabilities to 
operational end-users.
    The FY 2008 budget request includes $88.8 million for the Office 
for National Laboratories (ONL), through which the S&T Directorate's 
laboratory facilities programs are executed. ONL provides the Nation 
with a coordinated, enduring core of productive science, technology and 
engineering laboratories, organizations and institutions, which can 
supply knowledge and technology required to secure our homeland. In 
addition to oversight of laboratory operations in direct support of the 
Department and its missions, ONL also has the specific responsibility 
for coordinating homeland security-related activities and laboratory-
directed research conducted within the DOE National Laboratories.

Industry Participation in DHS Science & Technology
    Industry is a valued partner of DHS S&T and its continued 
participation in developing solutions for homeland security 
applications is vital to our effort to safeguard the Nation. Consistent 
with S&T's new structure, our Innovation/HSARPA portfolio and six 
technical divisions will be releasing BAAs that seek industry 
participation to address specific challenges in their respective areas. 
For example, Innovation/HSARPA has already posted BAAs seeking 
expertise in tunnel detection technologies, container security (SAFECON 
program), and a mobile screening laboratory to support human screening 
R&D in the field.
    Innovation/HSARPA plans to release six additional BAAs shortly to 
address areas that include critical infrastructure protection, hostile 
intent detection and other key areas. By spring 2007, we intend to 
issue a BAA for longer-term efforts that cover our complete innovation 
topic area portfolio.
    No one knows where good ideas come from and for that reason I have 
been personally proactive in both seeking out and receiving technology 
briefs and opportunities. This is a culture I am working to instill 
throughout the DHS S&T Directorate.
    The Support Anti-terrorism by Fostering Effective Technologies 
(SAFETY) Act of 2002, administered in the S&T Directorate, is proving 
to be a valuable tool in expanding the creation, proliferation and use 
of cutting edge anti-terrorism technologies throughout the United 
States. Over the past year we have made significant improvements in 
implementing the Act, including a new Rule; a revised, streamlined 
Application Kit; new coverage for emerging technologies that are 
undergoing test and evaluation; increased use of pre-application 
teleconferences between SAFETY Act technology evaluators and applicants 
to review requirements and answer questions prior to submitting a full 
application; and formal procedures to expedite applications for 
technologies involved with pending government procurements. The Office 
of SAFETY Act Implementation (OSAI) has made significant strides in 
reducing application processing time and providing more Qualified Anti-
Terrorism Technologies (QATTs) that could save lives. Through increased 
efficiencies and process improvements, the average time to process 
SAFETY Act applications has been reduced from 233 days in the early 
days of the program to less than 140 days in FY 2007. As of February 
2007, OASI has received 223 full applications and 376 pre-applications. 
A total of 137 SAFETY Act awards have been granted--87 applications 
have qualified for both Designation and Certification and 50 have 
received Designation only. I am mindful of the interest in this program 
in the Congress and across the Nation.
    As part of our outreach efforts to encourage greater industry 
participation, the Directorate is hosting the first Homeland Security 
Science & Technology Stakeholders Conference, May 21-24. The conference 
will inform government, industry and academia of the direction, 
emphasis, and scope of the research investments by the S&T Directorate, 
and provide information about business opportunities. The conference 
will present the Directorate's new organization, explain how to do 
business with the DHS S&T research enterprise, and provide visibility 
into new and emerging technologies through an Innovation Gateway 
Marketplace. I hope you will join us for this event at the Ronald 
Reagan Building and International Trade Center.

FY 2008 BUDGET OVERVIEW

    Science and Technology Directorate's budget request of $799.1 
million includes $142.6 million for Management and Administration (M&A) 
and $656.5 million for research, development, testing and evaluation. 
M&A funds federal employees' salaries, benefits, travel, and other 
expenses at Headquarters and the S&T laboratories. This staff maintains 
oversight of S&T's extensive day-to-day technical and administrative 
operations. M&A also funds business operations, including working 
capital fund, and management support. Research, Development, 
Acquisition and Operations supports the needs of the operational 
components of the Department and is categorized to match the new S&T 
organization. The basic research, product transition and innovation R&D 
activities undertaken by S&T cut across the Directorate and its 
divisions and are incorporated into the following projects and programs 
that are included in the President's budget for FY 2008.

        <bullet>  The $25.9 million requested for Borders and Maritime 
        Security will support technology development for the Secure 
        Border Initiative (SBI), a comprehensive multi-year plan to 
        secure America's borders. This Division is providing the tools, 
        processes, and manpower to ensure SBI implementation is 
        effective and affordable. We are working directly with the SBI 
        program executive office to provide a transformation strategy 
        for SBI; develop the next generation of modeling and analysis 
        tools for strategic planning; and provide systems engineering 
        support. The Division will also develop and transition 
        technologies to industry to reduce risk and support border 
        security programs like SBInet, a technology acquisition program 
        under the Customs and Border Protection SBInet Program 
        Management Office.

           We are also developing technologies to ensure the integrity 
        of cargo shipments with known origins, and to better target 
        suspicious shipments, and to enhance the end-to-end security of 
        the supply chain--from the manufacturer of goods to final 
        delivery. One of the most significant potential terrorist 
        threats to the Nation is the vast numbers of shipping 
        containers that flow through our borders each year, most of 
        which enter without physical inspection. Technologies and 
        processes developed within this area will assure government 
        customs and shippers of the integrity of shipping containers 
        and its cargo and communicate the container's status as well as 
        security information. By employing a system-of-systems 
        approach, this will deliver technological capabilities to DHS 
        customers and end-users that address supply chain 
        vulnerabilities. These capabilities are directed toward 
        enhanced physical security and information management, and 
        bound by a security architecture which encompasses the world's 
        supply chain.

        <bullet>  The $228.9 million requested for Chemical and 
        Biological will provide the basic knowledge, technologies and 
        systems needed to protect against possible chemical and 
        biological attacks on the Nation's population, agriculture or 
        infrastructure. The greatest emphasis is on those biological 
        attacks that have the greatest potential for widespread 
        catastrophic damage to the population. These include--but are 
        not limited to--aerosolized anthrax, and smallpox.

           The Division conducts material threat and risk assessments 
        on both naturally occurring and engineered agents; conducts 
        experiments to close major scientific knowledge gaps that could 
        have a large impact on how the Nation responds to a biological 
        attack; and provides scientific support to the intelligence 
        community. As such, the primary output is an intelligence-
        informed, scientific characterization and prioritization of the 
        bio-terrorist risks to be used by the Homeland Security Council 
        and partnering agencies (e.g., Department of Health and Human 
        Services, Environmental Protection Agency, Department of 
        Agriculture, and the Intelligence Community).

           Based on this knowledge, we are developing effective 
        measures for deterrence, detection, and mitigation of 
        biological terrorism acts against the U.S. population, 
        infrastructure, and agricultural system. This includes 
        developing tools to meet federal, State, and, local emergency 
        responder needs such as operational models to support 
        Interagency Modeling and Atmospheric Assessment Center (IMAAC).

           The Division is developing next-generation, biological-
        threat-agent detectors that recognize the signatures or 
        fingerprints of biological agents. These detectors will be 
        incorporated into the BioWatch system to substantially increase 
        the system's capabilities and significantly reduce the response 
        time. Other significant program activities include developing 
        biological aerosol detection and sensor systems for monitoring 
        the Nation's critical infrastructure such as government 
        buildings, airports, subways, office buildings, shopping malls, 
        sports arenas, hotels and hospitals. These ``detect-to-
        protect'' systems detect biological agents within minutes 
        (acting as reliable `smoke alarms') to protect high value 
        facilities and their occupants. Many of the technologies being 
        developed in this program will be manufactured and used by the 
        private sector.

           Chemical countermeasures work enhances the Nation's 
        capability to anticipate, prevent, protect from, respond to and 
        recover from chemical terrorist attacks. The chemical threat 
        spectrum comprises a broad array of chemicals, to include 
        chemical warfare agents, toxic industrial chemicals, and non-
        traditional agents (NTAs). Existing and emerging chemical 
        warfare agents can potentially be used against virtually any 
        civilian target resulting in significant loss of life and 
        impedance in the use of key infrastructure. Chemical 
        countermeasures addresses these threats by: enabling 
        comprehensive understanding and analyses of chemical threats; 
        developing pre-event assessment, discovery, and interdiction 
        for chemical threats; developing warning, notification, and 
        timely analysis of chemical attacks; optimizing technology and 
        process for recovery from chemical attacks; and enhancing the 
        capability to identify a chemical attack's source.

        <bullet>  The $63.6 million requested for Command, Control and 
        Inter-operability will fund programs focused on cyber security; 
        communications, compatibility and inter-operability; and 
        knowledge management.

           Cyber security research, development, testing and evaluation 
        is focused on improving the security of the existing cyber 
        infrastructure and providing a foundation for a more secure 
        infrastructure through coordinated efforts with other 
        government agencies and private industry. Cyber attacks on U.S. 
        information networks can have serious consequences such as 
        disrupting critical operations, causing loss of revenue and 
        intellectual property, or loss of life. The Division also 
        addresses cyber security requirements from internal Department 
        customers in support of the DHS's operational missions in 
        critical infrastructure protection. It also addresses related 
        aspects of national security and emergency preparedness 
        telecommunications.

           Communications, inter-operability and compatibility programs 
        within Command, Control and Inter-operability strengthen inter-
        operable wireless communications, improve effective information 
        sharing, and develop tools to enhance overall coordination and 
        planning at all levels of government. Currently, the Nation's 
        capacity for inter-operable communications is hindered by sub-
        optimized planning and coordination, and the Office for Inter-
        operability and Compatibility is working to strengthen and 
        integrate inter-operability and compatibility.

           We are also developing knowledge management tools to reduce 
        the risk of terrorist attacks and to prepare for and respond to 
        natural and man-made disasters. This will provide new 
        capabilities for the DHS Intelligence & Analysis Directorate 
        and the DHS information enterprise for the integration, 
        management, analysis, and dissemination of actionable 
        information. This knowledge management research provides tools 
        and methods to handle massive amounts of information that is 
        widely dispersed in a great variety of forms. Being able to 
        find such information, understand its meaning, and then use it 
        to assess an actual threat and determine the level of risk 
        before an attack or incident occurs is the best way to save 
        lives and preserve our way of life.

        <bullet>  The $63.7 million requested for Explosives will fund 
        programs focused on the detection, mitigation, and response to 
        explosives threats such as improvised explosive devices (IEDs) 
        and suicide bombers. The Division employs a broad range of 
        existing and emerging approaches to detect and lessen the 
        impact of explosive materials. These include baggage-screening 
        devices as well as the capability to identify explosives 
        residue. Terrorist events like the Madrid rail bombing, the 
        London Underground attack, and the recent disclosure of planned 
        attacks on U.S.-bound flights from the United Kingdom, all 
        involved explosive threats. Those events underscore the 
        operational need for a unified approach to the detection of, 
        response to, and mitigation of explosive threats across all 
        modes of transportation.

           In explosives detection, we are improving existing explosive 
        detection methods, developing new technologies, and integrating 
        improvements and technological developments into both deployed 
        and new systems. Detection is a key defense against successful 
        attacks. For example, the Check Point Program applies to 
        multiple venues where real or virtual portals exist. 
        Historically, airports have received the most attention, but 
        similar portal situations can be found at rail stations and 
        cruise ship terminals. Check point programs address suicide 
        bombers, carry-ons, leave-behind IEDs, and vehicle-borne IEDs. 
        The two other principal programs in this area are checked 
        baggage and cargo. Like aviation, rail and ship modes share 
        checked baggage and cargo screening challenges.

           The check point program addresses the risk of catastrophic 
        loss of mass transit resulting from small IEDs detonated in 
        passenger cabins and the catastrophic loss or hostile takeover 
        of mass transit resulting from the presence of certain weapons 
        in passenger cabins. The principal objective of the program is 
        developing advanced technology for integration with future 
        check point systems to detect explosives and concealed weapons, 
        while meeting requirements for automation, efficiency, and cost 
        reduction. Longer-term objectives include applying systems 
        integration and a seamless flow of information with reduced 
        impact to the checkpoint operations environment. The program 
        also strives to upgrade currently deployed technologies to 
        address emerging threats and concealment methods.

           The checked baggage program identifies and develops the next 
        generation of checked baggage screening systems, and supports 
        continuous improvements toward the Congressionally directed 
        goal of 100 percent screening of aviation checked baggage by 
        electronic or other approved means with minimum or no impact to 
        the flow of people or commerce. Checked baggage will focus on 
        continuing work with Manhattan II by conducting system 
        development and integration of the Manhattan II checked baggage 
        program, complete the preliminary system architecture test and 
        evaluation, and conduct detection-technology test and 
        evaluation.

           The cargo program is developing the next generation of air 
        cargo screening systems, with transition targeted for FY 2011.

        <bullet>  The $12.6 million requested for Human Factors will 
        apply the social and behavioral sciences to improve detection, 
        analysis, and the understanding of threats posed by 
        individuals, groups, and radical movements. This knowledge will 
        support the preparedness, response and recovery of communities 
        impacted by catastrophic events and to advance national 
        security by integrating human factors into homeland security 
        technologies. Further this will enhance the capability to 
        control movement of individuals into and out of the United 
        States and its critical assets through accurate, timely, and 
        easy-to-use biometric identification and credentialing 
        validation tools.

        <bullet>  The $24.0 million requested for Infrastructure and 
        Geophysical will develop technical solutions and reach-back 
        capabilities to improve State, local, tribal, and private 
        sector preparedness for and response to all hazardous events 
        impacting the population and critical infrastructure.

           The Division's focus is on identifying and mitigating the 
        vulnerabilities of the 17 critical infrastructure sectors and 
        key assets that keep our society and economy functional. The 
        Division models and simulates the Nation's critical 
        infrastructures to determine how various scenarios will affect 
        each sector, provides decision support tools to guide decision-
        makers in identifying gaps and vulnerabilities, and develops 
        predictive tools and methods to aid in preparing for and 
        responding to various catastrophes. Additionally, the Division 
        focuses on responder preparedness and response capabilities 
        that improve the ability of the Nation to prepare for, respond 
        to, and recover from all-hazards emergencies. Applying the best 
        available science and technology for the safety and security 
        our emergency responders and homeland security professionals 
        ensures they may effectively perform their jobs--saving lives 
        and restoring critical services.

           The Division is also developing a capability that will 
        enable owners and operators of the most vital critical 
        infrastructure sites to implement affordable and reliable blast 
        and projectile mitigation measures improving capabilities to 
        withstand these threats. The program is developing suites of 
        advanced materials, design procedures, and innovative 
        construction methods that can be used to protect critical 
        infrastructure and key resources.

           In addition, the Division is developing decision-making and 
        information-sharing tools to aid responders. This will 
        dramatically enhance the information management and information 
        sharing capabilities of incident commanders and emergency 
        responders as emergencies increasingly demand more highly 
        coordinated responses.

        <bullet>  The $59.9 million requested for Innovation/HSARPA 
        will focus on homeland security research and development that 
        poses a risk of failure, but if successful would lead to 
        significant technology breakthroughs that would greatly enhance 
        DHS operations. HSARPA carries out its activities in two areas: 
        (1) Homeland Innovative Prototypical Solutions, which are 
        designed to deliver prototype-level demonstrations of game-
        changing technologies in two to five years. These programs are 
        moderate risk, but offer high pay-off and (2) High Impact 
        Technology Solutions, which are designed to provide proof-of-
        concept answers that could result in high-payoff technology 
        breakthroughs. Though there is a considerable risk of failure, 
        these projects offer the potential for significant gains 
        resulting from success.

        <bullet>  The $88.8 million requested for Laboratory Facilities 
        will fund operation of the S&T laboratory facilities, including 
        Plum Island, the Transportation Security Lab, Environmental 
        Measurements Laboratory, the Chemical Security Analysis Center, 
        and the National Biodefense Analysis and Countermeasures 
        Center. Laboratory Facilities also funds design work on the 
        National Bio and Agrodefense Facility and upgrade of the Plum 
        Island facility.

        <bullet>  The $25.5 million requested for Test & Evaluation and 
        Standards funds two areas Test and Evaluation (T&E) and 
        Standards. T&E works across DHS and ensures that systems meet 
        the capability needs of users, validates performance and 
        provides measurable improvement to operational capabilities. 
        Effective testing and evaluation programs provide crucial 
        information to decision-makers for acquisition and deployment 
        of technology. Standards are consensus based measures--from 
        basic specifications to performance criteria--that give DHS and 
        its customers confidence that technology and systems will 
        perform as required. The S&T Directorate works across DHS and 
        with numerous external partners to build consensus and support 
        development of needed standards.

        <bullet>  The $24.7 million requested for Transition programs 
        will expedite technology transition to deliver near-term 
        products and technologies to meet DHS component requirements. 
        This area also funds the Office of the SAFETY Act 
        Implementation, transition support programs such as the 
        Technology Clearinghouse, and the S&T Directorate's 
        international and interagency programs.

        <bullet>  The $38.7 million requested for University Programs 
        will allow the S&T Directorate to engage the academic community 
        to support current DHS priorities and enhance homeland security 
        capabilities by providing ground-breaking research, analyses 
        and educational approaches. The program is designed to bring 
        together the best scientific talent and resources from U.S. 
        academic institutions to help solve complex and technologically 
        challenging homeland security problems facing our nation. 
        Program activities simultaneously focus on building homeland 
        security expertise in the academic community, creating 
        strategic partnerships, and fostering a new generation of 
        homeland security experts.

           The program works to:

                <bullet>  Strengthen U.S. scientific leadership in 
                homeland security research;

                <bullet>  Generate and disseminate knowledge and 
                technical advances to aid homeland security frontline 
                professionals;

                <bullet>  Foster a homeland security culture within the 
                academic community through research and education 
                programs; and

                <bullet>  Build a highly-trained science and 
                engineering workforce dedicated to homeland security 
                that will sustain progress over time.

           This program invests in two areas: the university-based 
        Centers of Excellence, and student Scholarships and Fellowships 
        intended to build and develop the next generation of academic 
        researchers in disciplines that are relevant and essential to 
        homeland security.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

CONCLUSION

    In conclusion, I am pleased to report that the S&T Directorate is 
well positioned today to mobilize the Nation's vast technical and 
scientific capabilities to enable solutions to detect, protect against 
and recover from catastrophic events.
    Our plans for restructuring the organization have been implemented 
and it is indeed gratifying to see that they appear to be working as we 
advance to the critical phase of product transition. Increasingly, our 
DHS customers are recognizing the substantial value that S&T's 
technical expertise brings to their operations. We have engaged them, 
eliciting participation at the highest levels, to join us at the table 
to work constructively on solutions for countering the formidable 
threats this nation faces.
    We appreciate the many demands on the taxpayers' precious dollars 
and you have my commitment that the S&T Directorate will be wise 
stewards of the public monies you have entrusted to us. We are 
steadfast in our resolve to serve the best interests of the Nation by 
investing in the talent and technology that will provide America with a 
sustainable capability to protect against acts of terror and other 
high-consequence events for generations to come.
    Members of the Committee, I thank you for the opportunity to meet 
with you today to discuss a newly realigned Science & Technology 
Directorate that is meeting homeland security challenges with a renewed 
sense of purpose and mission. I look forward to working with you 
throughout the 110th Congress.

                       Biography for Jay M. Cohen
    Department of Homeland Security, Under Secretary for Science and 
Technology, Jay M. Cohen is a native of New York. He was commissioned 
in 1968 as an Ensign upon graduation from the United States Naval 
Academy. He holds a joint Ocean Engineering degree from Massachusetts 
Institute of Technology and Woods Hole Oceanographic Institution and 
Master of Science in Marine Engineering and Naval Architecture from 
MIT.
    His early Navy assignments included service on conventional and 
nuclear submarines. From 1985 to 1988 Cohen commanded USS HYMAN G. 
RICKOVER (SSN 709).
    Following command, he served on the U.S. Atlantic Fleet as a senior 
member of the Nuclear Propulsion Examining Board, responsible for 
certifying the safe operation of nuclear powered ships and crews.
    From 1991 to 1993, he commanded USS L.Y. SPEAR (AS 36) including a 
deployment to the Persian Gulf in support of Operation DESERT STORM.
    After Spear, he reported to the Secretary of the Navy as Deputy 
Chief of Navy Legislative Affairs. During this assignment, Cohen was 
responsible for supervising all Navy-Congressional liaison.
    Cohen was promoted to the rank of Rear Admiral in October 1997 and 
reported to the Joint Staff as Deputy Director for Operations 
responsible to the President and DOD leaders for strategic weapons 
release authority.
    In June 1999, he assumed duties as Director Navy Y2K Project Office 
responsible for transitioning all Navy computer systems into the new 
century.
    In June 2000, Cohen was promoted in rank and became the 20th Chief 
of Naval Research. He served during war as the Department of the Navy 
Chief Technology Officer (a direct report to the Secretary of the Navy, 
Chief of Naval Operations and Commandant of the Marine Corps). 
Responsible for the Navy and Marine Corps Science and Technology (S&T) 
Program (involving basic research to applied technology portfolios and 
contracting), Cohen coordinated investments with other U.S. and 
international S&T providers to rapidly meet war fighter combat needs. 
After an unprecedented five and a half year assignment as Chief of 
Naval Research, Rear Admiral Cohen retired on February 1, 2006.
    Under Secretary Cohen was sworn in to his current position at the 
Department of Homeland Security on August 10, 2006.

    Chairman Wu. Thank you, Mr. Under Secretary. Director 
Oxford.

  STATEMENT OF MR. VAYL S. OXFORD, DIRECTOR, DOMESTIC NUCLEAR 
       DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Oxford. Good morning, Chairman Wu, Ranking Member 
Gingrey, and other Members of the panel. I would like to thank 
the Committee for the opportunity to present DNDO's research 
and development priorities for fiscal year 2008. I am pleased 
to be here with my colleague, Under Secretary Cohen, and other 
colleagues from past lives that are with me also here on the 
panel.
    DNDO is chartered to develop a global nuclear detection 
architecture that would form a robust defensive layer to 
prevent nuclear and radiological terrorism. We are also asked 
to direct all radiation detection development programs on 
behalf of DHS and to work as the U.S. Government collaborator 
with other Departments regarding research and development for 
the radiological and nuclear area.
    We invest in the enhancement of existing technologies 
through both a near-term spiral development program, as well as 
a transformational research and development program to deliver 
revolutionary improvements in the performance of nuclear 
detection systems. Today I will highlight the near-term and 
transformational plans for 2008, and touch upon how DNDO 
coordinates its R&D activities with other federal agencies.
    Regarding near-term R&D priorities, we feel we must finish 
the work of securing our nation's ports of entries. However, we 
cannot ignore the possibility that a terrorist might attempt to 
illicitly transport a nuclear or radioactive material between 
the ports of entry.
    DNDO's near-term focus is on making further improvements to 
radiation detection capabilities for the national ports of 
entry, while also developing solutions for non-ports of entry 
threats. We are testing the Advanced Spectroscopic Portal at 
the Nevada Test Site and the New York Container Terminal. 
Results of these tests will be used to support the Secretary's 
certification decision as required by the 2007 Appropriations 
Bill. And in 2008, we will also complete development and begin 
production for ASP variants to include mobile truck mounted 
systems, as well as shuttle carrier systems that address 
specific challenges presented at some of our sea ports that 
load cargo directly from ships to rail. The Cargo Advanced 
Automated Radiography System will automatically detect high 
density shielding within cargo that could escape the detection 
by our passive systems. The automated imaging processing 
capabilities and vision for CAARS will substantially improve 
throughput rates over current generation radiography systems.
    Development of these technologies will continue in 2008, 
with prototypes being delivered in mid 2009. DNDO's Human 
Portable Radiation Detection System Program will improve 
current and backpack radiation detection systems by improving 
identification capabilities, standardizing displays and 
controls, reducing weight, and improving system connectivity so 
that data can be rapidly communicated and analyzed.
    Within our long-term transformational research program we 
include an exploratory research program, a dedicated Academic 
Research Initiative, and several upcoming advanced technology 
demonstrations. In exploratory research we have initiated 44 
projects with our national laboratories. We have recently 
awarded seven cooperative agreements with academia, and next 
week we will announce 10 awards with private industry. These 
efforts have already begun to pay off.
    An automated process established at Lawrence Berkeley 
National Laboratories allows us to evaluate over 100 new 
detector materials per month or over 1,000 per year, a tenfold 
increase over previous capabilities within this country. Proof 
of concept efforts on several standoff technologies have 
demonstrated that very small amounts of material can be 
detected at 20 miles per hour from a distance of over 65 
meters. Again, a tremendous improvement over previous and 
current capabilities.
    In 2008, our Advanced Technology Demonstration Programs 
will include an Intelligent Personal Radiation Locator that 
responds to a user requirement to improve upon capabilities in 
personal radiation devices for discrimination as well as 
localization of threat materials. Our Standoff Detection 
Advanced Technology Demonstration will develop and evaluate 
technologies to significantly increase detection ranges out to 
100 meters. The verification of Shielded Special Nuclear 
Material Advanced Technology Demonstration will develop and 
test advanced technologies to verify the presence of special 
nuclear material in cluttered environments and may lead to a 
human portable capability to automatically verify the presence 
of shielded special nuclear material.
    Finally, a survey by the National Science Foundation and 
the Department of Energy showed a downward trend in this 
nation's nuclear science expertise. In 1980, there were 65 
nuclear engineering departments in our U.S. universities. Today 
there are 29. Currently it is estimated that one-third to 
three-quarters of the current nuclear workforce will reach 
retirement age in the next 10 years. DNDO's Academic Research 
Initiative will spur the academic community to provide the 
nuclear detection experts of the future by funding universities 
to conduct R&D in the areas relevant to nuclear detection. Last 
month DNDO and the National Science Foundation solicited grant 
applications from our colleges and universities to help begin 
this new academic initiative.
    Regarding coordination with other organizations, we 
recognize that several federal agencies already engage in 
research in this area, so we have coordinated our activities 
with the National Nuclear Security Administration, the Defense 
Threat Reduction Agency, and the Director for National 
Intelligence. Several mechanisms are currently in place to 
insure active coordination of these efforts. These include 
joint participation in the Domestic Nuclear Research and 
Development Working Group, chaired by the President's science 
advisor, an interagency working group that is intended to 
create an R&D roadmap for the future.
    DNDO also supports Department of Energy activities by 
jointly reviewing proposals that come into both organizations 
to make sure that we are collaborating and reducing the 
conflict of funding. We do that also with the Department of 
Defense.
    Finally, in conclusion, let me say the challenges that lie 
ahead require coordinated effort on behalf of the best 
scientific minds in this country, from fostering the 
development of revolutionary detection technologies that fill 
gaps in our evolving architecture, to providing next-generation 
technologies that improve performance, cost, and operational 
value. DNDO is working to provide the Nation with a 
continuously improving capability to protect against a 
terrorist nuclear attack.
    And I would at this time yield the rest of my time and be 
glad to answer any questions, Mr. Chairman.
    [The prepared statement of Mr. Oxford follows:]
                  Prepared Statement of Vayl S. Oxford

Introduction

    Good morning Chairman Wu, Ranking Member Gingrey, and distinguished 
Members of the Subcommittee. As Director of the Domestic Nuclear 
Detection Office (DNDO), I would like to thank the Committee for the 
opportunity to discuss our research and development (R&D) priorities 
for Fiscal Year 2008 and how these activities will directly enhance the 
probability of mission success. I am pleased to be here with other 
distinguished witnesses, Under Secretary Cohen, Mr. Czerwinski, Dr. 
Epstein, and Ms. Ward.
    Key to the success of the Department of Homeland Security (DHS) is 
improving the Department's ability to mitigate risks across the entire 
threat spectrum. In recognition of the catastrophic risk posed by the 
use of a nuclear weapon within the United States, all nuclear detection 
research, development, test, evaluation, and operational support within 
the Department was consolidated into the DNDO in April of 2005. Since 
then DNDO has developed, and continues to evolve, the global nuclear 
detection architecture, while improving the domestic means to detect 
and report attempts to import or transport a nuclear device or fissile 
or radiological material intended for illicit use.
    DNDO maintains a preeminent research and development program and 
capitalizes on the benefits of integrating this program with larger 
acquisition efforts. Over half of DNDO's Fiscal Year 2008 budget 
request is intended for R&D activities. We categorize our R&D work into 
two areas: enhancement of existing technologies through near-term, 
spiral development; and long-term transformational R&D that will 
deliver revolutionary improvements in the cost, performance and 
associated operational burdens of nuclear detection systems.
    Today, I will be discussing both our near-term and transformational 
R&D plans for FY 2008. As I describe these efforts, I will share with 
you how DNDO uses architectural analysis and end-user requirements to 
help guide not only acquisition efforts, but also our research agenda. 
I will also touch upon how DNDO coordinates its scientific research and 
technical development activities with other federal agencies.

Near-Term R&D Priorities

    Our analysis of the detection architecture concluded that we must 
finish the work of securing our nation's ports of entry (POEs). 
However, we cannot ignore the possibility that a terrorist might 
attempt to illicitly transport a nuclear device or radioactive material 
between the POEs. DNDO's near-term focus is on making further 
improvements to radiation detection capabilities for the Nation's POEs 
as well as developing solutions for non-POE applications. These include 
general aviation, small maritime craft, non-POE land border crossings, 
and State and local operations.
    DNDO will continue our Advanced Spectroscopic Portal (ASP) program, 
which improves upon existing polyvinyl toluene (PVT)-based radiation 
portal monitors that are currently deployed at the Nation's POEs, and 
select foreign POEs through the DOE Megaports Initiative. ASP systems 
not only detect the presence of radiation, but also identify the 
radiation source, enabling the system to discriminate real threat 
alarms from alarms due to normally occurring radioactive material 
(NORM). Alarms due to NORM are also known as nuisance alarms. The use 
of spectroscopic identification dramatically reduces nuisance alarms, 
and will allow for considerably improved throughput at high-volume 
ports, while simultaneously improving security. DNDO awarded contracts 
to Raytheon Company, Thermo Electron Corporation, and Canberra 
Industries, Inc. for the development and production of ASP last July. 
Approximately $44.5 million was immediately provided to the three 
vendors. Based on results of system performance tests now underway and 
upon certification by the Secretary, DNDO plans to award up to $1.1 
billion over a five-year period to complete ASP development and 
acquisition.
    In FY 2008, we will complete development and test phases and begin 
production for: truck-mounted ASP systems that provide mobility for 
several applications, including relocatable chokepoint applications in 
State and local operations, or at low-volume POEs where fixed systems 
may not be cost effective; and shuttle carrier-mounted ASP systems that 
address the challenge presented by several seaports that load cargo 
directly from ships to rail cars, therefore bypassing typical exit gate 
screening operations. By developing additional passive detection design 
variants that meet unique port requirements, DNDO will be well on its 
way to achieving technical solutions that enable us to screen 100 
percent of cargo containers entering the United States. To support all 
of our passive systems, we will be upgrading the standard ASP cargo 
portals with software improvements and better controls and displays 
based on feedback that we receive from operational deployments.
    The Cargo Advanced Automated Radiography System (CAARS) will 
automatically detect high-density material shielded within cargo that 
could escape detection by passive radiation systems, like ASP. The 
automated image processing techniques envisioned for CAARS will also 
substantially improve throughput rates over current-generation 
radiography systems. DNDO awarded contracts to L-3 Communications, 
American Science and Engineering, Incorporated, and SAIC for the 
development of CAARS last September.
    Development of these technologies will continue in FY 2008, with a 
projected delivery of prototype units in mid-2009. Once ready, these 
systems will be subjected to a rigorous test program to evaluate the 
technology and to enter into engineering development. Test results will 
serve as a major factor in evaluating the performance of the three 
contractors and continuing with the next phase of the program, in which 
low-rate initial production will begin. DNDO will also begin 
preparations for pilot deployments to evaluate operational factors and 
conduct other deployment planning efforts such as site surveys and 
environmental impact assessments.
    Nevertheless, ASP and CAARS deployed at our official POEs are not 
the only technologies needed to fulfill our nuclear detection 
architecture. The DNDO is also working on Human Portable Radiation 
Detection Systems, or HPRDS, that aim to improve on current hand-held 
and backpack radiation detection systems similar to those currently 
used by Customs Border and Protection (CBP) and the Coast Guard. These 
systems currently weigh ten to 25 pounds, and are generally operated as 
a secondary screening tool. When an alarm is detected, hand-held 
systems can then be used to isolate and identify the source of the 
radiation. The HPRDS program seeks to reduce the weight of systems to 
approximately five pounds, while simultaneously improving detection 
probabilities to as high as 90 percent when used in tertiary or 
confirmatory inspection applications; and also improve connectivity for 
alarm reporting and technical support. In October, five companies 
received awards--Smiths Detection, SAIC, Ortec, Sanmina-SCI, and Target 
Instruments.
    In FY 2008, development efforts for the next generation of hand-
helds and backpacks will focus on: improving the identification 
capabilities of human portable systems so they can distinguish between 
threat and non-threat material quicker and with greater accuracy; 
standardizing the displays and control functions to improve system 
operability for field operators; reducing the weight of units so they 
are less burdensome to use; and improving systems connectivity so that 
data can be rapidly communicated and analyzed to determine if it 
represents a potential threat.

Long-Term Transformational R&D Priorities

    Despite the progression of our near-term R&D efforts, there are 
still key, long-term challenges and vulnerabilities in our detection 
architecture that require long-range, higher-risk research programs to 
deliver the highest payoff improvements in detection capabilities. One 
of the primary motives for the establishment of the DNDO was to create 
a mechanism for significant and sustained funding into radiation 
detection technologies through innovative approaches. Our 
transformational R&D program works with all sectors--National 
Laboratories, academia, and private industry--to seek dramatic 
technical improvements.
    This is not research for the sake of research. This is a 
deliberate, focused effort to address significant capability gaps in 
our present detection architecture--gaps that cannot be filled with 
current technologies because of performance issues, cost, or lack of 
capability. Revolutionary advances in radiation detection technology 
could potentially impact all capability gaps in our present detection 
architecture, from a distributed network of inexpensive radiation 
detectors to highly sensitive, standoff detection systems for sensing 
mobile threats at speed. Many of these technical breakthroughs would 
directly address some of the opportunities and challenges I mentioned 
before, such as general aviation, small maritime craft, non-POE land 
border crossings, and State and local operations.
    Our transformational research includes a robust Exploratory 
Research Program, a dedicated Academic Research Initiative, and several 
upcoming Advanced Technology Demonstrations (ATDs). Exploratory 
Research focuses on technical solutions that are at the feasibility 
phase and show significant promise, but require further concept 
development and demonstration. As solutions and concepts mature, 
technologies will transition either into enabling components for 
existing ATDs or will generate new ATD initiatives. The purpose of an 
ATD is to develop and test a device and generate the data needed to 
perform a preliminary cost-benefit analysis for a technology. 
Successful research originating from our Academic Research Initiative 
will also transition to exploratory research or an ATD initiative.
    In December 2005, DNDO published a Call for Proposals to the 
National Laboratories soliciting novel detection approaches, materials, 
and advanced technologies as part of our Exploratory Research program. 
DNDO received more than 150 proposals, and ultimately selected 44 for 
award, resulting in nearly $40 million in research programs. Similarly, 
DNDO released a solicitation for private industry and academia 
proposals in the same research topics. More than 200 white papers were 
submitted, and last month we announced the award of seven cooperative 
agreements with academia totaling approximately $3.1 million. The 
research topics of these universities include advances in materials, 
associated electronics, detection techniques, and enabling technologies 
to investigate and understand important and related phenomenology.
    In FY 2008, exploratory research topics will include: new materials 
that have high energy resolution, high efficiency, and low cost; 
shielded special nuclear material (SNM) verification efforts that would 
enable highly penetrating, efficient, low-dose interrogation systems to 
address screening of general aviation, small boats, and occupied 
vehicles; new solutions for passive detection of SNM in general 
aviation, commercial air cargo, and boats and small ships near the U.S. 
coastline; and technology and concepts that offer significantly 
enhanced threat sensitivity with remote and distributed emplaced sensor 
networks. In addition, we will be working with the DHS Science and 
Technology Directorate to examine techniques for integrating explosives 
detection with radiological and nuclear detection, achieving single-
device solutions.
    Our ATD program takes leading edge technological concepts (in many 
cases technology demonstrated conceptually under Exploratory Research) 
and develops a performance test unit to conduct a realistic 
demonstration of capabilities. The results of the tests form the basis 
for a preliminary cost benefit analysis that is used to objectively 
determine whether the technology should transition to our Systems 
Development and Acquisition program.
    In FY 2008, the Intelligence Personal Radiation Locator (IPRL) ATD 
that started in 2006 will result in a performance test unit that will 
be ready for testing. The IPRL emerged from an end-user requirement for 
a next-generation personal radiation detection system similar to the 
radiation pagers often used by CBP, first responders, and law 
enforcement officials. IPRL will have sufficient energy resolution and 
sensitivity to reliably discriminate between NORM, background, and 
potential threats, and will be used by law enforcement, first 
responder, counterterrorism, the intelligence community and others in 
routine activities and surveillance. DNDO awarded contracts worth up to 
$22M for the IPRL program last September. This enabled us to conduct 
the design and development work required to take IPRL from the 
conceptual phase and become ready for testing of IPRL performance test 
units in early FY 2009.
    In addition, our Standoff Detection ATD will be ready for final 
system design review, with a mid-FY 2009 target for testing of the 
performance test units. This ATD will allow DNDO to develop and 
evaluate key existing technologies such as coded aperture and Compton 
imaging that may dramatically improve sensitivity and directional 
accuracy. Our goal is to extend nuclear detection ranges to as much as 
100 meters, potentially providing the capability to locate and identify 
nuclear threat materials at greater distances for use in ground-based, 
airborne, and maritime platforms. Defense Threat Reduction Agency 
(DTRA) and the Department of Defense (DOD) also have strong 
requirements for long standoff capability for detection of nuclear 
materials. To de-conflict our programs, DTRA cites the need for very 
long standoff detection of one kilometer (1000 meters) or more. Since 
in most cases the goal of 100 meters is unattainable with current 
technologies, DTRA's current efforts are closely related to those of 
DNDO. Achieving our shared goal to improve capability for longer 
standoff detection will require the resources of both DHS and DOD.
    Our Verification of Shielded SNM ATD is scheduled for preliminary 
design reviews in early FY 2009, with final system design review 
expected in late FY 2009. This ATD will develop and test advanced 
technology to resolve alarms and definitively verify the presence of 
SNM despite cluttered environments or intentional countermeasures like 
shielding. Furthermore, another embodiment of this technology may lead 
to a whole new capability for portable interrogation systems that will 
enable relocatable or human portable detection systems that can 
automatically verify the presence of shielded SNM.
    The final component of our transformational R&D program provides a 
much needed emphasis in nuclear detection sciences, a field that has 
been in decline at American universities for years. A survey by the 
National Science Foundation showed a downward trend since the mid-1990s 
of nuclear scientists and engineers of approximately 60 per year. In 
1980, there were 65 nuclear engineering departments actively operating 
in the U.S. universities; now there are only 29. Currently, it is 
estimated that one-third to three-quarters of the current nuclear 
workforce will reach retirement in the next 10 years. The future 
security of our nation requires such a rejuvenation effort at our 
universities. The current projections forecast a need for approximately 
100 new Ph.D.s per year.
    DNDO's Academic Research Initiative will spur the academic 
community to provide the nuclear detection experts of the future by 
funding universities to conduct R&D in areas relevant to the detection 
of nuclear and radiological material. In addition, the program will 
foster potentially high-risk but high-payoff ideas that could lead to 
solutions that have not yet been considered. Last month, DNDO and the 
National Science Foundation announced grant opportunities worth up to 
$58 million over the next five years for colleges and universities. 
Once this program matures, our estimate is that this initiative will 
produce 20 to 30 new Ph.D.s per year, while also addressing critical 
research needs. This will not address the need completely. But our 
efforts, combined with the academic support efforts of other federal 
agencies like the Department of Energy, will help provide the nuclear 
scientists and engineers of the future.

Coordination of Effort

    The identification of gaps in nuclear detection capabilities 
justifies the need for a well-supported DNDO research and development 
program. At the same time, we recognize that several federal agencies 
already engage in research and development in this area. Therefore, the 
planning process for the DNDO transformational research agenda was 
coordinated with partners, including the DOE National Nuclear Security 
Administration's Nonproliferation and Verification Research and 
Development Program (NA-22), the Defense Threat Reduction Agency 
(DTRA), and the Office of the Director of National Intelligence (DNI). 
I would like to take a moment to describe several mechanisms currently 
in place to ensure active coordination between DNDO and other agencies 
funding related research and development.
    From its founding, DNDO supported the Domestic Nuclear Defense 
Research and Development (DND R&D) Roadmap Working Group to develop a 
coordinated, interagency R&D roadmap that would enhance the breadth of 
domestic nuclear defense efforts to ensure a secure nation. The DND R&D 
Working Group was chartered by the Homeland Security Council/National 
Security Council Domestic Nuclear Defense (DND) Policy Coordinating 
Committee. The DND R&D Roadmap Working Group developed a long-term 
vision for domestic nuclear defense R&D. The scope of this working 
group covered the interagency coordination of: R&D strategies for 
domestic nuclear defense; the identification and filling of critical 
technology gaps; enhancing efforts to develop and sustain critical 
capabilities through appropriate investments in the foundational 
science and research; interagency funding for necessary science and 
technology; and collaboration and exchange of vital R&D information. 
DNDO co-chairs the working group on interdiction research and 
development.
    DNDO has also supported the National Nuclear Security 
Administration in reviewing foundational science proposals for advanced 
detectors and materials. Staff from both NA-22 and DNDO served on each 
others' proposal review panels, in part to ensure that duplication of 
funding is minimized. This interaction helped ensure that DNDO 
transformational R&D programs are well coordinated with those of NA-22 
(which focused on foundational science for advanced detectors and 
materials), enabling the U.S. Government to best utilize the expertise 
of the National Labs. DNDO conducted similar proposal reviews with 
DTRA.
    DNDO, as an interagency office, has full-time detailees from 
agencies such as DOE and DOD. These individuals have provided 
invaluable expertise in all aspects of the DNDO mission. Our detailees 
enable us to maintain an open and productive dialogue with our 
interagency partners so that we can avoid duplication of effort and 
make strides toward the complete implementation of the proposed 
architecture.

Conclusion

    The challenges that lie ahead require a coordinated effort on the 
behalf of the best scientific minds within our government, academia and 
the private sector. The DNDO has taken an end-to-end approach to 
research and development, systems development, and product improvement. 
From fostering the development of revolutionary detection technologies 
that fill gaps in our evolving architecture to providing next-
generation technologies that improve performance, cost, and operational 
value, DNDO is working to provide the Nation with a continuously 
improving capability to protect against a terrorist nuclear attack.
    This concludes my prepared statement. With the Committee's 
permission, I request my formal statement be submitted for the record. 
Chairman Wu, Ranking Member Gingrey, and Members of the Subcommittee, I 
thank you for your attention and will be happy to answer any questions 
that you may have.

                      Biography for Vayl S. Oxford
    Mr. Vayl Oxford was appointed Director of the Domestic Nuclear 
Detection Office (DNDO) in September 2005, reporting to the Secretary 
of the Department of Homeland Security with responsibility for the 
establishment of the new, jointly staffed office and for directing all 
activities associated with the organization.
    Prior to his appointment to DHS, Mr. Oxford served as the Director 
for Counter-proliferation (CP) at the National Security Council.
    Before his assignment to the White House, Mr. Oxford was the Deputy 
Director for Technology Development at the Defense Threat Reduction 
Agency (DTRA).
    From 1993 to 1998, Mr. Oxford served at the Defense Nuclear Agency, 
and, then, the Defense Special Weapons Agency as the Director for 
Counter-proliferation.
    During his Air force tenure, Mr. Oxford held several positions 
associated with aircraft and weapons development, and war plans 
analysis in Europe and the Pacific. He also served as an Assistant 
Professor of Aeronautics at the United States Air Force Academy from 
1982 to 1986.
    Mr. Oxford is a graduate of the United States Military Academy and 
the Air Force Institute of Technology and the recipient of numerous 
military awards. He received the DOD ACTD Technical Manager of the Year 
Award in 1997. He was appointed to the Senior Executive Service in 1997 
and received the Meritorious Executive Presidential Rank Award in 2002.

    Chairman Wu. Thank you, Director Oxford. Dr. Epstein.

 STATEMENT OF DR. GERALD L. EPSTEIN, SENIOR FELLOW FOR SCIENCE 
 AND SECURITY, HOMELAND SECURITY PROGRAM, CENTER FOR STRATEGIC 
                   AND INTERNATIONAL STUDIES

    Dr. Epstein. Thank you, Mr. Chairman, Ranking Member 
Gingrey, and Members of the Subcommittee. Thank you for the 
opportunity to speak with you this morning.
    Before I start, I can't help but point out that I first 
started studying the issues I am going to be talking with you 
about this morning working for this institution in an agency 
that unfortunately no longer exists. I used to be with the 
Congressional Office of Technology Assessment and wrote a 
report on the same things we have been talking about. And as 
much as I welcome the opportunity to speak with you today, 
frankly, you deserve better than that. You deserve better than 
one hearing with individual witnesses. You need your own folks, 
a dedicated office working on precisely the interface of 
technology and policy, not just for this committee but for 
practically every other committee on the Hill. So let me just 
command that I think that is a capability that could be used 
here on the Hill.
    Let me get back to what you asked me to talk about. I would 
like to start off by highlighting just one or two factors I 
think we need to keep in mind when we address Homeland Security 
Science and Technology, make a few observations along with way 
about the fiscal year 2008 request from the Department, and 
then end up with one specific point on what has turned out to 
be a popular issue, that of Science and Technology education.
    Let me start with I think the greatest challenge we face in 
managing an R&D portfolio for the Department of Homeland 
Security, which is looking over the entire menu of risks that 
are in front of us and deciding what it is we actually need to 
spend our money on. This forces us to compare some very 
different threats; nuclear threats, biological threats, 
infrastructure, explosives, borders, cyber attacks, and all 
this fortunately in the absence of much of the data you would 
really want to do a quantitative risk assessment. These attacks 
have not happened much to date. We would like to keep it that 
way. But I think we need better tools, better analytical 
procedures, better processes to figure out how we actually make 
some of these high-level tradeoffs.
    Before we say, before I spend a lot of money on this 
capability, which I might know how to do, what else might I be 
able to spend it on, and what more security could we get for 
that? I don't think there is going to be a magic spreadsheet 
that is going to come up with the right allocation among 
different priorities, but I do think we can have systems that 
are going to help make our decisions a little more transparent 
and highlight where it is that our gut hunches, our subjective 
probabilities really are making a big difference.
    I would also like to talk about the time horizon of S&T 
research in the Department of Homeland Security. When the 
Department was first formed, the government had just realized 
it had this mission. There was not a long-standing base of work 
precisely on homeland security type issues. There were a lot of 
immediate needs, a lot of immediate capabilities that could 
fill those needs, and the decision made at the time to go for 
what I think has been called the low-hanging fruit, near-term 
research, but to defer the more basic and the longer-term 
investigations. That is an understandable decision at the time, 
but it is not sustainable. And I am pleased to see looking 
through this year's budget request that we have a more balanced 
portfolio of research and development, not just near-term 
programs but also longer-term programs, and I am particularly 
pleased to see that we are willing to take some risks. And that 
is essential.
    A serious pathology that a technology development 
organization can run into, especially one that has to look at 
emerging technological threats, is to aim too low. Under 
Secretary Cohen is going to need your help in making sure he is 
not running into this problem, making sure his vision is far 
enough. The way you will know he is doing his job is if he can 
come back to you and report that he has failed. If he hasn't 
started some programs that just don't pan out, he is not being 
aggressive enough, and I think he can use your help in holding 
him to that.
    And I would just now like to conclude on a note about the 
Homeland Security Science and Technology Fellows Program. This 
is an important program. I am pleased that the Department 
recognizes the importance of a strong national Science and 
Technology base, not just for the many other objectives that we 
draw on S&T for but particularly for the Department of Homeland 
Security mission. And the Department recognizes this 
responsibility to replenishing the supply of human resources in 
this arena. But I think the program actually could probably be 
modified so that the fellows not only contribute in general to 
the U.S. science and technology base but contribute 
specifically to Homeland Security missions. And this is not by 
making more requirements on the program but actually getting 
them more excited about homeland security and the technology 
applications that they can work on that are solving our own 
needs. I think a deeper engagement with these fellows, they now 
have an orientation at the beginning of the process and they 
work on an internship, I think a continuing involvement, high-
level mentorships, briefing them on threats facing the Nation 
and the different ways in which the whole Homeland Security 
architecture can address it will get them excited, not only 
about their own science and technology investigations, but 
about applying that to the homeland security mission.
    And, again, we need S&T workforce in this country, but the 
homeland security agencies have a harder job. They have got to 
work with the U.S. citizens. We are fortunate to have foreign 
nationals contribute to the technical workforce in this 
country, but they can't get security clearances, and they can't 
work for the gentleman on my right. So the programs they are 
supporting are very important, and I think they can have a 
higher payoff in having them work directly for the Homeland 
Security sector.
    So I would be glad to entertain your questions at the end 
of the panel.
    [The prepared statement of Dr. Epstein follows:]
                Prepared Statement of Gerald L. Epstein
Mr. Chairman and Members of the Subcommittee:

    I appreciate the opportunity to appear before you today to discuss 
the Department of Homeland Security's Science and Technology Budget for 
Fiscal Year 2008. I am currently serving as Senior Fellow in Science 
and Security in the Homeland Security Program at the Center for 
Strategic and International Studies (CSIS), here in Washington. I am 
also an Adjunct Professor at Georgetown University's Edmund A. Walsh 
School of Foreign Service, where I teach a course on science, 
technology and homeland security. I have been working in the area of 
science, technology, and security policy for more than twenty years and 
have been studying nuclear, chemical, biological, and radiological 
weapons issues and responses for over 15 years.\1\
---------------------------------------------------------------------------
    \1\ None of the institutions I am affiliated with take policy 
positions on the topics I will discuss, and the views expressed are 
strictly my own.
---------------------------------------------------------------------------
    At CSIS, my colleagues and I are involved in a major international 
effort, supported by the Carnegie Corporation of New York and the John 
D. and Catherine T. MacArthur Foundation, to take a comprehensive, 
international, and interdisciplinary approach to dissuading, 
interdicting, mitigating, and responding to biological weapons threats. 
This project aims to improve the ability to counter these weapons at 
all stages, from influencing the intent to produce weapons, to denying 
access to materials and expertise, to detecting illicit programs, to 
managing the consequences of an attack. The Department of Homeland 
Security's Science and Technology program, and particularly its 
biological defense programs, are an important part of the United 
States'--and the world's--response to these threats.\2\
---------------------------------------------------------------------------
    \2\ See the CSIS Biological Threat Reduction Program website at 
www.csis.org/hs/btr
---------------------------------------------------------------------------

Other Sources of Advice to Congress

    Before I start, however, I cannot help pointing out to this 
committee that I first started working on the issues I will be 
discussing today at an agency that no longer exists--the Congressional 
Office of Technology Assessment. At OTA I was the Project Director for 
a major series of reports produced for the Congress on the 
proliferation of weapons of mass destruction, including biological 
weapons. As much as I welcome the opportunity to discuss these issues 
with Members of this committee this morning, frankly you and your 
colleagues deserve more attention than I or any other outside witnesses 
can devote to you in one hearing. You need a dedicated, credible, and 
authoritative body of substantive experts, working for you within a 
carefully structured and fully bipartisan process, that can relate the 
best available technical understanding directly to the policy choices 
you face. I have long believed that you and your colleagues--who must 
act on policy issues that are inextricably dependent on science and 
technology in practically every Committee of Congress--would find such 
a capability to be very helpful.

Homeland Security Science and Technology Challenges

    What we now call ``homeland security'' has only been recognized as 
a mission of the Federal Government since the late 1990s, and only 
since 9/11 has it acquired the resources and organization it has today. 
Previously, national security policy dealt primarily with overseas 
threats, and domestic policy did not have a major security component. 
The U.S. National Academy of Sciences' landmark 2002 study Making the 
Nation Safer\3\ recognized the vital role that science and technology 
could play in bolstering our homeland security, and this report played 
a significant role in the establishment of a Directorate of Science and 
Technology within the new Department of Homeland Security (DHS) in 
2003. Given both the importance of applying science and technology to 
this new mission and the paucity of previous government efforts to do 
so, the DHS S&T Directorate was one of the few parts of the new 
Department to receive a substantial infusion of new funding; most of 
the rest of the Department consisted of agencies whose staffs, budgets, 
and missions were transferred (either whole or in part) from elsewhere 
in government.
---------------------------------------------------------------------------
    \3\ Committee on Science and Technology for Countering Terrorism, 
National Research Council; Making the Nation Safer: The Role of Science 
and Technology in Countering Terrorism (Washington, DC: National 
Academy Press, 2002). Available online at http://www.nap.edu/html/stct/
index.html
---------------------------------------------------------------------------
    The Department of Homeland Security's Fiscal Year 2008 budget 
request marks only the fourth one that has been prepared by the 
Department itself, as opposed to its various predecessor agencies, and 
applying science and technology to the homeland security mission 
continues to pose challenges:

        1.  Military technology is not directly applicable to homeland 
        security. Although the military has considerable experience in 
        developing and fielding technologies that are relevant to 
        homeland security needs (such as detecting chemical and 
        biological agents), few military systems can be directly 
        adopted in a homeland security context. Military and civil 
        users differ in their threat scenarios; levels of user skill, 
        experience, and training; systems for maintenance, logistics, 
        and self-protection; sources of funding; willingness to 
        tolerate disruption; ability to issue orders; and respective 
        legal and policy contexts in ways that make it very difficult 
        to use military systems for homeland security purposes. The 
        independent existence of a DHS Science and Technology program 
        is an acknowledgment of this fact.

        2.  Users of homeland security technologies may not be federal 
        employees. Many individuals responsible for mitigating, 
        defending against, or dealing with terrorist attacks in the 
        United States--e.g., police officers, emergency medical 
        technicians, subway train operators, operators of critical 
        infrastructures--are not federal employees at all. They work 
        for State, local, and tribal governments or for the private 
        sector, often in organizations that buy equipment ``off the 
        shelf'' and that have little experience in developing their own 
        systems. They may even be members of the public attempting to 
        protect themselves. These users tend to be highly 
        disaggregated, and they may not have their own funding to 
        purchase and field new technologies.

        3.  Users may not even exist yet. Some key missions of interest 
        to the DHS S&T directorate--including detection of pathogenic 
        biological organisms in the atmosphere, decontamination of wide 
        areas after a major biological attack, or detection of smuggled 
        nuclear weapons in commercial shipping--were nobody's 
        responsibility prior to the creation of DHS. Moreover, 
        technological breakthroughs can provide capabilities that had 
        never been anticipated, and that no institution or entity may 
        currently be in a position to utilize. Although developing 
        technology without a clear sense of what is needed risks 
        wasting time and money, tying R&D programs exclusively to the 
        identified needs of established users can impede our ability to 
        utilize ``game-changing'' breakthroughs. Sufficiently powerful 
        tools should motivate us to figure out how to use them.

        4.  Technologies don't protect us--systems do. Throwing 
        technology at a problem does not necessarily make us safer. 
        Careful studies are needed to identify systems and concepts of 
        operations that will mitigate, dissuade, expose, or respond to 
        threats; model how effectively these systems will work in 
        different situations; ask how the deployment of such systems 
        might change the nature of the threat; and evaluate how much 
        better off such a system, on balance, will make us. Moreover, 
        the political leaders who will oversee the use of these systems 
        need to become familiar with their capabilities and their 
        limitations.

        5.  Prioritization is, and will remain, difficult. Perhaps the 
        hardest job in developing homeland security technologies is 
        determining which threats to address, deciding how much to 
        spend on countering each, and measuring our progress. Major 
        terrorist attacks are fortunately rare, and we do not have an 
        exhaustive database of prior attacks that will let us predict 
        what the next attacks will look like. Moreover, tracking 
        terrorist plans and capabilities is much more difficult, say, 
        than counting Soviet armored divisions or intercontinental 
        ballistic missiles was. Modeling and systems studies can 
        provide some guidance in allocating our defensive dollars, but 
        they can be very sensitive to assumptions that will be 
        impossible to justify empirically. Improving our methodologies 
        for such decision-making should itself be a high priority, even 
        if in the end, decision-makers will have to rely on subjective 
        judgment.

        6.  No magic organizational solution can eliminate inherent 
        overlap among agency missions, such as those of the Department 
        of Homeland Security and the Department of Health and Human 
        Services (HHS). DHS deals with deliberate attacks, including 
        those involving biological agents and disease. HHS deals with 
        health and disease threats, including those involving 
        deliberate attack. Biological attacks are both health incidents 
        and security incidents, and both DHS and HHS must be involved 
        in countering them. The potential for conflict can never be 
        eliminated, but it can be managed--particularly through open 
        lines of communication, clear delineation of roles and 
        missions, and an awareness of the different contexts in which 
        each agency views this issue.

Biodefense in the FY 2008 DHS Science and Technology Budget

    The largest component of the DHS S&T Directorate's budget is the 
Chemical and Biological Division, which I was asked to address in my 
testimony. Overall federal responsibilities for biodefense and 
biosecurity have been specified in policy documents such as Homeland 
Security Presidential Directives HSPD-9 (``Defense of United States 
Agriculture and Food,''), HSPD-10 (``Biodefense for the Twenty-First 
Century''), and HSPD-18 (``Medical Countermeasures against Weapons of 
Mass Destruction''), which in turn have generated taskings for the 
Department of Homeland Security. A few aspects of the Department's 
biological research and technology development program merit particular 
attention.

    Prioritization. As indicated above, one of the key management 
challenges facing those responsible for developing and deploying 
homeland security technologies is establishing priorities. At the 
operational level, this process would consist of identifying 
performance or readiness goals that characterize the capabilities we 
need to achieve; measuring how far we are from those goals; and 
deriving a set of programs (including acquisition, technology 
development, training and doctrine, etc.) that will close those gaps. 
This process would also require some way of evaluating which gaps were 
most important to close, and which programs would be most effective in 
closing them. Such a process would involve all agencies that had 
homeland security responsibilities, and it would be updated regularly.
    The National Academies' study Making the Nation Safer stated that 
the government did not have the analytic capabilities it needed to 
inform decision-making,\4\ and it called for such capabilities to be 
created. That work is incomplete. Even with better tools, however, I 
believe that assessing risk, setting priorities, and measuring progress 
will be a very difficult job--one that is harder than the equivalent 
planning process in the Department of Defense, since homeland security 
vulnerabilities are more diverse and the threats against them harder to 
evaluate. In the end, however, dollars have to be spent on some things 
and not on others, and those choices should be informed by analysis to 
the greatest extent possible.
---------------------------------------------------------------------------
    \4\ Ibid, p. 21.

    Biowatch and the Office of Health Affairs. The transfer of 
operational responsibility for the Biowatch system into the new Office 
of Health Affairs for FY 2008 budget is a promising development.
    The Biowatch system, which samples air in a number of metropolitan 
areas for the presence of specific biological threat agents, is an 
example of a system that was deployed before it had true users. We had 
never had the ability to respond to a bioterrorist attack on a U.S. 
city in ``near real time''--as or shortly after the agents were 
released--and it was therefore nobody's job to look for attacks on that 
timescale. Nevertheless, the motivation for the Biowatch system is 
compelling--to provide sufficient warning to initiate the distribution 
of medical countermeasures before illnesses start to manifest, when 
those countermeasures can be far more effective.
    The combination of a compelling technical rationale with the lack 
of an obvious user meant that the early deployment of this system 
outpaced the development of response protocols that involved all the 
local, State, federal, and non-governmental entities that would have 
some role in responding to a true attack. In subsequent years, as we 
have gained experience operating this system, additional work has been 
done to incorporate Biowatch information more effectively into response 
planning and decision-making. Even so, it remains an open question 
whether or not Biowatch will be able to provide early confirmation of a 
biological attack with a level of confidence that is high enough for 
public officials to take highly consequential actions such as 
community-wide distribution of medication.
    Exploration of these essential systems issues will be advanced by 
the transfer of operational responsibility for running the Biowatch 
system from the DHS Science and Technology Directorate to the new DHS 
Office of Health Affairs. The S&T Directorate would retain 
responsibility for technical improvement and next-generation systems. 
This transfer for the first time identifies a principal federal 
``user'' for the Biowatch system, albeit a surrogate one. The Office of 
Health Affairs does not itself mount the full response to a biological 
attack, but it does have the responsibility to work with actual 
responding agencies at many different levels of government to ensure 
that the Biowatch capability is effectively utilized. Clarifying 
operational and research responsibilities for the Biowatch system is a 
positive step that will improve both the technical prospects and the 
operational confidence of the system.
    Technically, Biowatch has been highly successful. I would never 
have predicted that over two million Biowatch assays would have been 
processed by now without any false alarms. This is a very impressive 
record that helps to build confidence in the system. At the same time, 
we have seen a number of ``true positives''--the detection of actual 
threat agents in city air samples. In each case, these detections have 
been attributed to organisms that occurred naturally in the 
environment, and none of these detections resulted in mobilizing a full 
response to a fictitious attack. These detections therefore served to 
validate the system hardware and analysis protocols, and they also 
proved that our response protocols did not incorrectly assume a 
detection always meant an attack.
    On the other hand, the fact that Biowatch alarms had to be 
confirmed by actual cases of disease before a full response would have 
been mounted does raise the question of what the added value of the 
Biowatch system is. (Note that the response to an alarm might have been 
different for an agent such as smallpox, which is not found in nature, 
for which confirmed laboratory detection would be impossible to 
attribute to natural causes.) As we continue to gain operational 
experience with Biowatch, it will be essential for the Office of Health 
Affairs to evaluate the ways in which Biowatch warning information can 
prove useful, even if it is not sufficient to trigger a full response. 
Possible uses of such information include heightening our sensitivity 
to look for individual cases of disease, triggering some initial stages 
of pharmaceutical distribution, or informing subsequent determination 
of the scale and scope of a biological attack.

    Relationships Between DHS and Other Governmental Agencies. As 
described above, there is no organizational solution that will 
eliminate the potential for interagency conflict or confusion over 
biodefense. As we are exploring at CSIS in our Biological Threat 
Reduction project, interactions between different professional 
communities--embodied in the U.S. Government by different government 
agencies--are an essential aspect of any response to biological 
threats. Although these interactions will always present challenges, I 
believe that the Departments of Homeland Security and Health and Human 
Services are developing appropriate mechanisms for working together.
    In the current fiscal year--pending appropriations--and certainly 
in the coming year, a new agency in the Department of Health and Human 
Services will appear on the scene with a vitally important role in 
biodefense: the Biomedical Advanced Research and Development Authority, 
or BARDA. With the mission of bridging the gap between basic biomedical 
research and countermeasure procurement, BARDA will play an essential 
role in building the Nation's capacity to respond to biological attack. 
But in addition to facilitating the development of specific 
countermeasures, BARDA will have an additional mission that may prove 
even more important in the long run--that of promoting innovative 
technologies that can reduce the time and cost of countermeasure 
development in general. With biotechnology becoming ever more powerful 
and more widely available, we will be less and less able to restrict 
our attention in the future to a short list of threat agents, each with 
its own lengthy and expensive countermeasure program.
    Instead, we have to move towards a flexible, adaptive, and 
responsive biodefense system capable of dealing with threats in near-
real-time. Creating such a system will blur the distinctions between 
environmental detection, medical diagnosis, prophylaxis, and treatment, 
making it even more important for the Departments of Homeland Security 
and Health and Human Services--whose mission delineations currently 
depend on some of these functional boundaries--to work together 
effectively. These departments will also need to work with the 
Department of Defense, whose Transformational Medical Technologies 
Initiative, funded by the Defense Threat Reduction Agency, also works 
to shorten and simplify medical countermeasure development.

    Time and Risk Horizon of DHS Research. When the Department of 
Homeland Security's Science and Technology Directorate was first 
formed, there were so many immediate demands for science and technology 
that longer-term research was considered an unaffordable luxury. This 
may have been a necessary decision at the time, but it was not a 
sustainable one. Failure to invest in longer-term research limits the 
prospects for future breakthroughs that could dramatically improve 
DHS's ability to fulfill its mission.
    As the S&T Directorate matures, so must its S&T portfolio--which 
means investing in a portfolio of both near-term and long-term 
research. I understand that the S&T Directorate's leadership now shares 
this view. I particularly welcome Admiral Cohen's plans to fund some 
high-risk but potentially very high payoff projects. A serious 
pathology that can overtake a technology development program is to 
become failure intolerant, forcing it to settle on safe bets that are 
less ambitious than its mission requires. Admiral Cohen will need your 
support if he hopes to avoid this--you will have to make sure he fails 
often enough, and to hold him accountable if he doesn't.

    Classified Biological Research and Treaty Compliance. Classified 
research constitutes a much smaller portion of the U.S. biodefense 
program than many might suspect. The vast majority of U.S. biodefense 
consists of unclassified research at the National Institutes of Health, 
which dwarfs all Department of Homeland Security biodefense activities, 
let alone any classified ones. Nevertheless, classified DHS biodefense 
research will constitute one of the most controversial parts of the 
U.S. biodefense program. Research that cannot be shared with diverse 
technical reviewers, independent non-governmental observers, or foreign 
colleagues will raise questions with respect to technical merit, policy 
appropriateness, and treaty compliance.
    Even more so than in other areas of science, the biological 
sciences have enjoyed a tradition of openness and international 
collaboration--and this heavy presumption of openness should continue. 
Since disease continues to kill millions of people around the world 
each year, any restrictions on relevant scientific knowledge could have 
serious consequences. Yet the existence of hostile, witting adversaries 
that are determined to wreak devastation and that are known to be 
interested in biological weapons mandates that this openness not be 
absolute. The U.S. biodefense program would like to avoid serving as 
the R&D program or the targeting staff for Al Qaeda or any other 
terrorist group, even while it works to advance science, cure disease, 
and assure the world that it is abiding by treaty commitments.\5\
---------------------------------------------------------------------------
    \5\ See Center for Strategic and International Studies, Commission 
on Scientific Communication and National Security, Security Controls on 
Scientific Information and the Conduct of Scientific Research (June 
2005) for discussion of some of the tensions between security and 
openness. This paper is available at http://www.csis.org/media/csis/
pubs/0506<INF>-</INF>cscans.pdf
---------------------------------------------------------------------------
    Without attempting to do justice to the complexity of this issue, 
let me make a few observations about both classification and treaty 
compliance:

        <bullet>  Actions that violate the 1975 Biological Weapons 
        Convention (BWC) also violate similarly worded provisions of 
        U.S. law.\6\ Any government employees or contractors who 
        violated the BWC in the course of their job would be subject to 
        criminal prosecution.
---------------------------------------------------------------------------
    \6\ Biological Weapons Anti-Terrorism Act of 1989, now at Title 18, 
Section 175 of the United States Code.

        <bullet>  DHS should engage in public outreach to instill 
        confidence that it is appropriately reviewing its biological 
        research activities, including classified activities, for 
        treaty compliance, legal compliance, and consistency with 
---------------------------------------------------------------------------
        policy.

        <bullet>  No matter how rigorous its internal review policies 
        are, and notwithstanding the involvement of officials who have 
        no connection to the projects being reviewed, an internal DHS 
        compliance process will not be viewed by outside observers as 
        being truly independent. The more widely that DHS activities, 
        including classified ones, can be reviewed by appropriately 
        cleared individuals outside of DHS and even outside the U.S. 
        Government, the greater the confidence will be that the 
        Department's activities are technically sound and treaty 
        compliant.

        <bullet>  Even if it cannot all be shared with the public, the 
        United States has an interest in sharing information on its 
        biodefense activities with other countries to assure them that 
        it is complying with the Biological Weapons Convention. The 
        fact that the United States has no offensive biological weapons 
        program should allow it to share this information more widely 
        than if it were seeking to protect a military advantage.

        <bullet>  Classified biodefense activities have been accused of 
        triggering a ``security dilemma''--of appearing to others as 
        offensive, and therefore stimulating other countries to respond 
        with offensive programs of their own.\7\ Independent of the 
        level of empirical support for this proposition--there are 
        certainly examples of state biological weapons programs that 
        proceeded in, or were even prompted by, the absence of any 
        perceived bioweapons activities by their adversaries\8\--this 
        argument retains at least theoretical salience as an incentive 
        for openness. However, it is incomplete at best. It is not 
        clear that a country suspecting others of having offensive 
        biological weapons programs would choose to respond with an 
        offensive program of its own; a much more rational response 
        would be for it to improve its defenses. Even more 
        significantly, the argument fails utterly with respect to non-
        state programs. Al Qaeda's motivation for pursuing biological 
        weapons, for example, has absolutely nothing to do with any 
        suspicion that the United States may have an offensive program.
---------------------------------------------------------------------------
    \7\ Jonathan Tucker, ``Avoiding the Biological Security Dilemma: A 
Response to Petro and Carus,'' Biosecurity and Bioterrorism: Biodefense 
Strategy, Practice, and Science, Vol. 4, No. 2 (2006), pp. 196-197
    \8\ W. Seth Carus and James B. Petro, ``Avoiding the Biological 
Security Dilemma at Our Own Peril: A Response to Tucker,'' Biosecurity 
and Bioterrorism: Biodefense Strategy, Practice, and Science, Vol. 4, 
No. 2 (2006), p. 202.

        <bullet>  The Biological Weapons Convention bans the 
        development of biological agents ``of types and in quantities 
        that have no justification for prophylactic, protective or 
        other peaceful purposes.'' \9\ The treaty has no meaning if any 
        conceivable offensive activity is justified as ``protective'' 
        on the grounds that it is important for defensive purposes to 
        ``see what is possible.'' Although some may worry that 
        classified U.S. biodefense efforts may be doing just that, I 
        believe that the U.S. biodefense program has too much to do to 
        waste resources on such unconstrained speculation, even without 
        treaty restrictions. However, I also believe that a requirement 
        to be protective can be made operational in a treaty compliance 
        review. To justify an activity as ``protective,'' I would argue 
        that it should be shown to specifically increase our ability to 
        protect ourselves--e.g., that its results should directly and 
        materially inform particular decisions, or contribute to 
        particular capabilities, that improve our ability to protect 
        against biological weapons.
---------------------------------------------------------------------------
    \9\ Biological and Toxin Weapons Convention, Article I(1).

    Human Resources for Homeland Security Related Science and 
Technology. One farsighted program run by the DHS Science and 
Technology Directorate is its Graduate Fellowship program. This program 
is intended to support outstanding graduate students in technical 
disciplines that are important to the DHS mission, with the ultimate 
objective of strengthening the Nation's science and technology 
community. However, more can be done to attract these Fellows into 
careers in the homeland security sector.
    Fellows are required to attend an orientation program, to 
participate in a 10-week internship, and to express willingness to 
accept homeland security-related employment after graduation (although 
this is not a binding obligation). U.S. citizenship is required, and 
security clearances are required for many of the internships.
    A strengthened S&T community constitutes ``a critical advantage in 
the development and implementation of counter-terrorist measures and 
other DHS objectives,'' as the Fellowship's promotional materials 
explain,\10\ but having these Fellows enter the technical community at 
large upon graduation does not serve the homeland security mission as 
effectively as if they were to work directly in the homeland security 
sector. The United States scientific and technical workforce is 
strongly dependent on foreign nationals, who constitute a significant 
fraction of each year's graduates in technical disciplines. Many of 
these highly skilled foreign nationals remain in the United States 
after graduation, to this country's great benefit.\11\ However, foreign 
nationals are not eligible to work in many homeland security-related 
institutions. DHS Graduate Fellows can, and policies that maximize the 
fraction of these technically trained U.S. citizens who enter the 
homeland security sector would be very valuable.
---------------------------------------------------------------------------
    \10\ ``DHS Scholarship and Fellowship Program 2007 Competition 
Guidelines,'' http://www.orau.gov/dhsed/
    \11\ See Center for Strategic and International Studies, Commission 
on Scientific Communication and National Security, Security Controls on 
the Access of Foreign Scientists and Engineers to the United States 
(October 2005) for discussion of the importance of foreign interchange 
to the U.S. science and technology base. This paper is available at 
http://www.csis.org/media/csis/pubs/051005<INF>-</INF>whitepaper.pdf
---------------------------------------------------------------------------
    The current program exposes Fellows to DHS problems and processes 
to some degree, but I think that a deeper level of engagement with 
these Fellows, with a more thorough exposure to the U.S. Government's 
homeland security operations, will stimulate greater interest in 
pursuing homeland security careers after graduation. More should be 
done to secure security clearances for the Fellows and brief them on 
homeland security threats at a classified level; to have senior 
representatives from homeland security and related agencies (i.e., 
homeland security, intelligence, defense, public health, critical 
infrastructure) meet with them to describe their jobs, their agencies' 
responsibilities, and different ways in which science and technology 
build homeland security capabilities; and to establish mentorships 
between Fellows and senior employees in the homeland security sector. 
The Fellows should be convened periodically, perhaps by holding 
regional meetings or seminars that would be convenient for them to 
attend. Ongoing engagement with the Fellows is much more likely to 
elicit an interest in a career in homeland security than a single 
orientation.
    A model for such a program of continuous engagement and involvement 
of technical professionals in security problems, albeit one pitched at 
a smaller number of individuals at a more senior level in their career, 
would be the Defense Science Study Group that is organized by the 
Institute for Defense Analyses for DARPA. I would recommend that DHS 
officials involved in the Graduate Fellowship Program familiarize 
themselves with that activity.
    Mr. Chairman and Members of the Subcommittee, I thank you for your 
interest, and I would be pleased to answer any questions you may have 
at this time.

                    Biography for Gerald L. Epstein
    Gerald Epstein is Senior Fellow for Science and Security in the 
CSIS Homeland Security Program, where he works on issues including 
reducing biological weapons threats, improving national preparedness to 
respond to biological attack, and ameliorating tensions between the 
scientific research and national security communities. He is also an 
Adjunct Professor with the Security Studies Program at Georgetown 
University's Edmund A. Walsh School of Foreign Service, where he 
teaches a course on ``Science, Technology, and Homeland Security.'' 
Epstein came to CSIS in 2003 from the Institute for Defense Analyses, 
where he had been assigned to the Defense Threat Reduction Agency. From 
1996 to 2001, he worked at the White House Office of Science and 
Technology Policy (OSTP), serving for the last year in a joint 
appointment as Assistant Director for National Security at OSTP and 
Senior Director for Science and Technology on the National Security 
Council staff. His responsibilities at OSTP included technologies to 
counter terrorism and to protect the Nation's critical infrastructures; 
chemical and biological weapons nonproliferation and arms control; 
missile defense; strategic arms control; the nuclear weapon stockpile 
stewardship program; export controls; and national security/emergency 
preparedness telecommunications.
    From 1983 to 1989 and again from 1991 until its demise in 1995, Dr. 
Epstein worked at the Congressional Office of Technology Assessment, 
where he directed a study on the proliferation of weapons of mass 
destruction and worked on other international security topics. From 
1989 to 1991, he directed a project at Harvard University's Kennedy 
School of Government on the relationship between civil and military 
technologies, and he is a co-author of Beyond Spinoff Military and 
Commercial Technologies in a Changing World (Boston, MA: Harvard 
Business School Press, 1992). He has also served as visiting lecturer 
in public and international affairs at Princeton University's Woodrow 
Wilson School.
    Dr. Epstein is a Fellow of the American Physical Society and in 
2007 chairs that society's Committee on International Scientific 
Affairs. He is also a member of the editorial board for the journal 
Biosecurity and Bioterrorism and of the Biological Threats Panel of the 
National Academy of Sciences' Committee on International Security and 
Arms Control. He received S.B. degrees in physics and electrical 
engineering from MIT and a Ph.D. in physics from the University of 
California at Berkeley.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Wu. Thank you, Dr. Epstein. Mr. Czerwinski.

STATEMENT OF MR. JONAH J. CZERWINSKI, MANAGING CONSULTANT, IBM 
GLOBAL BUSINESS SERVICES; SENIOR FELLOW, HOMELAND SECURITY, IBM 
                  GLOBAL LEADERSHIP INITIATIVE

    Mr. Czerwinski. Chairman Wu, Ranking Member Gingrey, 
Congressman Mitchell, my name is Jonah Czerwinski. I am a 
senior fellow with IBM's Global Leadership Initiative and a 
managing consultant at IBM's Global Business Services. I thank 
you for the opportunity this morning to appear before you to 
highlight three things.
    First, IBM's dedication to supporting basic research and 
services science. Second, the investment priorities of the DHS 
Domestic Nuclear Detection Office, and the importance of 
placing these efforts in a broader framework that protects the 
golden flow of trade and travel. And third, matching R&D 
investments of the DNDO to the risks posed by covert nuclear 
weapons and materials.
    IBM spends approximately $6 billion per year on research 
and development. Much of it on basic research. However, 
increasingly IBM and others are also investing in research in 
emerging areas such as services, which comprise approximately 
80 percent of the U.S. economy and account for more than 75 
percent of IBM's corporate revenues. We believe that the 
national investment in basic research remains critical to 
foster innovation and to support our country's economic 
competitiveness. And we advocate that the Federal Government 
also should support research and curriculum development in the 
area of services science.
    By way of background from 2004, through the early part of 
this year I was director of Homeland Security projects at the 
Center for the Study of the Presidency and worked with Center 
President David Abshire and Norm Augustine to organize the 
Nuclear Defense Working Group. That group provided the 
groundwork and rationale for the Government reorganization that 
led to the Domestic Nuclear Detection Office.
    The challenge of nuclear material is its subtle 
radiological signature, which usually requires a detector to be 
both close to the suspected source and within its vicinity for 
enough time to gather telltale radiation. For this reason most 
of the investments made in detecting smuggled nuclear weapons 
should support two key success factors; increasing distance 
between the detector and the radioactive material and 
decreasing dwell time near the material itself.
    The DNDO budget includes funding for certain longer-term 
R&D commitments that show progress in these areas. For example, 
the development of the Advanced Standoff Detection Program that 
Mr. Oxford described could become a game-changing capability. 
This research may deliver faster detection at a greater 
distance.
    In the end, investments like these must not only protect 
the public and the Nation's critical assets but do so without 
harming the flow of trade and travel. Congress must view the 
effort to combat the smuggled nuclear weapons threat as one of 
several interlocking objectives, many of which should benefit 
from our R&D investments. Doing so requires a framework that 
connects the search for global, excuse me, the search for 
nuclear materials to the broader goal of protecting the flows 
of cargo, people, and conveyances in the global trade and 
travel system. The DNDO should figure prominently in this 
mission.
    Ultimately, homeland security R&D investments should 
support the broader objective of bringing efficiency, security, 
and resilience to one of the most attractive targets of WMD 
terrorism; the flow of global trade and travel. IBM has 
developed a means by which today's homeland security 
imperatives can reinforce both efficiency and security in the 
global movement of cargo, people, information, and finance. We 
call this framework Global Movement Management. It adds 
resilience to this critical system of movement without imposing 
inefficiencies that risk outweighing the security benefits to 
the numerous stakeholders that use these systems of trade and 
travel. The country needs a strategic framework like you 
mentioned to overarch our R&D investments for maximum benefit 
to both our Homeland Security interests and our economic 
competitiveness.
    The strategic framework is lacking today. Nevertheless, 
DNDO has chosen successfully several important pilots, 
including those I mentioned in my written statement.
    This leads me to my final point. Mr. Chairman, you asked 
specifically about the role of risk assessments and identifying 
the best use of our R&D investments in this area. When the DNDO 
first was created, it was understood by its authors that as the 
threat of nuclear terrorism and proliferation would evolve, 
America's relevant technological base would evolve and would 
other significant international factors such as the war in Iraq 
and Afghanistan. It was, therefore, critical that as a help for 
national efforts to combat the smuggling of nuclear material, 
the DNDO began with a net assessment of the Nation's 
capabilities, matched against a current snapshot of the threat. 
The DNDO's Global Nuclear Detection architecture is based on 
that assessment. It includes guidance on how best to operate 
the nuclear detection assets and authorities, as well as a 
clear list of gaps in America's nuclear detection efforts. 
Those gaps lead to DNDO's list of investment priorities.
    I would recommend giving special attention to the 
methodology and makeup of the Global Nuclear Detection 
architecture to better illustrate the connection between risk 
and the DNDO's budget. Ultimately, these individual investments 
can serve a greater goal of resilience, security, and 
efficiency. The DNDO and the Executive Branch as a whole should 
be measured by the ability of their R&D investments to do just 
that.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Mr. Czerwinski follows:]
               Prepared Statement of Jonah J. Czerwinski
    Chairman Wu, Ranking Member Gingrey, Members of the Subcommittee, I 
am pleased to appear before you today to comment on the role of the 
Department of Homeland Security's (DHS) Domestic Nuclear Detection 
Office (DNDO) in securing the homeland against the smuggled nuclear 
threat, the DNDO's budget priorities, and the extent to which this 
relatively new office works across the interagency and with relevant 
partners and stakeholders outside of the federal government.
    I am a Senior Fellow with IBM's Global Leadership Initiative\1\ and 
a Managing Consultant for IBM's Global Business Services. I am here to 
address three items. First, I will discuss select high-leverage and 
innovative components of the DNDO's budget that I believe strike the 
right balance between immediate deployment and the vital long-term 
commitment to basic research. Second, I will address the need for 
investing in a reorganization that is currently underway at DNDO that 
reflects its crosscutting mission. And third, I will place this mission 
in the broader context of a framework that connects the defense against 
smuggled nuclear materials to the imperative of protecting the stream 
of cargo, people, conveyances, information, and money flows in the 
global trade system.
---------------------------------------------------------------------------
    \1\ The Global Leadership Initiative is a strategy team designed to 
cut across all IBM business lines to identify new ideas that place IBM 
at the forefront of companies with the ability to anticipate and serve 
customer needs in the public sector on a global basis.
---------------------------------------------------------------------------
    IBM has invested in the development of new thought leadership in 
this field because we, like the Members of this committee, value 
innovation. Innovation is the key to our competitiveness--both IBM's 
and the Nation's. IBM spends approximately $6 billion per year on 
research and development (R&D)--much of it on basic research. However, 
increasingly, IBM and others also are investing in research in emerging 
areas such as services, which, as you may be aware, make up 
approximately 80 percent of U.S. economy, while employing approximately 
the same percentage of the U.S. labor force. As a country, we need to 
invest in the skills needed for 21st century jobs that will almost 
certainly be dominated by the services market. This means funding 
investment in the emerging academic discipline of services science, 
including R&D and curriculum development.
    My own work at IBM focuses on developing a comprehensive framework 
for security, resilience, and efficiency in the global movement of 
goods, people, and information. From 2004 through the early part of 
this year, I was Director of Homeland Security Projects at the Center 
for the Study of the Presidency.\2\ Beginning in April 2004, I worked 
with Center President David Abshire to organize the Nuclear Defense 
Working Group. That group provided the groundwork and rationale for a 
government reorganization that led to the creation of the Domestic 
Nuclear Detection Office.
---------------------------------------------------------------------------
    \2\ The Center for the Study of the Presidency is a non-partisan, 
non-profit organization founded in 1965 to examine past successes and 
failures of the Presidency as they apply to present challenges and 
opportunities.
---------------------------------------------------------------------------

Origins and Initiatives of the DNDO

    The single most devastating threat to America remains a nuclear 
weapon covertly detonated in a major city. Presidents have considered 
this risk ever since Einstein wrote Franklin Roosevelt in 1939 to warn 
him that a ``bomb of this type, carried by a boat and exploded in a 
port, might very well destroy the whole port together with some of the 
surrounding territory.'' \3\ While that risk is much greater today than 
it was then, some progress in the field of detection has been made.
---------------------------------------------------------------------------
    \3\ Albert Einstein, Leo Szilard correspondence to President 
Franklin D. Roosevelt. August 2, 1939.
---------------------------------------------------------------------------
    In April 2004, a talented group of experts gathered at the Center 
for the Study of the Presidency to consider an intimidating question: 
Is the Nation doing all that it can to reduce the risk of covert 
nuclear attack at an acceptable cost? Norman Augustine co-chaired the 
session with then-Deputy Secretary of Homeland Security, Admiral James 
Loy. Representatives from the Departments of Defense, Energy, and 
Homeland Security, along with participants from the White House, 
national laboratories, and think tanks attended.
    Two perspectives emerged during that meeting. One held that highly 
enriched uranium (HEU) or plutonium used in a nuclear weapon is simply 
too difficult to detect because of the low radiation levels they emit 
prior to detonation. The other argued that today's technology simply 
lacks the strength to detect an element as subtle as HEU, but 
improvements are not impossible. Both groups agreed that, among other 
things, a better organization within government was necessary to 
improve detection because existing national efforts simply were too 
disunified.\4\ Solving the political science problem would help solve 
the physical science problem.
---------------------------------------------------------------------------
    \4\ See ``Report of the Defense Science Board Task Force on 
Preventing and Defending Against Clandestine Nuclear Attack.'' http://
www.fas.org/irp/agency/dod/dsb/attack.pdf.
---------------------------------------------------------------------------
    The result was the creation of the DNDO in April 2005 through 
Homeland Security Presidential Directive 14.\5\ The DNDO was born out 
of the acknowledgement that no single agency had the assets, 
authorities, or responsibilities needed to address the risk of covert 
nuclear attack. Since then, this office, under the leadership of Vayl 
Oxford, and the reorganization of DHS's Science and Technology 
Directorate, led by Under Secretary Cohen, have led to significant 
progress in combating the threat of terrorism.
---------------------------------------------------------------------------
    \5\ The text of HSPD 14 can be viewed at http://www.fas.org/irp/
offdocs/nspd/nspd-43.html.
---------------------------------------------------------------------------
    Over the past two years, the DNDO has stood apart as a work in 
progress and as a place for addressing one of the Nation's most urgent 
security concerns. While the DNDO is still nascent, it is no longer 
``too early to tell'' if it is achieving its goal of integrating and 
accelerating national efforts to combat the smuggled nuclear weapons 
threat.
    Mr. Chairman, your invitation to testify before this committee 
included the important indicators to gauge the success of this 
experiment: Does the new budget request--the third for this office--
advance the highest priorities for combating smuggled nuclear weapons? 
Do those priorities reflect an adequate read of the risk? Are current 
research efforts producing results that support the DHS mandate? Is 
DNDO collaborating effectively with other federal agencies?
    When the DNDO first was created, it was understood by its authors 
that as the threat of nuclear terrorism and proliferation would evolve, 
America's relevant technological base would evolve, as would other 
significant international factors--such as the wars in Iraq and 
Afghanistan and Nunn-Lugar programs. It was therefore critical that, as 
a hub for national efforts to combat the smuggling of nuclear material, 
the DNDO begin with a net assessment of the Nation's capabilities 
matched against a current snapshot of the threat.
    The DNDO's ``Global Nuclear Detection Architecture'' is based on 
that assessment. It includes guidance on how best to operate the 
nuclear detection assets, authorities, and responsibilities. What 
emerges is a clear list of gaps in America's covert nuclear detection 
capabilities. Those gaps lead to the DNDO's list of priorities.
    The Global Nuclear Detection Architecture is an interagency product 
designed to provide a plan for improving the status quo through a 
deliberate systems engineering approach to a gradual--and perhaps 
someday rapid--reduction of the risk of covert nuclear attack. Its 
success depends upon a multilayered system of systems that must knit 
together initiatives contributing to a reduction of the risk in the 
U.S., across the maritime and air domain, and in foreign territories.
    DNDO priorities reflect a shared perception of the threat as it 
evolves over time. The real challenge is setting a budget that balances 
the imperative of deploying available detection capabilities now with 
conducting basic and applied research that push the limits of today's 
technology and help create new capabilities for tomorrow. Interwoven 
with that strategy is a more strategic asset: an integrated forensics 
mission that reaches across the U.S. Government.
    To adequately combat the risk of smuggled nuclear material, the 
DNDO invests in exploratory research that challenges assumptions about 
the limits of technology. It takes the gaps in the Global Nuclear 
Detection Architecture and makes longer-term R&D commitments to 
promising solutions. These efforts can lead to major game-changing 
improvements in our ability to combat nuclear terrorism. Some promising 
examples include the following:

        1)  First, the FY08 budget request includes about $12 million 
        for a technology demonstration called the Verification of 
        Shielded Special Nuclear Material (SNM). This initiative 
        addresses the risk caused by a proliferator or perpetrator who 
        seeks to foil many currently deployed detectors by moving 
        critical bomb-making material while hiding it behind lead or 
        other shielding.

        2)  Second, the budget includes about $11 million for the 
        Intelligent Personal Radiation Locator, or IPRL. The technology 
        represents a move from search to surveillance, and it amounts 
        to a transformation of the current version of the ``pager'' 
        devices now used, which are little more than personal Geiger 
        counters. The IPRL investment addresses, albeit in a limited 
        way, the gap that was identified in the Global Nuclear 
        Detection Architecture showing the need for increased numbers 
        of smaller, more mobile detectors to help locate stolen nuclear 
        material or weapons at a late stage of deployment. The new 
        locators--presently at a very early demonstration stage--are 
        worn on a belt and can provide the wearer with indications of 
        where the source is located and the type of isotope within 
        range. They also have the ability to communicate wirelessly 
        with other locaters so as to rapidly close in on a suspicious 
        source. All of this is done with increasing range and with 
        greater reliability.

        3)  Third, the DNDO is developing the advanced Stand-off 
        Detection capability, which focuses on increasing the distance 
        from dangerous nuclear material while decreasing dwell time 
        near that material. Both are critical. However, the challenge 
        of nuclear material is its subtle radiological signature, which 
        usually requires a detector to be both close to the suspected 
        source and in its vicinity for enough time to gather telltale 
        radiation. By soliciting competing teams of partners among 
        private industry, national laboratories, and academia, this 
        research may deliver more detailed imaging capabilities at a 
        range that is increased by a factor of 10 or more. This same 
        effort could produce detectors capable of working effectively, 
        while moving at a rate of 20 miles per hour. The result of 
        faster detection at a greater distance from the source 
        material--combined with intelligence tools for better 
        targeting--will not only protect the public and the Nation's 
        critical assets, but it also will facilitate the movement of 
        cargo through ports without sacrificing security.

        4)  Fourth, the FY2008 budget request includes $16.9 million 
        for the National Technical Nuclear Forensics Center (NTNFC), 
        which supports DNDO's technical forensics responsibility. This 
        money would support not only an R&D investment, but also a 
        much-needed reorganization. Nuclear forensics cuts across the 
        entire mission space from deterrence and dissuasion, to 
        detection through consequence management, to attribution and 
        response. It is a core part of the mission of combating 
        smuggled nuclear weapons.

    The NTNFC should be considered a priority given the significant 
return on investment that progress in this area can deliver. While the 
Department of Homeland Security is not responsible for the entire 
spectrum of forensics, the NTNFC represents a step forward in two 
clearly needed capabilities:

        1.  Across the government, unify various competencies and 
        programs that are focused on aspects of the forensics mission.

        2.  Develop, enhance, and maintain technical forensics 
        capabilities for pre-event needs.

DNDO Collaboration

    This committee asked specifically whether the DNDO is collaborating 
effectively with other federal agencies. I believe that combating the 
smuggled nuclear weapons threat is, by nature, a collaborative mission. 
This mission was at the center of the interagency debates in 2004, and 
the DNDO of today reflects this imperative. This is an area in which 
the DNDO has made progress.
    Since the National Technical Nuclear Forensics Center is in many 
ways a microcosm of the DNDO, I would like to highlight a few examples 
here that represent a broader collaborative effort now underway. At the 
NTNFC, the FBI provides an expert as Deputy Assistant Director, and it 
also provides a senior liaison from the FBI lab. The Department of 
Defense provides a detailee, and the Department of Energy is assigning 
an expert of its own.
    The Forensics Center has a Working Group, made up of members from 
each relevant federal agency and members of the intelligence community, 
which meets regularly to address high priority issues. There is an 
``Interagency NTNF Program & Budget Crosscut'' that is under 
development to help align relevant programs and harmonize budget 
requests. Lastly, the NTNFC--and the DNDO in general--work with 
interagency partners in planning and executing exercises that support 
the research, development, and deployment of technologies, as well as 
shared concepts of operations, or CONOPS.
    DNDO works mostly with the Department of Energy's (DOE's) Office of 
Nonproliferation Research and Development, known as NA-22, and DOD's 
Defense Threat Reduction Agency. The interactions include serving as 
proposal evaluators on each other's programs, deconflicting projects by 
comparing portfolios, and jointly participating in project reviews and 
technical reports.
    The Advanced Technology Demonstrations (ATDs), such as Standoff 
Detection and Verification of Shielded Nuclear Material, include teams 
that have developed technology with funding from DNDO, DOE, DOD, and 
other sources. The purpose of an ATD is to develop and test a 
technology that addresses a critical need and which has reached a 
proof-of-concept stage, usually with payoff for more than one agency. 
In this way, DNDO takes advantage of work that is funded by others, but 
it also supports R&D that can be useful to other agencies.
    For example, some efforts at DNDO could contribute to Maritime 
Domain Awareness (MDA) \6\, a major program developed by the Coast 
Guard to identify threats and intercept them before they arrive 
onshore. In MDA, the Coast Guard and Department of Defense require 
better intelligence, as well as detection and interdiction capabilities 
to accomplish their goals. In the context of nuclear terrorism, a 
successful mission depends upon the ability to detect threatening 
material or people at the greatest possible distance. The ability of 
DNDO to contribute to that mission should be a measure of its return on 
investment.
---------------------------------------------------------------------------
    \6\ MDA is the principle strategy articulated in ``The National 
Plan to Achieve Maritime Domain Awareness,'' which was released by the 
Department of Homeland Security in October 2005. As directed by 
National Security Presidential Directive-41/Homeland Security 
Presidential Directive-13, it is one of eight plans developed to 
support the National Strategy for Maritime Security.
---------------------------------------------------------------------------

Placing Detection R&D Within a Broader Framework

    Congress must view the effort to combat the smuggled nuclear 
weapons threat as one of several interlocking objectives, many of which 
should benefit from R&D investments. Doing so requires a framework that 
connects the search for nuclear materials to the broader flows of 
cargo, people, conveyances, information, and money in the global trade 
and travel system. And that framework should reach across DHS, DOD, 
DOE, State, and other departments to improve the resilience and 
security of the global trade and travel system, while ensuring its 
security.
    The DNDO--and DHS S&T--should figure prominently in this mission. 
Ultimately, the federal R&D management process must more effectively 
link the strategic planning process at DHS with the broader mission of 
bringing transparency, efficiency, security, and resilience to one of 
the most attractive targets of WMD terrorism: the global flow of trade 
and travel.
    IBM has developed a framework like this that also acknowledges an 
existing incentive for the private sector, which is to satisfy the 
economic imperative to improve the efficient and reliable flow of 
people, cargo, conveyances, money and information.
    At IBM, we call this framework ``Global Movement Management.'' \7\ 
It is a means by which the technology requirements of today's homeland 
security measures can provide for both efficiency and security in the 
global movement of cargo, people, information, and finance. This new 
framework adds resilience to this critical system of movement without 
imposing inefficiencies that risk outweighing the security benefits to 
the numerous stakeholders that use these systems of trade and travel.
---------------------------------------------------------------------------
    \7\ Global Movement Management (GMM) is a comprehensive governance 
structure and system architecture for monitoring and securing the key 
flows of global commerce--people, goods, conveyances, money, and 
information. It provides the framework to safeguard the global economy 
against disruptive threats by fostering new levels of visibility, 
accountability, and resiliency.
---------------------------------------------------------------------------
    For the DNDO, finding a smuggled nuclear weapon on a ship in the 
Port of Portland is too late. That threat must be identified, verified, 
and interdicted before it ever approaches. The DNDO investments that I 
highlighted go a long way in generating the transparency needed to 
identify a threat, but the broader strategy should consider, in this 
example, that the shipping system itself must be able to withstand a 
disruption, terrorist or otherwise. This is because, as global movement 
becomes ever more interdependent, a disruption--let alone an actual 
attack--would be catastrophic.

Conclusion

    The country needs a strategic framework to overarch our R&D 
investments for maximum benefit to both our homeland security interests 
and our economic competitiveness. DNDO and DHS lack this strategic 
framework today. Nevertheless, DNDO has chosen successfully several 
important pilots, including those I mentioned. Indeed, Congress should 
view DNDO's work as being on track after three years.
    But Congress also should consider how the individual investments 
can serve a greater goal of resilience, security, and efficiency. The 
DNDO, and the Executive Branch as a whole, should be measured by the 
ability of their R&D investments to do just that.
    Thank you. I would be happy to respond to any questions that you 
may have.

                   Biography for Jonah J. Czerwinski
    Jonah Czerwinski is Managing Consultant, Global Business Services 
at IBM, working on homeland security policy issues, and he is a Senior 
Fellow in IBM's Global Leadership Initiative. Jonah is also a Senior 
Advisor for the Center for the Study of the Presidency and a 2007 
Senior Fellow at the Homeland Security Policy Institute of George 
Washington University.
    From 2003 to 2006, Jonah was Senior Research Associate and Director 
of Homeland Security Projects at the Center for the Study of the 
Presidency (CSP). He led the Center project on combating the smuggled 
nuclear threat, which worked across the Executive Branch in an effort 
that led to establishment of the Department of Homeland Security's 
National Domestic Nuclear Detection Office (DNDO). He also served on 
the Council on Foreign Relations Study Group on Strategies for Defense 
Against Nuclear Terrorism. From 2001-2004, he directed the Center's 
Homeland Security Roundtable, which regularly convened senior Homeland 
Security leadership of the Executive Branch and Congress with leaders 
of the think tank community, academia, and private sector to discuss 
critical Homeland Security issues.
    Jonah led a Center project on strengthening the transatlantic 
relationship through NATO, which published Maximizing NATO in the War 
on Terror in May 2005. He also directed the Center's working group on 
The U.S.-Canada Strategic Partnership in the War on Terrorism in 2002. 
He served as a member of the ``Taskforce for Examining the Roles, 
Mission, and Organization of the U.S. Department of Homeland 
Security,'' which published its recommendations as DHS 2.0 (December 
2004). In 2005, he was Senior Fellow at the Homeland Security Policy 
Institute of George Washington University, and in 2004, he was named a 
Manfred Worner Fellow.
    Jonah was a contributing writer to and research coordinator of the 
Center's 2001 report on Comprehensive Strategic Reform. He was project 
coordinator and principal writer of Forward Strategic Empowerment: 
Synergies Between CINCs, the State Department, and Other Agencies, and 
assistant editor and contributor to In Harm's Way: Intervention and 
Prevention.
    Professional media appearances include interviews on CNN and CNN-
International, in addition to interviews for The New York Times, Wall 
Street Journal, The National Journal, Los Angeles Times, Congressional 
Quarterly, National Defense, and other major news outlets. In addition 
to authoring, editing, or co-authoring a number of publications, Mr. 
Czerwinski has spoken at the Elliott School of International Affairs at 
The George Washington University, the Center for International Security 
Studies at the University of Maryland, and the graduate school at Salve 
Regina University.
    Prior to joining the Center in late 1999, Mr. Czerwinski was an 
analyst with the program in International Finance and Economic Policy 
and a research assistant to the CEO at the Center for Strategic and 
International Studies (CSIS). He has worked with the George Washington 
University Center for International Health on the intersection of 
international security and health, as a consultant to CSIS, and as 
coordinator for the Trinity National Leadership Roundtable. He serves 
on the Advisory Council of the Salvation Army of Washington, DC, as 
Chairman of the Nominating Committee. Mr. Czerwinski earned his 
undergraduate degree (A.B., Philosophy) from Salve Regina University.

    Chairman Wu. Thank you very much, Mr. Czerwinski. Ms. Ward.

  STATEMENT OF MS. MARILYN WARD, EXECUTIVE DIRECTOR, NATIONAL 
        PUBLIC SAFETY TELECOMMUNICATIONS COUNCIL (NPSTC)

    Ms. Ward. Chairman Wu, Ranking Member Gingrey, and the 
Members of the Subcommittee, on behalf of the National Public 
Safety Telecommunications Council, referred to as NPSTC, it is 
a privilege to appear before the Subcommittee and its 
examination of the Department of Homeland Security's research 
and development activities. We commend the Subcommittee's work 
in this area.
    NPSTC's mission is devoted to improving the communications 
capabilities of local and State public safety agencies. NPSTC 
was created in 1997, as a volunteer federation of 13 national 
public safety associations. Our efforts are focused on the 
technological capability and the capacity of radio 
communications and the coordination of these resources 
throughout all agencies.
    The following are just a few examples of what NPSTC does. 
We provide the DHS SAFECOM Program local and State public 
safety input to its Science and Technology research and 
development and standard efforts. NPSTC critically examines 
technical and regulatory implications regarding radio spectrum 
utilization and management.
    NPSTC provides comments to the FCC on critical public 
safety issues representing over 250,000 public safety 
responders. NPSTC provides an open forum for discussion and 
dispute resolution on public safety communications issues.
    My testimony today focuses on the DHS Science and 
Technology role in furthering public safety communications. 
Through its Executive Committee, Emergency Response Committee, 
and organizations like NPSTC, SAFECOM is developing a national 
plan to enhance inter-operability.
    We believe the focus on new and innovative technology today 
is found in broadband. The challenge is that public safety 
spectrum is currently not available for a nationwide broadband 
network that is controlled by and built to public safety 
standards and requirements. The recent testimony of Chief 
Harlan McEwen from IACP, the International Association of 
Chiefs of Police, and Chief Charles Werner of the International 
Association of Fire Chiefs, to the Senate Commerce Committee is 
supported by all of the major public safety associations, 
including NPSTC, and it is attached to my written testimony.
    The public safety community is concerned that there was 
considerable reduction in the 2007 budget and that the newly 
created Office of Emergency Communications was left unfunded. 
Agencies transferring portions of their budgets to fund DHS OEC 
is time-consuming, it creates tension among agencies, and 
causes confusion and uncertainty for the State and local 
community.
    DHS SAFECOM has pursued development of regional radio 
systems by soliciting participation using a bottom-up strategy. 
Although this takes time, it is a critical element and must be 
completed. In addition to the tools and critical studies 
SAFECOM develops, they also test, evaluate technologies, 
conduct pilot programs, and are funding a compliance lab. None 
of these have adequate resources.
    Although not directly involved with the Department's 
planning and priority mechanisms, we do not see projects and 
programs based on long-term solutions to the problems that we 
face in communications. The budgets at the federal level 
fluctuate and are not sustained in a manner that is conducive 
to long-term solutions.
    DHS SAFECOM, along with their partners at the National 
Institute of Standards and Technology, Office of Law 
Enforcement Standards, and the National Telecommunications and 
Information Agency Institute for Telecommunication Sciences are 
currently testing the current public safety standard commonly 
referred to as P25. This is an especially important requirement 
because many of the State and local agencies, as well as the 
Department of Defense and other federal agencies, are using P25 
equipment. Through the SAFECOM Program, NPSTC has been involved 
with the NIST/OLES for many years such as in the development 
and review of the SAFECOM Statement of Requirement for public 
safety communications technology.
    Another example of our collaboration occurred last month 
when NPSTC worked with NTIA ITS in Bolder to develop 
requirements for broadband technologies. Through this 
collaboration the original input of 57 practitioners was 
expanded to 627 who provided input to the project.
    I would also like to ask that this subcommittee review our 
comments on the progress made regarding the recommendations of 
the September 2004, GAO report on inter-operability, which is 
provided in my written testimony.
    In closing, there are two issues the Subcommittee and 
Congress should consider. First, fluctuations in funding for 
communications inter-operability deters progress. Three to 
five-year funding estimates would provide stability for long-
term programs and strategies and would result in considerably 
more improvements.
    The second issue we would like you to consider is the 
proposal to permit the creation of a Public Safety Broadband 
Trust in the 700 MHz and reallocating 30 MHz of spectrum to 
public safety that is scheduled to be auctioned. We urge 
Members to examine this issue very closely. It would make a 
positive and important contribution to public safety 
communications.
    Thank you, again, for the invitation to appear before this 
committee.
    [The prepared statement of Ms. Ward follows:]
                   Prepared Statement of Marilyn Ward
Chairman Wu, Ranking Member Gingrey, and Members of the Subcommittee:

    On behalf of the National Public Safety Telecommunications Council 
(NPSTC), it is a privilege to appear before the Subcommittee in its 
examination of the Department of Homeland Security's Research and 
Development Activities. NPSTC's mission is devoted to improving the 
communications capabilities of local and State public safety agencies. 
With heightened domestic defense and emergency response demands, the 
work of the Department of Homeland Security in this area is vital.
    NPSTC was created in 1997 as a volunteer federation of associations 
representing State and local public safety telecommunications to 
advance communications capabilities, including inter-operability, of 
first responders, through one collective voice for public safety 
communications. NPSTC serves both as a resource and advocate for public 
safety organizations in the United States on matters relating to public 
safety telecommunications. The technical capability and capacity of 
radio communications and the coordination of these resources across all 
agencies are fundamental to our core mission, that of speeding response 
to the citizen facing an emergency.
    NPSTC is dedicated to encouraging and facilitating, through its 
collective voice, the implementation of the Public Safety Wireless 
Advisory Committee (PSWAC), and the 700 MHz Public Safety National 
Coordination Committee (NCC) recommendations. NPSTC explores 
technologies and public policy involving public safety agencies, 
analyzes the ramifications of particular issues, and submits comments 
to governmental bodies with the objective of furthering public safety 
communications worldwide. NPSTC serves as a standing forum for the 
exchange of ideas and information for effective public safety 
telecommunications. The following 14 organizations participate in 
NPSTC:

         American Association of State Highway and Transportation 
        Officials

         American Radio Relay League

         American Red Cross

         Association of Fish and Wildlife Agencies

         Association of Public-Safety Communications Officials-
        International

         Forestry Conservation Communications Association

         International Association of Chiefs of Police

         International Association of Emergency Managers

         International Association of Fire Chiefs

         International Municipal Signal Association

         National Association of State Chief Information Officers

         National Association of State Emergency Medical Services 
        Officials

         National Association of State Foresters

         National Association of State Telecommunications Directors

    Several federal agencies are liaison members to NPSTC. These 
include the Department of Agriculture, Department of Homeland Security 
(SAFECOM Program, and the Federal Emergency Management Agency), 
Department of Commerce (National Telecommunications and Information 
Administration), Department of the Interior, the Department of Justice 
(National Institute of Justice, CommTech Program), and the Federal 
Communications Commission (FCC).
    Below is an illustration of the NPSTC organization, its four 
operational committees and multiple working groups. It is clear that 
there are many topics to be resolved that impact public safety 
communications and NPSTC is active in developing positions and 
advocating for State and local first responders.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    NPSTC IS AN ADVOCATE FOR PUBLIC SAFETY COMMUNICATIONS IN THE 
FOLLOWING WAYS:

    NPSTC is the only national consensus forum for major public safety 
associations that facilitates an open dialog and exchange of 
information on critical public safety telecommunication issues.

    NPSTC provides the SAFECOM Program local and State public safety 
communications input to science and technology research and development 
projects and related standards efforts.

    NPSTC critically examines technical and regulatory implications 
regarding radio spectrum utilization and management.

    NPSTC provides comments to the FCC on critical public safety issues 
upon receiving consensus from its 14 member associations, representing 
over 250,000 public safety responders.

    NPSTC's members include the four FCC certified public safety 
frequency coordinators.

    NPSTC includes liaisons from the Federal Government that ensure 
feedback to and from practitioners and policy-makers.

    NPSTC provides an open forum for our members, guests and the 
community for discussion and dispute resolution, including the ability 
for people who cannot travel to attend the meetings by calling into a 
teleconference bridge.

    NPSTC actively engages in securing and protecting spectrum for 
states and localities: 700 MHz for Wide Area Voice and Data, 800 MHz 
Rebanding, continued VHF & UHF availability and 4.9 GHz for on-site 
broadband.

    NPSTC actively monitors key technology-related issues having long-
term implications on public safety inter-operability by actively 
participating in Software Defined Radio forums (SDR), International 
Association of Electrical and Electronics Engineers (IEEE) meetings, 
and international public safety standards efforts, such as Project 
MESA.

    NPSTC addresses public safety spectrum issues along the U.S. border 
by participating in related State Department efforts.

    NPSTC provides the SAFECOM Program a forum to monitor the pulse of 
the public safety community and determine needs to improve inter-
operability.

    NPSTC recently developed a common radio channel naming plan to 
standardize the radio channels to read the same display no matter where 
the responder is located in the U.S.

    NPSTC is currently developing a dispute resolution procedure for 
700 MHz Regional Planning Committees when conflicts occur among 
adjacent regions.

    NPSTC monitors 4.9 GHz and 5.9 GHz testbeds and communicates the 
information to the State and local public safety community.

    NPSTC communicates the impact and solutions of nationwide reviews 
of in-building radio coverage to the public safety community.

    NPSTC promotes a national forum where Amateur Radio and public 
safety work together on nationwide public safety wireless communication 
issues.

    As the founding Chair and current Executive Director of NPSTC, I 
would like to convey to the Subcommittee how important its work is and 
relate our appreciation for inviting us to speak on the issues that 
impact our members and their constituents in the first responder 
community. As you requested, the focus of my testimony is on the impact 
of the Department of Homeland Security, Science and Technology 
Directorate (DHS S&T Directorate) on our nation's public safety 
communications. The issues that I have been asked to address are listed 
below. I want to emphasize that in addressing these issues I will be 
largely focusing on the communications and inter-operability issues, 
although I will also address the larger context of DHS support for the 
first responder community and localities.

        <bullet>  The role DHS should play in helping localities 
        prepare for security threats and disasters.

        <bullet>  How well the FY 08 budget request for DHS S&T 
        supports the development of technology for first-responders.

        <bullet>  DHS collaboration with State and local governments 
        and the first responder community on standards development and 
        how the first-responder community uses the results of DHS 
        technology testing and evaluation and standards.

        <bullet>  The principal technological needs of the first-
        responder community.

        <bullet>  DHS' planning and priority-setting mechanisms and the 
        communications needs of first responders.

        <bullet>  A reflection on the General Accounting Office Report 
        of 2004 and the progress made to assist the first responders 
        with inter-operability.

    Protecting the public is a key responsibility of all levels of 
government. From federal agencies down to local fire protection 
districts the public depends on us. DHS plays a key role in this effort 
by supporting the 55,000 local public safety agencies in their daily 
challenges and during major disasters where it and other federal 
agencies provide direct response and service. DHS funding is a critical 
element that helps State and local public safety meet daily and 
catastrophic challenges. Communication is critical to meeting those 
challenges and DHS funding encourages all levels of responders to work 
together to promote better communications systems, including solving 
inter-operability and other public safety communications issues.

The National Incident Management System (NIMS)

    DHS programs such as the National Incident Management System (NIMS) 
started out as a guide for major events, but local agencies now find 
that the NIMS structure is also effective during everyday events from 
fires to hostage situations. DHS supported the implementation of NIMS 
through the grant process and has been successful at encouraging local 
public safety to embrace and use NIMS during joint responses to 
emergencies. It is important to note that one of the reasons that NIMS 
works is because it was developed with input from the State and local 
practitioner community. As a result, DHS was able to both draw upon 
best practices from the people that do this work daily as well as 
obtain ``buy-in''' for the final product.
    DHS guidelines are now requiring local agencies to develop joint 
plans for multi-agency responses. Part of this challenge is that local 
agencies have long delayed sitting down and working together. With DHS 
funding directed at regional or cross jurisdictional responses, there 
is significant incentive to finally come together to share resources 
and manage incidents effectively.

Inter-operability

    The heart of any coordination of an incident, large or small is 
communications. In this regard, the next round of federal grant dollars 
requires that states must develop statewide communications plans that 
also include counties, cities, and local districts. The guidelines for 
these statewide plans were developed by the SAFECOM Program located 
within the DHS Office of Inter-operability and Compatibility' (OIC), 
with the participation of local responders and public safety 
communications officials.
    The significance of the national guidelines is they require prior 
planning and, at the same time, ensure that grant funds are spent on 
specific solutions in accordance with those plans. When the major 
issues are addressed at the local level, it also means they are 
addressed at the national level. The challenge is to ensure that the 
overall objectives meld into the State and local operational 
environment to enhance effective response.
    Interagency communication problems have been identified in every 
major incident over the last 10 or more years. Solving this issue is 
not as easy as it might seem. State and local jurisdictions have 
invested billions of dollars in non-compatible communication systems 
that are operating in different bands of spectrum. The solution most 
often involves building new infrastructure which is very expensive. 
While the development of regional systems make sense, building them is 
also very expensive and requires a heightened level of cooperation 
among agencies. It also involves knowledge of best practices that is 
not always available at the local level. What has emerged is not only 
an emphasis on infrastructure and equipment, but the planning and 
cooperation needed to make use of these resources effectively across 
all agencies.
    The DHS Office of Inter-operability and Compatibility's SAFECOM 
Program has been one of the true successes in providing assistance to 
State and local agencies to meet these challenges. SAFECOM provides 
research, development, testing and evaluation, guidance, tools, and 
templates on communications-related issues that improve emergency 
response through more effective and efficient inter-operable wireless 
communications.
    The key to the success of SAFECOM is that it is a practitioner-
driven program and has developed a process to facilitate the input of 
local and State emergency response practitioners. SAFECOM, working with 
its Executive Committee, the Emergency Response Council, and 
organizations in the practitioner community, like NPSTC, developed a 
national plan to enhance inter-operability, a Statement of Requirements 
for communications equipment, systems, and tools to assist 
jurisdictions to develop governance structures and planning; and, 
consequently, helped facilitate the quicker adoption of standards and 
grant guidance for communications-related grant programs, among other 
things.
    Most recently SAFECOM completed a national Baseline Study of Inter-
operability to learn what the problems were at the local level. DHS 
also developed a Scorecard of Inter-operability in designated Urban 
Areas (UAs) using public safety practitioners in the process. A key 
next step will be to develop a scorecard on standards compliance 
testing at the local level, something sorely needed to assist State and 
local jurisdictions in making the right procurements.
    The ``scorecard'' reviews of the UAs focused on three main areas: 
Governance (leadership and strategic planning); Standard Operating 
Procedures (plans and procedures); and Usage (use of equipment). The 
evaluation criteria was derived directly from the SAFECOM Inter-
operability Continuum and Inter-operability Maturity Assessment Model 
that depicts the key components of inter-operability--governance, 
standard operating procedures, usage, technology, and training and 
exercises.
    The findings identify gaps and areas for improvement. Key findings 
included:

        <bullet>  Plans for inter-operable communications are now in 
        place in all 75 urban and metropolitan areas, but 
        implementation is now needed.

        <bullet>  Regular testing and exercises are needed to 
        effectively link disparate systems and facilitate 
        communications between multi-jurisdictional responders, 
        including State and federal agencies.

        <bullet>  Cooperation among first responders in the field is 
        strong, but formalized governance (leadership and strategic 
        planning) across regions is not as advanced.

    In my opinion, these are important findings and should apply to all 
areas of public safety nationwide, not just the Urban Areas.
    There also needs to be an examination to determine the level of 
inter-operability in the non-urban areas of our nation. This will 
provide a better idea of where we stand and the basis for determining 
future costs. Since 2003, DHS has awarded $2.9 billion in funding to 
enhance State and local inter-operable communications efforts; this is 
a small amount, given that experts estimate an $18 billion 
infrastructure nationwide that is not inter-operable and the equipment 
is outdated. We will continue to see an inter-operability improvements 
only if there is adequate funding and grant guidance to promote 
regional and statewide planning and systems.

Compliance Testing

    Compliance testing of radio equipment is one item best done at the 
national level. Local agencies do not have the facilities, experience, 
or the type of equipment to do in-depth compliance testing. For 
example, at the present time there is only one national standard for 
radio equipment, commonly referred to as P25 and relating to inter-
operability. While several manufacturers make claims that their 
products are P25 compliant; testing is necessary to validate their 
claims.
    There is a need for a federal agency to perform these compliance 
tests and DHS SAFECOM, along with their partners at the National 
Institute of Standards and Technology (NIST) and the National 
Telecommunications and Information Agency (NTIA) Institute for 
Telecommunication Sciences (ITS) fill this role. This is especially 
true in that the Department of Defense (DOD), other federal departments 
and State and local agencies are now all using P25 radio equipment. 
There is no real magic in which agency does the testing; it just needs 
to be done.
    The NIST Office of Law Enforcement Standards (OLES) technical staff 
has been involved with NPSTC for many years, and they have included our 
volunteers in the development and review of the SAFECOM Statement of 
Requirements (SOR) for public safety technology. They have worked 
closely with NPSTC as it develops consensus positions on the best 
technology use for first responders and provides a welcome check and 
balance to their work.

Broadband

    An example of our collaboration occurred last month when NIST/OLES 
in Boulder, Colorado worked with NPSTC to develop user's needs in 
broadband. The effort expanded the input of 57 practitioners who had 
provided input into the needs study. With NPSTC support, 627 
practitioners agreed to provide input to the project. Such 
collaboration is mutually beneficial to both the local and federal 
communities. The SAFECOM Program provides an important mechanism for 
this collaboration.
    The focus on new and innovative technology today is in broadband 
for public safety. Ten years ago the public safety community could not 
have imagined that broadband technology would have advanced as it has 
today and have the potential to provide so much. The concern today is 
that broadband was not planned for nationwide use, and yet to ensure 
inter-operability that is what we need, a nationwide broadband network 
that is controlled by and built to public safety standards. The 
testimony to the Senate on February 8, 2007, of Chief Harlin McEwen 
representing the International Association of Chiefs of Police (IACP), 
the Association of Public Safety Communications Officials-International 
(APCO), the Major Cities Chiefs Association (MCC), the National 
Sheriff's Association (NSA), and the Major County Sheriff's Association 
and NPSTC along with the testimony of Chief Charles Warner representing 
the International Association Of Fire Chiefs (IAFC) regarding broadband 
for public safety is attached to this document. This testimony is 
supported by all of the major public safety associations and NPSTC.
    The SAFECOM Inter-operability Baseline survey was sent to 22,400 
randomly selected law enforcement, fire response and emergency medical 
services (EMS) agencies. Findings indicate that roughly two-thirds of 
emergency response agencies across the Nation use inter-operable 
communications in varying degrees. Agencies tend to be more developed 
in technology than they are in standard operating procedures and 
exercises. Cross-discipline and cross-jurisdiction inter-operability at 
the local level tends to be more advanced than between State and local 
agencies. In addition, law enforcement, fire response, and EMS agencies 
reported similar levels of development in most areas of inter-
operability.
    To date, no national survey has addressed broadband systems owned 
by public safety since there is currently little or no available (700 
MHz or 4.9 GHz) spectrum for this use. The 700 MHz block of spectrum 
that will become available with the digital television transition will 
be the first opportunity for local public safety to use these new 
technologies. Many local agencies have developed and filed their plans 
with the FCC for local and regional use of the broadband spectrum. The 
transition and release of this spectrum to public safety remains 
critical.
    SAFECOM, in conjunction with NIST/OLES, recently brought together 
key stakeholders from both industry and the public safety community to 
discuss and clarify the varying perceptions of Voice over Internet 
Protocol (VoIP's) role in public safety communications. This technology 
has the potential for significant impact on public safety 
communications. Yet there must be the ability to test its use for 
mission-critical activities and ensure its robust nature before 
marching into nationwide acceptance on local networks.

Funding Levels and Priorities

    Of great concern to the public safety community is that despite the 
critical work being done by OIC's SAFECOM program, it has never been 
adequately funded. In Fiscal Year 2007 OIC's entire budget was $27.2 
Million to fund SAFECOM and other programs of importance to the first 
responder community. The Inter-operable Communications Technical 
Assistance Program (ICTAP) run by the Grants and Training Office (G&T) 
only received $10 Million. The newly created Office of Emergency 
Communications (OEC) has received no funding to date. Given the 
critical nature and magnitude of the challenge, this is woefully 
inadequate. The expectation of other agencies transferring portions of 
their budgets to fund the DHS OEC is time consuming and creates concern 
among the other federal agencies. It has also caused confusion and 
uncertainty amongst the State and local community.
    DHS needs to continue to more broadly encourage the development of 
regional systems that are multi-jurisdictional, multi-disciplined, and 
inter-operable for all responders. With over 55,000 public safety 
entities in this nation, each supporting their own systems and 
political jurisdiction, as I noted earlier, the estimate to upgrade 
and/or replace communications equipment is over $18 billion dollars.
    For example, I come from Orange County (Orlando) Florida. Our 
county radio system cost $21 million in 1992 when it was built, and new 
sites continue to be added to accommodate growth, at a cost ranging 
from a quarter of a million to a million dollars per radio site. This 
is one system in one of Florida's 67 counties. Within Orange County, 
there are several small cities and the City of Orlando which maintain 
individual systems. I was with the City of Orlando where I retired 
after 27 years with the Police Department. During that time we built a 
$10 million dollar system while the county was building their $21 
million dollar system. We pursued joining the County and building one 
system but were unable to cross the barriers to make that happen. This 
is common around the U.S. Incentives are needed to eliminate 
duplication and waste of taxpayer money.
    NPSTC was formed for the sole purpose of bringing the multitude of 
public safety disciplines together to address communication issues. In 
this area we have found that DHS, primarily through SAFECOM, not only 
consults with our community on issues, but solicits our participation 
in helping them develop planning and priorities. It embraces the 
objective of making improvements in public safety communications with 
the important recognition that local and State participation is 
crucial. A cooperative working relationship has been established over 
the years and our community values the input and assistance that we 
receive not only from DHS, but from the several federal agencies that 
interrelate with us on a regular basis.
    The success of homeland security depends in large part on the 
success of local public safety. Local public safety relies on the 
support and guidance it receives from its federal partners. The 
Department of Homeland Security should continue to facilitate a robust 
and substantive intersection between the Federal Government and the 
response community.
    In addition to the Office of Inter-operability and Compatibility, 
we are currently working with the NIMS Integration Center and other 
offices to update the National Incident Management System and the 
National Response Plan. We also work with the Office of Grants and 
Training. The success of working together is critical to ensure that 
policies and procedures are operationally driven and able to be 
realistically implemented on the ground.
    Areas that need continued enhancement of the federal-public safety 
relationship include critical infrastructure protection and 
information/intelligence sharing offices. There is evidence of movement 
in information and intelligence sharing, but the emergency services' 
role in critical infrastructure protection continues to be 
challenging--due, in part, to emergency services unique role as both 
protector of sectors and a sector to be protected.
    A final note, and on a larger scale, intersections between local, 
State and federal entities cannot be identified nor trusting 
relationships built if the landscape and personnel are constantly 
changing. DHS's impending re-organization will prove another test--but 
also an opportunity--to form relationships between the Federal 
Government and first responders.

The 2004 General Accountability Office Report

    In September 2004, the GAO released a report on inter-operability 
and testified before the Subcommittees on technology, Information 
Policy, Intergovernmental relations, and Census, House of 
Representatives titled Federal Leadership Needed to Facilitate Inter-
operable Communications Among First Responders
    Set forth below is what the GAO determined and our view of the 
progress three years later:

GAO: (1) In a recent report on inter-operable communications, we 
recommended that the Secretary of DHS (1) continue to develop a 
nationwide database and common terminology for public safety inter-
operability communications channels.
    Progress to date: With the support of the SAFECOM Program, NPSTC 
recently completed a forum and methodology for responders to work 
toward common nomenclature. NPSTC has made progress and has a consensus 
on several key issues. A report has been distributed for review and 
comment, and we will be making a final recommendation to our Governing 
Board in June 2007. Federal support and adoption by the FCC is now 
needed to formalize the use of common channel naming across the Nation.

GAO: (2) help states assess inter-operability in specific locations 
against defined requirements.
    Progress to date: Through DHS Grants and Training grant awards, 75 
Urban Area Security Initiative (UASI) locations began developing plans 
and were accessed by a standardized scorecard developed by SAFECOM and 
member associations. This is important progress and must be extended 
statewide beginning in 2007.

GAO: (3) through federal grant awards, encourage State action to 
establish, and support a statewide body to develop and implement 
detailed improvement plans.
    Progress to date: The SAFECOM Program created grant criteria, which 
were placed in the DHS Grants; however it has taken until March 2007 
for the first national meeting hosted by the National Governors 
Association (NGA), SAFECOM, and NPSTC to begin statewide planning. This 
process will request states to voluntarily provide an ``inter-
operability coordinator'' statewide and provide guidance for states to 
begin developing statewide plans.

GAO: (4) require that grant applications be in compliance with 
statewide inter-operability plans, once they are developed.
    Progress to date: Several states have made good progress to 
complete their plans, however many are just beginning. The Grant 
guidance prepared by SAFECOM, supports this recommendation.

GAO: GAO also recommended that the Director of OMB work with DHS to 
review SAFECOM's functions and establish a long-term program with 
appropriate authority and funding to coordinate inter-operability 
efforts across the Federal Government.
    Progress to date: In the opinion of the public safety community 
which I represent, the SAFECOM Program has never been funded at an 
appropriate level. The fluctuation in budgeted funds belies any attempt 
for long-term programs to be successful. Short quick fixes become the 
norm and the possibility for a long-term strategic plan that stays the 
course until it is completed is threatened when funding fluctuates in 
these extremes. In addition to the tools and critical studies (Baseline 
Study, etc.), SAFECOM also tests and evaluates technologies, conducts 
pilot programs, and funds the standards compliance testing. None of 
these efforts have adequate resources.

    GAO: The current wireless inter-operable communications 
capabilities of first responders nationwide have not been determined. 
To assess these capabilities, a set of requirements is needed that can 
be used to assess ``what is'' compared to ``what should be.'' The 
Office of Management Budget (OMB) has established the Wireless Public 
Safety Inter-operable Communications Program, SAFECOM, within the 
Department of Homeland Security (DHS) as the focal point for 
coordinating federal efforts to improve inter-operable communication.
    In April 2004, SAFECOM issued a document designed to serve as a set 
of baseline requirements and is working to develop a baseline of 
current capabilities by July 2005.
    Progress to date: The baseline was published in 2006 and UASI 
scorecards were published in 2007.

GAO: The Federal Government can take a leadership role and provide 
support for developing:

(1) a national database of inter-operable communication frequencies,

    Progress to date: This remains a challenge, the closest version is 
the 700 MHz ``notebook of frequencies'' developed by NPSTC and funded 
and maintained by the National Institute of Justice (NIJ).

GAO: (2) a common nomenclature for those frequencies,

    Progress to date: NPSTC continues to commit significant work on 
this issue. SAFECOM has included a grant guidance principle to 
encourage common channel naming.

GAO: (3) a national architecture that identifies communications 
requirements and technical standards,

    Progress to date: This is an in-progress task undertaken by the 
SAFECOM Program. This is a very technical and expensive process that 
does not have adequate resources at this time.

GAO: (4) statewide inter-operable communications plans.

    Progress to date: This process began in 2007.

GAO: State and local governments can play a large role in developing 
and implementing plans to improve public safety agencies' inter-
operable communications. State and local governments own most of the 
physical infrastructure of public safety communications systems, and 
states play a central role in managing emergency communications. 
States, with broad input from local governments, are a logical choice 
to serve as a foundation for inter-operability planning because 
incidents of any level of severity originate at the local level with 
states as the primary source of support.
    However, states are not required to develop inter-operability 
plans,
    Progress to date: States are not required to develop inter-
operability plans; however States must have a plan to qualify for 
federal communications grant funds.

GAO: there is no clear guidance on what should be included in such 
plans.
    Progress to date: SAFECOM is proving planning guidance to the 
states at the March 2007 meeting and funding is being made available to 
support the development of statewide planning assistance.

    It is NPSTC's view that the DHS SAFECOM Program has worked 
diligently to meet the goals identified in the GAO report and has 
provided support to the local communities, recognizing that it must be 
a practitioner-driven program. SAFECOM has achieved inter-operable 
communications at the command level, defined as communications within 
one hour of a major event, in the 10 highest threat urban areas, as 
part of its Rapid COM 1 initiative. It has published a step-by-step 
planning guide for developing a locally driven statewide strategic plan 
for inter-operable communications and facilitated regional 
communications inter-operability pilots that assist local officials in 
the implementation of their statewide plans.
    In addition to the practitioner input SAFECOM seeks from NPSTC and 
the practitioner community, SAFECOM seeks advice from the first 
responder community through its Executive Committee (EC) and the 
Emergency Response Council (ERC). The SAFECOM EC is comprised of 
representatives from local and State emergency response agencies and 
professional associations, as well as contributing federal agencies. 
Working through the associations is critically important to ensure 
State and local collaboration with the Federal Government. The EC 
serves as the primary steering group for the SAFECOM Program. 
Montgomery County, Maryland, Council chairwoman Marilyn Praisner, 
National Association of Counties (NACo), serves as EC Chair, and Mr. 
Glen Nash, Past-President, Association of Public-Safety Communications 
Officials, International (APCO), serves as Vice Chair.
    Representatives from the following organizations also serve on the 
EC:

        <bullet>  Association of Public Safety Communications 
        Officials--International, Inc. (APCO)

        <bullet>  Department of Homeland Security (DHS) Chief 
        Information Officer (CIO)

        <bullet>  Department of Justice (DOJ) Chief Information Officer 
        (CIO)

        <bullet>  International Association of Chiefs of Police (IACP)

        <bullet>  International Association of Fire Chiefs (IAFC)

        <bullet>  Major Cities Chiefs Association (MCC)

        <bullet>  Major County Sheriffs' Association (MCSA)

        <bullet>  National Association of Counties (NACo)

        <bullet>  National Association of State EMS Directors (NASEMSD)

        <bullet>  National Governors Association (NGA)

        <bullet>  National Institute of Justice Communications 
        Technologies (NIJ CommTech)

        <bullet>  National Institute of Standards and Technology (NIST)

        <bullet>  National League of Cities (NLC)

        <bullet>  National Public Safety Telecommunications Council 
        (NPSTC)

        <bullet>  National Sheriffs' Association (NSA)

        <bullet>  Office of Management and Budget (OMB)

        <bullet>  U.S. Conference of Mayors (USCM)

    The SAFECOM ERC provides a mechanism for individuals with 
specialized skills and common interests to share best practices and 
lessons learned so that interested parties at all levels of government 
can learn from one another's experience, perspective, and expertise. 
Its membership, which comprises representatives from the local, tribal, 
State, and federal emergency response and policy-maker communities, is 
a key resource for the improvement of emergency response communications 
inter-operability.
    Representatives from the following organizations serve on the ERC:

        <bullet>  American Association of State Highway and 
        Transportation Officials (AASHTO)

        <bullet>  American Public Transportation Association (APTA)

        <bullet>  Automated Regional Justice Information System (ARJIS)

        <bullet>  Capital Wireless Integrated Network (CapWIN)

        <bullet>  Community Oriented Policing Services (COPS)

        <bullet>  Council of State Governments (CSG)

        <bullet>  Department of Agriculture (DOA)

        <bullet>  Department of Commerce (DOC)

        <bullet>  Department of Defense (DOD)

        <bullet>  Department of Energy (DOE)

        <bullet>  Department of Interior (DOI)

        <bullet>  Department of Health and Human Services (HHS)

        <bullet>  Environmental Protection Agency (EPA)

        <bullet>  Federal Communications Commission (FCC)

        <bullet>  Federal Emergency Management Agency (FEMA)

        <bullet>  Federal Partnership for Inter-operable Communications 
        (FPIC)

        <bullet>  InterAgency Board (IAB)

        <bullet>  International Association of Emergency Managers 
        (IAEM)

        <bullet>  International City/County Management Association 
        (ICMA)

        <bullet>  International Municipal Signal Association (IMSA)

        <bullet>  Joint Tactical Radio System (JTRS)

        <bullet>  National Aeronautics and Space Administration (NASA)

        <bullet>  National Association of Regional Councils (NARC)

        <bullet>  National Association of State Chief Information 
        Officers (NASCIO)

        <bullet>  National Association of State Telecommunications 
        Directors (NASTD)

        <bullet>  National Association of State EMS Directors (NASEMSD)

        <bullet>  National Association of Telecommunications Officers 
        and Advisors (NATOA)

        <bullet>  National Criminal Justice Association (NCJA)

        <bullet>  National Emergency Management Association (NEMA)

        <bullet>  National Emergency Number Association (NENA)

        <bullet>  National Guard Bureau (NGB)

        <bullet>  National Institute of Standards and Technology (NIST)

        <bullet>  National Native American Law Enforcement Association 
        (NNALEA)

        <bullet>  National Public Safety Telecommunications Council 
        (NPSTC)

        <bullet>  National Telecommunications and Information 
        Administration (NTIA)

        <bullet>  Office of Domestic Preparedness (ODP)

        <bullet>  Office of Management and Budget (OMB)

        <bullet>  SEARCH

        <bullet>  Telecommunications Industry Association (TIA)

        <bullet>  USDA Forest Service

Summary

    The work of the Department of Homeland Security in public safety 
communications is vital if we are to meet the expanded demands of 
domestic security and emergency response. We believe that DHS, its 
SAFECOM program and other component agencies diligently pursue this 
responsibility and recognize the critical importance of meaningful 
local participation.
    In closing, I think there are two issues the Subcommittee should 
consider as part of the overall effort to improve public safety 
communications. First, the fluctuation in funding of the budget as it 
pertains to communications inter-operability deters progress. A more 
stable environment with a better estimate of funding levels for a 
three- to five-year period would allow the planning and funding 
participation to be pursued. The result would be more participation and 
system improvements.
    The second issue is a proposal to permit the creation of a Public 
Safety Broadband Trust in 700 MHz and reallocating 30 MHz of spectrum 
scheduled to be auctioned. This broadband trust would be a first for 
public safety. With a Congressional embrace, a nationwide broadband 
inter-operable radio system could be built that would permit first 
responders to have everything from blackberry type messages to full 
motion video of incidents. It would be paid for by private funds as the 
system would sell excess capacity to non-public safety users. It is 
also a way to bring the advantages of broadband to rural areas that now 
have none. It would expand access to new technologies without burdening 
taxpayers. We urge members to examine this issue very closely; it would 
make a positive and important contribution to public safety 
communications.
    Thank you again for the invitation to appear before the 
Subcommittee. I would be pleased to respond to any questions.
                          WRITTEN TESTIMONY OF
                            Harlin R. McEwen
            Chairman, Communications & Technology Committee
          International Association of Chiefs of Police (IACP)
                         Communications Advisor
                 Major Cities Chiefs Association (MCC)
                  National Sheriffs' Association (NSA)
               Major County Sheriffs' Association (MCSA)

                               Before the

            COMMITTEE ON COMMERCE, SCIENCE & TRANSPORTATION
                          UNITED STATES SENATE

                            February 8, 2007

CURRENT AND FUTURE PUBLIC SAFETY COMMUNICATIONS

    Thank you, Mr. Chairman, and distinguished Members of the Committee 
for the opportunity to appear before you today.
    My name is Harlin McEwen and I have been actively involved in 
public safety for almost 50 years. My career has been in law 
enforcement and I also have been a volunteer firefighter. I am the 
retired Police Chief of the City of Ithaca, New York, and am also 
retired as a Deputy Assistant Director of the Federal Bureau of 
Investigation in Washington, DC. I serve as Chairman of the 
Communications and Technology Committee of the International 
Association of Chiefs of Police (IACP), a position I have held for more 
than 28 years. I also serve as the Communications Advisor for the Major 
Cities Chiefs Association (MCC), the National Sheriffs' Association 
(NSA), and the Major County Sheriffs' Association. I am the Vice 
Chairman of the National Public Safety Telecommunications Council 
(NPSTC) and am a Life Member of the Association of Public-Safety 
Communications Officials-International (APCO). Today I speak on behalf 
of all of these organizations.
    When I first became a law enforcement officer in 1957 police 
vehicles had tube type six volt analog mobile radios that dimmed the 
headlights when we pushed the microphone button. In those days there 
were no hand held radios. In my career I have witnessed many changes 
and advances in law enforcement and public safety communications. 
However, the advances for public safety have consistently lagged behind 
the advances of commercial services, primarily because of lack of 
funding and spectrum.
    As you are aware, citizens rely upon their local and State police 
agencies, sheriffs' offices, fire departments, emergency medical 
services, and other emergency services like highway and public works 
and utilities to come to their assistance wherever and whenever needed. 
They respond whether it is a crime in progress, a civil disturbance, a 
building fire, a forest fire, an automobile accident, a health 
emergency, a natural disaster, or, as we learned on 9/11, a terrorist 
attack. Today, citizens assume that those first responders will get the 
call and will have the communications tools they need to address 
emergencies quickly and efficiently. Unfortunately that is not always 
true.
    I want to applaud the efforts of this committee and the Congress in 
voting to clear the television broadcasters from the long promised 700 
MHz spectrum. This will help us improve public safety radio 
communications, both operability and inter-operability. The major 
cities and metropolitan areas of this country are still in desperate 
need of additional land mobile voice channels and are anxiously waiting 
for this spectrum to become available. Your efforts to designate $1 
billion derived from the auction of radio spectrum for public safety 
communications are also very much appreciated by the public safety 
community and will be very helpful. The introduction of S.385 by 
Senators Inouye, Stevens, Kerry, Smith, and Snowe is also helpful in 
giving direction to NTIA with respect to the $1 billion grant program 
and we appreciate these efforts to have this funding program 
implemented in a timely fashion.
    I am pleased to have the chance to discuss with this committee an 
exciting new opportunity for Congress to take steps that will pave the 
way to reducing the dependence on local and federal tax revenues to 
maintain modern public safety communications systems. That is a 
proposal for a 700 MHz nationwide public safety broadband network. This 
proposed network can become a reality only if Congress authorizes 
creation of a public/private partnership, controlled by the public 
safety community, to hold a nationwide license for 30 MHz of spectrum 
in the upper 700 MHz band and further authorize us to deploy this 
network pursuant to a public sector-private sector partnership model.
    I have studied the issue of public safety telecommunications for 
decades. I have been actively engaged in the efforts of the Federal 
Communications Commission, other federal agencies, State and local 
government entities and individual departments to identify law 
enforcement communications requirements and provide our first 
responders with the necessary tools to meet those needs. Substantial 
time and significant taxpayer dollars have been devoted to those 
efforts, yet in 2007 the public safety community still is far behind 
commercial users in terms of wireless functionality. Our public safety 
users who should have the best, most advanced, and most robust 
capabilities too often must rely on systems that are inadequate for 
their needs today, much less the expanded responsibilities with which 
they will continue to be charged in the future. Without a fundamental 
change in the way we approach emergency responder communications, 
specifically without allocation of the additional 30 MHz of spectrum 
and adoption of the approach embodied in the Public Safety Broadband 
Trust (PSBT) proposal, I see no reason to ever expect substantial 
improvement.
    The wireless voice systems public safety personnel use today are 
among the most important tools they have to do their job in a safe and 
efficient manner. However, these systems have in many cases been under 
funded, poorly maintained and generally not refreshed. As we look to 
the long-term future, we need to look at new and better ways to improve 
public safety communications.
    The need for more efficient public safety data systems is growing 
and this has become the focus of much of our attention as we look to 
ways for public safety to take advantage of Third Generation (3G) and 
Fourth Generation (4G) technologies.
    The implementation of a nationwide public safety broadband network 
can also be the beginning of the end to the problem of public safety 
inter-operability. We have been asking for funding support for years to 
help us upgrade and replace mission critical land mobile voice systems 
that are built by different manufacturers, are of different vintages, 
and are generally incompatible and in many cases not compatible with 
the P25 standards, the only recognized national digital standards for 
land mobile public safety communications inter-operability.
    It is critical to understand that this is a one time only 
opportunity to solve many of the public safety communications 
requirements of today and the future. We recognize this is not an easy 
decision for the Congress. You must choose between solving the public 
safety communications problem and making sure our citizens have good 
public services, or allowing the spectrum required by public safety to 
be auctioned to commercial companies who want to expand their services 
and increase their profits. It seems simple to us that by your approval 
of this important step for public safety you will be doing the right 
thing for America. It will begin to take the burden off the taxpayers 
who must build and maintain increasingly expensive public safety 
communications systems.
    The benefits from a nationwide public safety broadband network as 
set forth in the Public Safety Broadband Trust proposal are as follows:

        1.  Broadband data services (such as text messaging, photos, 
        diagrams, and streaming video) not currently available in 
        existing public safety land mobile systems.

        2.  A hardened public safety network with infrastructure built 
        to withstand local natural hazards (tornadoes, hurricanes, 
        earthquakes, floods, etc) that would include strengthened 
        towers and back up power with fuel supplies to withstand long-
        term outages of public power sources.

        3.  Nationwide roaming and inter-operability for local, State, 
        and federal public safety agencies (police, fire and EMS) and 
        other emergency services such as transportation, health care, 
        and utilities.

        4.  Access to the Public Switched Telephone Network (PSTN) 
        similar to current commercial cellular services.

        5.  Push to talk, one to one and one to many radio capability 
        that would provide a backup to (but not replace) traditional 
        public safety land mobile mission critical voice systems.

        6.  Access to satellite services to provide reliable nationwide 
        communications where terrestrial services either do not exist 
        or are temporarily out of service.

    For those who argue that public safety already has enough radio 
spectrum to meet current and projected mobile requirements, I can only 
say that they purposely ignore the facts concerning public safety 
spectrum allocations and first responder communications requirements. 
As an example, the cellular industry, represented by CTIA, has grossly 
misrepresented the spectrum issue as recently exhibited in their press 
release critical of Senator McCain's announcement that he would be 
introducing legislation to establish a new nationwide, state-of-the-art 
public safety broadband network. The CTIA statement said ``the basic 
facts of the matter should compel this important debate to be about 
providing first responders with funding, access to equipment and 
coordination, not more spectrum.'' CTIA further stated ``Right now, the 
public service community utilizes 47 MHz of spectrum to serve its 
public safety users. At the same time, there are wireless carriers that 
use roughly the same amount of spectrum to deliver voice, data and 
advanced information services to many times that number of subscribers. 
More spectrum is clearly not the answer.''
    Contrary to what the CTIA says, the REAL facts on spectrum 
allocations are as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    But even these numbers do not tell the real story or explain why 
existing public safety allocations cannot be used for broadband 
operations. Historically, the FCC has allocated individual channels, 
not contiguous channel blocks, for public safety use. These channels 
are immediately adjacent to channels allocated for taxicab companies, 
truck operators and other businesses. The channels typically are no 
larger than 25 kHz bandwidth and more frequently 12.5 kHz, or a tiny 
fraction of each 25 MHz cellular system authorization. This allocation 
approach has permitted numerous governmental entities to secure 
licenses for localized, individual purposes, but precludes the public 
safety community as a whole from consolidating enough contiguous 
channels to deploy 21st century broadband technology networks. There 
simply is not sufficient contiguous bandwidth to support the text 
messaging, building diagrams, photos, streaming video and other 
transmissions that will be as essential to law enforcement officers 
during these perilous times as the weapons they carry.
    While the 24 MHz public safety allocation in the upper 700 MHz band 
is contiguous, even that spectrum is subdivided in various categories 
designed for mission critical voice communications on both localized 
and State levels, as well as for wideband data applications. And that 
spectrum allocation, first promised to the public safety community in 
1997, was intended to address the unmet needs and identified 
deficiencies in the spectrum resources available to public safety more 
than a decade ago. New technologies and new services have since been 
developed to respond to the ever escalating commercial appetite for 
more useful and sophisticated mobile communications tools and 
solutions--and appropriate new commercial spectrum allocations have 
been made available to commercial network operators to bring those 
improvements to their customers. Likewise, over the past decade, public 
safety's needs for access to these advanced technologies, services, 
tools and solutions has not stood still--although, unfortunately, the 
amount of appropriate spectrum allocated to meet them has.
    Allow me to emphasize these points by example, as the contrast 
between the spectrum resources available to commercial wireless network 
operators and to the public safety community could not be more 
striking. To begin with, commercial cellular and PCS licensees have 
access to large blocks of contiguous spectrum. Their allocations were 
specifically designed to support system architectures and technologies 
that would accommodate vast numbers of customers. To compare the number 
of subscribers that can be served on a 25 MHz cellular network with the 
number of police officers that can share a 12.5 kHz bandwidth channel, 
or even multiple channels, is as meaningful as comparing the size of 
watermelons to grapes. Compounding the imbalance is the absolute amount 
of spectrum that has been made available for commercial use in 
comparison to that which has been made available for public safety uses 
as detailed above. Just last year, the Commission made another 90 MHz 
of spectrum of Advanced Wireless Spectrum available for commercial 
operations, again in large spectrum blocks and expressly authorized for 
commercial mobile broadband uses.
    In fact, it is the success of the cellular/PCS model that has 
convinced us that public safety must have a 30 MHz spectrum block on 
which to deploy an advanced technology broadband network. That model 
has persuaded us that the public safety community must join together in 
the Public Safety Broadband Trust, rather than seeking individual 
licenses for individually designed and deployed systems, if we are to 
achieve our objective: seamless nationwide roaming capability on a 21st 
century broadband 700 MHz network that is built and operated to satisfy 
increasing and demanding public safety requirements.
    I stated previously that a nationwide broadband network solution 
needed to address both spectrum and funding, and to address them both 
at the same time and in the same context. The latter is just as 
critical as the former and requires an innovative approach given the 
extraordinary costs associated with building and operating a truly 
nationwide broadband network. Unlike purely commercial systems that 
have the luxury of limiting coverage to areas of denser population and 
transportation corridors, public safety users must have communications 
capability wherever there are people or property to protect. This 
mandate has the important consumer benefit of ensuring that a broadband 
network designed to meet public safety needs will be available in 
suburban and rural communities that remain outside the areas of 
commercial broadband deployment. However, I have substantial experience 
in the traditional funding sources for public safety communications and 
see no realistic possibility that the necessary monies will be made 
available even to build, much less maintain, operate and routinely 
upgrade a network of this scope if dedicated to purely public safety 
requirements.
    The only solution that we consider viable is a public sector-
private sector partnership as proposed in the Public Safety Broadband 
Trust. Under this approach, the PSBT would acquire a 30 MHz license at 
700 MHz and would enter into leases of spectrum usage rights with 
commercial operators who would build a nationwide public safety network 
that (1) would be paid for by commercial operators using excess 
capacity, not by the public safety community or the taxpayer; (2) would 
be licensed and controlled by public safety representatives to ensure 
public safety priority access; and (3) would be refreshed with the 
latest technical improvements, funded by the commercial participants.
    We do not support what some would call a ``hosted'' public safety 
network. While the term may have somewhat different meanings to 
different people, at its core it puts mission critical, emergency 
response communications in a position of dependence with respect to the 
host commercial provider. Moreover, it undermines or even negates the 
essential nationwide character of the network. With all due respect to 
commercial operators that might now express support for hosted systems, 
there is nothing in the over 20-year history of commercial wireless 
systems that would validate their reliability or availability for 
mission critical public safety needs. That is not an arrangement that 
the public safety community could endorse.
    In regard to the 9th Notice of Proposed Rulemaking (NPRM) recently 
issued by the Federal Communications Commission, we have many concerns 
about the concepts set forth in that proposal. The 9th NPRM suggests 
that a nationwide broadband network could be built using the 12 MHz of 
spectrum currently allocated for local licensing of public safety 
wideband systems. This would take away from local licensing control the 
spectrum long promised for use by local agencies. In addition we 
believe the proposal is seriously flawed by failing to acknowledge the 
need for enough spectrum to attract investors to participate in a 
public/private partnership where private funds would be invested to 
build a nationwide network.
    By contrast, the partnership outlined in the Public Safety 
Broadband Trust creates a symbiotic and balanced relationship, but one 
in which public safety always remains in control. It represents a win-
win opportunity if sufficient spectrum is allocated to accommodate both 
public safety and commercial usage. Public safety cannot fund this 
network on its own, but also must be confident that the network is 
built to hardened public safety requirements with priority access that 
is adequate to respond to emergencies. Commercial operators will lease 
the spectrum and build the network to public safety specifications, but 
only if there is sufficient excess capacity to permit meaningful 
commercial service on a regular basis. The technical data supports the 
conclusion that a minimum of 30 MHz is needed to serve these 
complementary requirements.
    The many public safety organizations and agencies that have 
supported the PSBT approach recognize that it will require removing 
some of the 700 MHz spectrum that currently is scheduled to be 
auctioned. The PSBT proposal includes a plan to make the federal budget 
whole. The PSBT would raise $5 billion to pay the U.S. Treasury for the 
spectrum, using the revenues from the commercial users and the 
assistance of federal loan guarantees similar to those that have been 
made available to industries such as airlines, pipelines and automobile 
manufacturers. This financing arrangement would ensure that other 
federal public safety spending priorities, including the $1 billion for 
other public safety inter-operable communications needs, would not be 
affected.
    Let me add that I and other supporters of the PSBT also endorse the 
commendable work being done by local and regional organizations such as 
the Capitol Area Region Broadband Project with respect to broadband. To 
the extent their efforts bring about public safety communications 
improvements, it is important work that deserves support. But we must 
remain mindful that the results will be, at best, a patchwork of 
improved, but incompatible, non-inter-operable networks at a daunting 
per unit cost. They are doing what they can in light of the regulatory 
and financial environment in which they must operate, but this nation 
can and must do better.
    I have dedicated most of my professional career to the advancement 
of public safety communications. From that perspective, I believe this 
Congress has an extraordinary time sensitive opportunity. Approval of 
the PSBT and the public sector-private sector partnership will catapult 
public safety to its rightful place in the forefront of communications 
capability while at the same time delivering broadband service to 
communities that continue to be bypassed by the commercial 
telecommunications revolution. I hope you will share my belief that 
this is an opportunity that must be seized for the benefit of the 
entire American public.

                     Public Safety Broadband Trust

               Statement by Fire Chief Charles L. Werner
                International Association of Fire Chiefs

                               before the

            Committee on Commerce, Science & Transportation
                          United States Senate

                            February 8, 2007

    Good morning Mr. Chairman and Members of the Committee. I am 
Charles Werner, Fire Chief of the Charlottesville Fire Department in 
Virginia and a member of the Communications Committee of the 
International Association of Fire Chiefs IAFC). I am appearing today as 
the representative of the International Association of Fire Chiefs 
whose 12,000 members represent the leadership of America's fire and 
rescue service from small, rural, volunteer fire departments to the 
large, urban, metropolitan fire departments. Last year America's fire 
service responded to over 23 million fire and emergency calls covering 
incidents of structure fires, wildland/urban interface fires, emergency 
medical situations, hazardous materials incidents, technical rescues, 
and natural disasters. We are prepared, as well, to respond to the 
aftermath of terrorist attacks. I appear today to address a specific 
and growing communications need for America's fire service--broadband 
technology. Our testimony also reflects the views of the Association of 
Public-Safety Officials International, Inc.

PUBLIC SAFETY SPECTRUM NEEDS

    At the request of Congress, the National Telecommunications and 
Information Administration (NTIA) and the Federal Communications 
Commission (FCC) established the Public Safety Wireless Advisory 
Committee (PSWAC) to define and document the critical need for 
communications resources and the spectrum to support public safety 
through the year 2010. The final report was released on September 11, 
1996. Three key problem areas were identified in the report:

         First, radio frequencies allocated to public safety had become 
        highly congested in many, especially urban, areas. Usable 
        spectrum for mobile operations is limited making it difficult 
        to meet existing requirements much less to plan for future, 
        more advanced communications needs.

         Second, the ability of agencies within and between 
        jurisdictions to communicate with one another is limited. Yet 
        inter-operability is desirable for success in day-to-day 
        operations as well as larger scale operations in dealing with 
        both man-made and natural disasters.

         Third, public safety agencies lack the spectrum to implement 
        advanced communications features. A wide variety of 
        technologies--both existing and under development--hold 
        substantial promise to reduce danger to public safety and 
        achieve greater efficiencies in the performance of their 
        duties. Specifically mentioned in the 1996 report were 
        broadband data systems, video systems for better capabilities 
        including use of robotics in toxic and hazardous environments, 
        and better monitoring and tracking of both personnel and 
        equipment.

    To implement the requirements identified, the advisory committee 
determined that more spectrum was required, as follows:

         Immediately, 2.5 MHz of spectrum for inter-operability from 
        new or existing allocations.

         Within five years approximately 25 MHz of new public safety 
        allocations are needed. The report suggested using spectrum 
        from television broadcast channels 60-69 as soon as possible.

         Over the next 15 years (e.g., through 2011) as much as an 
        additional 70 MHz will be required to satisfy the mobile 
        communications needs of public safety.

    These were the needs and recommendations addressed in the PSWAC 
report of 1996. Then, in December 2005 the FCC sent a Report to 
Congress On the Study to Assess Short-Term and Long-Term Needs for 
Allocations of Additional Portions of the Electromagnetic Spectrum for 
Federal, State and Local Emergency Response Providers. This report was 
submitted pursuant to P.L. 108-458, the Intelligence Reform and 
Terrorism Prevention Act of 2004. In its conclusion, the FCC stated: 
``First, as to the operation and administration of a potential 
nationwide inter-operable broadband mobile communications network based 
upon input from federal, State, local and regional emergency response 
providers, emergency response providers would benefit from the 
development of an integrated, inter-operable nationwide network capable 
of delivering broadband services throughout the country. Second, as to 
the use of commercial wireless technologies, while commercial wireless 
technologies and services are not appropriate for every type of public 
safety communication, there may now be a place for commercial providers 
to assist public safety in securing and protecting the homeland.''
    For the above stated reasons, the National Public Safety 
Telecommunications Council [a resource and advocate for public safety 
organizations in the United States on matters relating to public safety 
telecommunications] has filed comments with the FCC in support of 
reallocating 30 MHz of spectrum in the upper 700 MHz band, currently 
slated for auction, to create a public/private nationwide broadband 
network to be managed by public safety for the benefit of public 
safety. The filing states: ``In an era where government preparedness is 
crucial, there is no nationwide public safety network to manage and 
coordinate response. There is no wide scale broadband technology 
capability to expedite analysis and information sharing critical to 
emergency assistance, investigation and apprehension. Not only is the 
current public safety spectrum so congested as to constrain voice--much 
less permit broadband use for video and data, limited funding hinders 
the incremental improvements that can be made and which are only 
pursued on a system by system basis. That which is possible in 
communications today and what public safety agencies have available 
reflects an enormous divide. The result is tangible: slowed and 
hindered response across all services which puts lives at risk and 
property in danger.
    ``Although legacy systems will continue to play an important role 
in public safety communications, the opportunity presented by the yet 
to be auctioned 700 MHz channels is emphatic. Without this additional 
spectrum, there can be no national public safety network connecting all 
agencies. Using broadband technologies to transmit information across 
agencies and miles immediately will be the exception. Public safety 
communications will come up short in meeting its challenges.''
    The IAFC is a member of the governing board of NPSTC and an active 
participant in all of its proceedings. The IAFC fully concurs with the 
statements of support by NPSTC for the establishment of a nation-wide, 
public/private, broadband network that will harness the innovative 
power of the private sector but be managed by public safety for the 
benefit of public safety.

PUBLIC SAFETY BROADBAND REQUIREMENTS

    In 1997, Congress addressed part of the issue of additional 
spectrum by directing the FCC to allocate 24 MHz in the upper 700 MHz 
band for use by public safety. As a result of the Deficit Reduction Act 
(P.L. 109-171), which passed last year at this time, this spectrum will 
finally become available for our use in February 2009. As was 
originally intended, it is to provide, for individual licensees, 12 MHz 
of voice channels and 12 MHz of wideband data channels. Fire and police 
departments are now in the planning process of building communications 
systems utilizing this new spectrum. Broadband capability for public 
safety, identified in the 1996 PSWAC report, is a vital and growing 
need for fire and police agencies. It is the next step following the 
allocation and implementation of the 24 MHz designed to alleviate 
current spectrum congestion and provide inter-operability. To meet the 
broadband need for public safety, the following requirements are 
established:

         A nationwide, broadband network covering 99 percent of the 
        population, 65 percent of the land mass, most of the critical 
        infrastructure, and a network that supports urban, suburban and 
        rural communities.

         A network large enough to draw commercial support which is 
        requisite for a nationwide network to be affordable for public 
        safety.

         A network built using next generation technology.

         A network built to public safety ruggedness specifications to 
        ensure reliability under severely adverse conditions.

         A network governed by public safety.

         A network which ensures priority access for public safety.

PUBLIC SAFETY USES OF NATIONWIDE BROADBAND NETWORK

    The Public Safety Broadband Trust proposal provides public safety 
with enormous potential that does not currently exist.
    A hardened public safety network would make possible nationwide 
roaming and inter-operability for public safety agencies at the federal 
(e.g., U.S. Coast Guard), State (e.g., highway patrol), and local 
(e.g., police, fire/EMS) levels. It would give public safety access to 
satellite services where terrestrial services either do not exist or 
are temporarily out of service. The network build-out would give rural 
areas--for the first time--broadband coverage and provided public 
safety there a communications tool that would be virtually impossible 
because of cost under any other scenario. In addition, this new network 
will protect nuclear power plants, dams, railroads and pipelines and 
other parts of the Nation's critical infrastructure in rural areas.
    There are a number of technologies that are available today that 
fire departments would use--more will be developed, especially if an 
affordable broadband network is available. Some examples are:

         Transmitting video, photographs, blueprints and other 
        information both to and from an incident command post.

         Advanced paging systems particularly useful for summoning 
        volunteer firefighters/medics.

         Mesh enabled architecture (MEA) for non-GPS broadband location 
        system.

         Fireground accountability systems--biometrics as well as 
        location.

         Smart building downloads enroute to an alarm.

         Enhanced GIS mapping capability for building locations, 
        critical infrastructure, target hazards, water systems, 
        transportation systems, etc.

         Personal Area Networks linking a portable radio carried by a 
        firefighter to many useful and lifesaving accessories including 
        a helmet video camera, video viewing device, health monitor, 
        wireless self contained breathing apparatus (SCBA) microphone 
        and speaker, or a handheld computer.

         Vehicular Area Networks that could link a vehicle's radio to 
        laptop computers, printers, remote headsets, bar code readers, 
        and cameras.

         Medical video and high-resolution image transmissions from the 
        scene of an incident to the emergency department of a hospital 
        where physicians can assess patient status and give on-scene 
        and enroute treatment instructions.

         PDAs for fire department leaders or for all firefighters.

A ONE-TIME OPPORTUNITY TO DO THE RIGHT THING

    Senator McCain has announced his intension to introduced 
legislation to establish a Public Safety Broadband Trust. The trust 
will be composed of public safety organizations to hold a single 
license for 30 MHz of broadband spectrum to create a nationwide, 
public/private broadband network. The trust also will be the management 
group to oversee the policies, procedures and practices of the network. 
In other words, the public safety trust will run the network for the 
benefit of public safety.
    The 30 MHz of spectrum that is being considered is immediately 
adjacent to the 24 MHz of spectrum allocated to public safety in 1997 
and which will be available in 2009. This has considerable advantage 
over any other spectrum since radio communication devices can be dual 
purpose with the spectrum so close. This spectrum in the upper 700 MHz 
is also near existing public safety which is being relocated in the 
lower 800 MHz band.
    This 30 MHz of spectrum is currently slated for auction. The 
Deficit Reduction Act of 2005 requires the FCC to auction this spectrum 
by January 2008. Without legislation taking this out of the auction and 
allocating it for the public safety trust, this one-time opportunity 
will be lost forever.

CALL FOR ACTION

    The Congress of the United States has a one-time opportunity, in 
the near-term, to provide public safety with a nationwide, broadband 
network. In order to be affordable for public safety, the network would 
have to have viable commercial capacity of about 30 MHz of spectrum. 
The network would be built to public safety ruggedness specifications. 
A Public Safety Broadband Trust would be created to hold the single 
license from the FCC for the 30 MHz of spectrum and would oversee 
management of the network. While the network volume would be largely 
commercial, public safety agencies would use what it needed with a 
built-in priority status. Commercial use also ensures that sufficient 
capital will be available for maintaining the system and upgrading and 
refreshing newer technologies when they come along.
    We urge the members of this committee to take the first action to 
create this Public Safety Broadband Trust by promptly reporting 
legislation to take 30 MHz from the pending auction and direct the FCC 
to reallocate it to public safety. We cannot suggest too strongly the 
urgent and identified need for broadband capability that public safety 
can use with assurance that it will work when needed, be available when 
needed, and is affordable. With a global war on terrorism being fought 
daily and homeland security interest at an all-time high, public 
safety, in defense of the homeland, should be operating on 21st Century 
technology. Thank you for the opportunity to address the committee. We 
appreciate your consideration of this most important public safety 
issue.
                       Biography for Marilyn Ward
    Ms. Ward brings 35 years of experience as both an advocate for 
public safety telecommunications issues and as an administrator in 
public safety telecommunications, from her position as Manager of 
Communications at the City of Orlando and part-time police officer in 
her early days in public safety, to her role as Orange County Public 
Safety Communications Manager, from which she retired in 2005.
    Ms. Ward has been involved with communications issues on every 
level-local, State and federal. A former president of the Association 
of Public Safety Communications Officials--International (APCO) and 
founding NPSTC Chair, Ms. Ward has served in many leadership roles such 
as:

         APCO Task Force Leader on the Public Safety Wireless Advisory 
        Committee (PSWAC)

         Steering Committee Member of the National Coordination 
        Committee (NCC)

         Statewide Coordinator of the Regional Domestic Security Task 
        Force Communications Committee Chairs in Florida

         Florida Statewide Executive Inter-operability and Technology 
        Committee

    Ms. Ward holds a degree in Business and Management and has received 
many public safety-related awards in her career.

                               Discussion

    Chairman Wu. Thank you very much, Ms. Ward. We open the 
first round of questions, and the Chair recognizes himself for 
five minutes.
    Under Secretary Cohen, I understand that you all in the S&T 
Directorate are working on a strategic plan, and I would like 
to ask you about the status of the development of this 
strategic plan and the extent to which a formal risk assessment 
will play a role in your strategic planning.
    Mr. Cohen. Yes, sir, Mr. Chairman. As I have previously 
testified this year to the Homeland Security Committee, I owe 
the Congress two strategic plans. One is for the directorate 
itself, and that will be risk informed and customer focused. 
And some of the other panel members here have already discussed 
the importance of that. I have committed to the Congress that 
you will have that by June of this year.
    The second that I owe was mandated by the enabling 
legislation. This is a much broader strategic plan, and it 
recognizes the wisdom of the enabling legislation where you did 
not want me to recreate the National Institute of Health, did 
not want me to recreate the DOE or DOE labs, you did not want 
me to recreate the National Science Foundation. But you did 
give me a preeminent position to go ahead and leverage those 
tens of billions of dollars of research where those other 
agencies and departments of government must share with me the 
results of that critical research so that I can take my 
precious investment and focus those results on Homeland 
Security requirements and needs.
    That government-wide strategic plan was in preparation 
apparently for about two years. Because the approach it took, 
and I have reviewed it myself in draft form, was more perceived 
by the other departments and agencies as mandated what they 
would do for Homeland Security, as to how they, through their 
efforts could contribute to Homeland Security, I think it had a 
very difficult time coming to fruition. I commit by the end of 
this fiscal year I will have to the Administration that 
strategic plan that is a partnership across government for them 
then to provide to the Congress.
    Chairman Wu. Mr. Under Secretary, what I heard you to say 
is that the first strategic plan that you are going to be 
working out is going to be informed by shall we say less formal 
risk analysis. Do you have some plan at this point or some 
point in the future to do a more systematic formal risk 
analysis to inform the research priorities of DHS?
    Mr. Cohen. Yes, sir. And, in fact, that is in place right 
now. The reorganization that I put in place where the majority 
of my budget goes in an integrated product team, to the 
customer, whether that is border patrol, Coast Guard, cyber 
security, or infrastructure protection with the National 
Infrastructure Plan, each of those customers does a risk-based 
analysis to determine what capabilities they need to fulfill 
their homeland security mission. Now, you wisely gave us the 
Homeland Security Institute. In the short time I have been on 
board I have reoriented them to bring operations research, 
operations analysis, and make the Homeland Security Institute 
the risk-based analysis determiner for all of my 22 customers. 
So when I sit down and integrate a project team and my division 
director, along with the customer and the acquisition provider, 
we have 11 capstone IPTs. You see the capabilities they are 
trying to provide. The customer working with us then 
prioritizes what they need to do their job based on the risks 
as they see it. We then commit through technology agreement in 
writing where they hold me to cost, schedule, and capability 
metrics to provide the enablers for their people, process, and 
product. Because that is how they do their job.
    Chairman Wu. Mr. Under Secretary.
    Mr. Cohen. On a bigger scale----
    Chairman Wu. Mr. Under Secretary, because my time is 
expiring----
    Mr. Cohen. On a bigger scale, I will answer your question 
directly. I have sat down with the National Academies of 
Science because, and the other Members may feel differently 
here, the science of risk is not well known, and I have asked 
the National Academies to work with me so I can fund how we can 
better determine risks for the issues that have been raised 
here.
    Chairman Wu. Thank you very much for focusing on that part 
of the question. With the forbearance of the Ranking Member, a 
few seconds after my time has expired, since you have brought 
up this chart, I wanted to ask you about the IPT. You know, I 
think it is terrific that the different federal agencies have 
been pulled together in this. I have to say that there have 
been concerns expressed, perhaps some complaints, that some of 
the end users, and you refer to them in your testimony, and the 
first responders, that some of their needs in terms of 
usability, in terms of maintenance, you know, the ability to 
withstand challenges in the field and prioritization of devices 
and threats, that that has not been paid sufficiently close 
attention to, shall we say. And that a specific example would 
be the, what many of us would consider, you know, shoulder-
fired anti-air missiles in this town, MANPADS, man portable air 
defense systems, that the system that was developed is roughly 
a million dollars a copy. The folks who would be responsible 
for purchasing them and maintaining them are reluctant to make 
that investment. Do we have a problem here with a lack of 
linkage with the ultimate user?
    Mr. Cohen. I will give a concise answer. Yes. This is an 
area that I am very much focused on. The enabling legislation 
not only made the head of the S&T Directorate, but you made me 
the test and evaluation executive for the entire Department, 
and you put standards, not just inter-operability, but all 
standards under me for the entire Department. In the IPT 
process you can see the bottom of each diamond has the 
customer, the guardsmen, fill in the blank.
    Chairman Wu. Above the line, those are solid lines, that is 
a dotted line down below, and I don't know who to interpret 
that.
    Mr. Cohen. Yes, sir. Because S&T is like the BASF 
commercial you see every Sunday morning. I don't make the 
widget. I make the widget better. My other panel members 
already noted, S&T for S&T's sake does not satisfy the customer 
nor does it reduce the risk to this country. And so what I have 
done in some cases because they are internal to DHS, I have 
mandated, because it is my process, the customer, the customer 
be there. But I am not going to tell the Commandant of the 
Coast Guard, and I am not going to tell the cyber czar, et 
cetera. I have provided for the customer to customer to be at 
the table.
    We have also established, and it is operating and running, 
tech solutions, a website, something I did in Navy, where first 
responders themselves can come to my website with 
recommendations or gaps that they believe exist, because they 
live it every day, and they are smart people. In Navy I had a 
sailor who came in to from the Persian Gulf on a carrier who 
asked for a degreasing Zamboni for four and a half acres. It 
wasn't quite S&T but we provided it, using our laboratories, 
and that sailor I don't think ever bought another beer in his 
life. We are going to do the same, and I am committed to our 
first responders. But this is a work in progress, and I look 
forward to improving it as we go forward. But you are right, 
and we have got to do a better job, and I believe we are 
organized to do that now, sir.
    Chairman Wu. Thank you very much, Mr. Under Secretary. Dr. 
Gingrey.
    Mr. Gingrey. Thank you, Mr. Chairman. Mr. Under Secretary, 
Admiral Cohen, I had mentioned in my opening statement a very 
difficult task to assess and characterize the various threats 
that our nation faces. In that vein I am interested in hearing 
more about this BioWatch Program, I guess it is called. 
BioWatch. Can you give us the history of the program, its 
various successes, and some of the struggles and what you see 
as the future of BioWatch? It is my understanding it is a 
program that can play an effective and efficient role in 
securing our country, but there has been some problems. So if 
you would talk to us about BioWatch.
    Mr. Cohen. Yes, sir, Congressman. I am a big fan of 
BioWatch. In fact, Rita Colwell, Dr. Colwell, when she was 
Director of the National Science Foundation, in the summer of 
2001, came to me as Chief of the Naval Research and proposed a 
cooperative program--Army DOD with her for something very 
similar to this, so that in our main cities we would put in 
place sensors that would monitor for various pathogens. Because 
we didn't have a database how that varied diurnally with 
season, what the false alarms were, weather conditions, et 
cetera. It didn't gain traction, and then we had 911, and then 
the standup of the Department of Homeland Security.
    On the broader issue in terms of the priorities and risks, 
what I basically inherited was Mr. Oxford has about one-third 
of the S&T budget for nuclear and radiological. Chem bio has 
about one-third of the budget. Those are the two obvious, 
clearly defined, major threats, and all the other threats share 
about one-third of the budget. Is that right or wrong? I don't 
know. That is follow the money.
    The BioWatch Program was established about four years ago. 
It was intended to do what Rita proposed. I don't know that 
they knew she proposed it, but it was to go in about 30 of our 
major cities, using current technologies with fixed stations to 
monitor pathogens that we have the technology to do. And it is 
analog in nature. You know from your background we draw the air 
through pads, then we collect it weekly. We then go to the lab 
and do a detailed analysis.
    It has been highly successful. It works. We have taken over 
three million samples of which we have gotten 15 positive 
results, all of them verified but all due to natural, not 
terrorist causes. In fact, two months ago when the stink bomb 
engulfed Manhattan, and we didn't know what it was, smelled 
like hydrogen sulfide, Mayor Bloomberg, I understand was able 
in the first hour to go before the good people of New York City 
and say they didn't know what caused it, but it was not a 
threat. That statement was in part enabled by the BioWatch 
sensors in New York.
    We have now in the Department of Homeland Security, working 
in conjunction with the Congress through the last year, 
established the Office of Health Affairs. That is headed by our 
Chief Medical Officer, Dr. Runge. Dr. Runge filled in for me 
over the last six months before I came on board at S&T, and we 
work very closely together. This is an area where S&T didn't 
have a customer in DHS. Now I have a customer, and so my budget 
this year reflects a one-time transfer of approximately $80 
million to Dr. Runge and the Office of Health Affairs, because 
that is what it costs to operate BioWatch II, which is in 
operation.
    Now, we will continue to do S&T to improve that system, but 
with Dr. Vitko and the rest of my chem bio division, we are 
leaping ahead. We are leaping ahead to BioWatch III. This 
brings the current digital technologies, the microchips that 
will allow us, we believe, when fielded, and we hope to have it 
fielded within the next three to four years, the ability to 
have real time monitoring coupled with wireless and hopefully 
because it is one quarter the cost to operate, four times the 
sensors in many more cities----
    Mr. Gingrey. Yeah.
    Mr. Cohen.--so that----
    Mr. Gingrey. I know my time is running out, Admiral.
    Mr. Cohen. Sure.
    Mr. Gingrey. But in the remaining few seconds, tell us some 
of the particular things that you would be monitoring for that 
the general public would be aware of, things like sarin gas as 
an example, or anthrax or something that we read about. 
Fortunately, on not a common occasion, but it scares the 
bejesus out of everybody. Tell us some of the things that you 
are watching for in these 30 cities.
    Mr. Cohen. Yes, sir. I will leave it very limited in this 
form because you are aware that we did put out earlier or late 
last year a major threat determination on 30 different 
pathogens, using a very detailed risk determination, 
probability of occurrence times consequence of occurrence. But 
it is safe to say that anthrax, botulism, some of the more 
common diseases that could be pandemic are monitored for.
    Mr. Gingrey. They are part of that watch?
    Mr. Cohen. Yes, sir.
    Mr. Gingrey. Thank you, Mr. Under Secretary, and thank you, 
Mr. Chairman, and I look forward to the second round.
    Chairman Wu. Thank you, Dr. Gingrey. Mr. Mitchell.
    Mr. Mitchell. Thank you, Chairman Wu. Mr. Under Secretary, 
much of the Secure Borders Initiatives Systems development has 
been completed by S&T. How have you insured that the Secure 
Borders Initiative has responded to the needs of customs and 
border patrol agents along the Southwest border?
    Mr. Cohen. Well, Congressman, the borders are clearly very 
important to us, and it has been a major S&T initiative. 
Secretary Chertoff has testified numerous times that the 
current contract for the SBI went with proven technology so 
that it could be fielded in a timely manner. I know you are 
well aware of this because of the towers and the other aspects 
that are being deployed in Arizona and other Southwest borders. 
In our integrated product team which you see border security, 
both the customs and border protection and ICE are my chairmen, 
and it is Chief Aguilar himself who sits at that table with my 
border and maritime Merv Leavitt, Director. And it is Chief 
Aguilar and ICE who tell us what they need to make the borders 
better. We slave it to that.
    Now, these, Congressmen, are incremental improvements. 
These are spiral development. Maybe we can move the towers from 
five-mile spacing to seven and a half mile spacing but with the 
same fidelity to insure the safety of the border. And we are 
doing that. I am investing into that, but in my high-risk 
portfolio where Dr. Epstein talked about the need to take risks 
and fail, we have several programs. Tunnel vision, tunnel 
detection. No one has been able to do this in a timely manner. 
We are going to risk, we may fail, but in fact, and I think you 
know him from Tucson, Tony Mulligan, in Advanced Ceramics, is 
proposing using Silver Fox, a small 24-pound unmanned aerial 
vehicle, and using, I am not going to give the technology, but 
fly that along the border to see if we can detect tunnels down 
to several hundred feet. Will it work? I don't know. Stay 
tuned. But I get to do that. We are also using persistent 
surveillance. These are 24-hour, high-end UAVs, unmanned aerial 
vehicles. We are using them for several reasons. One, as 
counter MANPADS. As the Chairman said, the airlines are not 
high on the cost or the maintenance of the impact of counter 
MANPADS on their aircraft. So we are looking to use a 65,000 
foot decoy to take the MANPADS away from the aircraft. But this 
same decoy can be used with state-of-the-art day, night video 
to give us persistent surveillance as we have overseas in war 
on our borders for our border patrol. And it can also be used 
as a bounce link to have secure communications, reliable 
communications in that last mile for a distant franchise, first 
responders. I know your time is short. What I am telling you is 
we are taking the low risk and the high risk at the same time 
to make the borders more secure.
    Mr. Mitchell. Thank you. Just one follow up. Has the border 
patrol expressed the need for any research and development that 
has not been completed yet?
    Mr. Cohen. Absolutely. In fact, one of the things that I 
liked, please put that up, about this Integrated Product Team 
Process, and I learned this in Navy, this is not new, is when 
you have the customer at the table, they always have, I know 
this is hard for Congress to believe, always have more 
requirements than we have money or technology to fill. And so 
we ask the customer to prioritize. Now, here you are seeing my 
human factors. My people screening. In the upper left that is 
what I am funding. These are all prioritized. In the lower 
right I am funding for those in the out years. It goes to the 
issue that was raised by Ms. Ward. I am doing six-year funding, 
and I am showing OMB, and I am showing the Hill how we are 
sequentially going to invest. And as more money becomes 
available, those items below the cut line put there by Chief 
Aguilar, get raised, because I can do them. But the ones that 
we are doing in zero to three years, when they are delivered, I 
reinvest that money in the items below the line, and they 
naturally move up over the six-year budget period.
    Mr. Mitchell. One last quick follow up. How has, there is a 
proposed cut in the border and maritime division of about seven 
and a half percent. How will this cut affect the research that 
is being done there?
    Mr. Cohen. Congressman, in going to the new organizational 
construct, I have basic research, which I am growing. It was at 
five percent. My goal in my tenure is to get it to 20 percent 
for the reasons you heard Dr. Epstein address. Fifty percent of 
my budget goes to the Integrated Product Team, the immediate 
improvement for my 22 customers, but 10 percent goes to 
innovation. It is the high-risk portfolio. So what I have done 
with Merv Levitt and with the Commandant, is we have taken some 
of the monies that were in what we call on and on research, no 
defined customer, and we now have Merv Levitt in borders and 
maritime with a defined customer requirement and the high risk. 
And so what I have done is it has been an internal transfer of 
money from that division to my innovation portfolio. But the 
monies are fundamentally the same, sir. Just differences in 
risks and time of delivery.
    Mr. Mitchell. Thank you. I yield my time.
    Chairman Wu. Thank you, Mr. Mitchell. Now my good friend 
from Texas, Mr. Hall, the Ranking Member of the Full Committee.
    Mr. Hall. Thank you, Mr. Chairman, and I think that I 
probably want to start off, Admiral, by thanking you and 
thanking you for all the wonderful work you have done, not just 
for this committee and for this thrust but for this country. I 
know your background. You are a graduate of the Naval Academy. 
I never could have got in there, much less getting out. You 
were MIT, you were Navy Congressional liaison. You have done it 
all, and I don't know of anybody more qualified for what you 
are doing and doing it right than anybody under the Capitol 
Dome, and I want to thank you for that. We are lucky to have 
you.
    I have a question for you and for Mr. Oxford, and I guess 
maybe it is general, but just what tools and what procedures 
are available through your offices to help State and local 
governments, the people at the bottom, to help them assess and 
address their own vulnerabilities to natural and to manmade 
disasters? And how can interested communities interface with 
expertise as housed in DHS, and how do you get it from your 
mind down to their mind and to help us defend that that they 
are obligated to defend just like you are at the top? Would you 
give me something like that in the last three minutes I have?
    Mr. Cohen. Yes, sir. First of all, I want to thank you for 
your very kind words, but I also want to thank you for your 
long and dedicated service and especially your focus on science 
and education. I would like to remind you that our greatest 
Admiral, Admiral Nimitz, was a Texan from Fredericksburg, and 
my only regret in life is that I am not a long horn.
    Mr. Hall. I was a JG when I served under him. I didn't get 
any closer than 100 yards of him, but I sure did admire him.
    Mr. Cohen. Yes, sir. I am going to give you a fairly 
succinct answer. The first responders and the communities are 
not at the bottom in my book. They are at the top, and I exist 
to fulfill and serve their requirements. We have many, many 
ways to do that. I briefed the Tech Solutions website, which I 
put online, where they can come in directly. I have established 
in my organization, very lean agency, because my 
responsibilities run throughout all Federal Government and also 
international. I was going to have an association, because I 
have to deal with the sheriff in Mayberry, and I have to deal 
with the New York City Police Department. And I have to deal 
with the Tribal firemen, and I have to deal with the Chicago 
Fire Department. That scale is very difficult for me, but as 
Ms. Ward has indicated, this is the role of the associations. 
We in Homeland Security have, in the Department, not in my 
directorate, and I think that is appropriate, groups that reach 
out to private industry, groups that reach out to associations, 
sit down with them. They then pass those needs to me. But as I 
said in my confirmation, my door is always open. At the end of 
the day the 22 components and agencies, border patrol, Coast 
Guard, who deal, who live in those communities, they bring to 
me their requirements tailored for those communities. This is a 
very difficult issue. We have got 35,000 fire departments of 
which 80 percent are volunteer. This is how America works. This 
is the beauty but also the challenge of America. It is a new 
department. It is a work in progress. I do think we are getting 
wind under our wings, though, sir.
    Mr. Hall. Are you actually in touch with these folks? Do 
they know a number that they can call? Do they know how to call 
for help if they see something that concerns them?
    Mr. Cohen. I would say that some do. I would say the 
majority don't. I would tell you that I am not proud of the 
Homeland Security Department website.
    Mr. Hall. But if I know you, you are working on it.
    Mr. Cohen. I am. You bet. Yes, sir.
    Mr. Hall. And thank you for that. I thank every one of you 
for not just being here today but for how you got here today, 
and I have made this statement before. I would have known all 
of you and would have admired you, but I wouldn't have liked 
any of you because you are the very people that run the curves 
for guys like me in college. But I thank you for your 
participation, and I thank you for what you are doing for this 
country. All of you. I yield back, Chairman Wu.
    Chairman Wu. Thank you very much, Mr. Hall. And the Chair 
now recognizes the gentleman from Kentucky.
    Mr. Chandler. Thank you, Mr. Chairman. Admiral, I also 
appreciate your service. Unlike our, my friend, the Ranking 
Member from Texas who has obviously Texas has somewhat of a 
tradition with the Navy, with Admiral Nimitz, I am afraid 
Kentucky's historic association with the Navy is not that 
great, despite our enormous coastline.
    Mr. Cohen. With Ohio.
    Mr. Chandler. Yes, sir. That is right. The Ohio Ocean. Mr. 
Under Secretary, I am interested in a cut, a proposed cut in 
the budget request having to do with University Centers of 
Excellence. I noticed that the number, the FY 2006, number was 
$62 million; in FY 2007, enacted $48 million. Now, the 
suggestion is down to 38 million, and in addition to what is a 
fairly substantial cut, there, as I understand it there is also 
a proposal to spread that money over more universities. Could 
you give me some indication as to the thinking there, and will 
the money when it is watered down in that way or, you know, 
less to each place, will that yield as strong a result as you 
have been getting from those programs?
    Mr. Cohen. Yes, sir. And you will never heard me say less 
is more. This is something I testified to two weeks ago with 
the Homeland Security Committee. You may remember when I came 
on board last August there was some less than complimentary 
language in the pending Congressional legislation about my 
directorate and more specifically about the Centers of 
Excellence. Working with both sides of the aisle and both 
Houses, authorizers and appropriators, we were able to find a 
solution. But for the Centers of Excellence, draconian measures 
were about to be taken because of the perceived under-
performance as they were organized prior to my arrival. The 
legislation that came out I am very thankful for. It required 
me to come back to the appropriators, both House and Senate, 
within 60 days of enactment, which I did on the 58th day. 
Chairman, I can meet some schedules. And explain how we were 
going forward. With my new organizational construct it has six 
division and three investment areas of basic research, product 
transition, and high-risk innovation. Everything is aligned to 
explosives, chem bio, command, control, inter-operability, to 
borders maritime, to human factors, and infrastructure and 
geophysical sciences. That is how I do business overlaid by 
matrix portfolio directors so we don't have stovepipes. In 
September of last year I sat down with all the directors of the 
existing seven COEs and asked them to align with one or more 
division so I could justify their existence in the basic 
research. They immediately did that, and I am very proud of 
that. But at that same time the Congress advised me, and I 
looked at my own six divisions, have we got the vertical? Yeah. 
Would you turn that for the Congressman, please, just so we can 
see it better? I had two divisions that were lacking any 
Centers of Excellence, and they were critically important. 
Explosives. And so today I have four broad agency 
announcements, competitive in nature, to fill those areas that 
I knew the Congress wanted me to do. And we have consolidated.
    On the Administration side, the Administration and the 
Department and OMB, looking at that pending legislation, which 
would have decimated the COEs, went ahead and removed as part 
of the budget development a majority of that funding. That was 
unacceptable to me, and so I was working, as I said in 
testimony, a two-front battle. On one hand I had the Congress 
telling the Administration they are going to do away with it, 
and on the other hand I had the Administration saying, not even 
the Congress values them. I was able to buy back, as you can 
see, 80 percent of what I had the previous year. With this new 
alignment I guarantee you, and I use that word rarely, that 
with the product you will see coming out of basic research, the 
universities and the associated laboratories including Silicone 
Hollow, which we are very pleased to be involved with, I 
believe you will see, the administration will understand the 
value of this, its dual use, and we will grow that budget.
    Mr. Chandler. Thank you, Admiral. It sounds like you have 
put a lot of thought into this, and so you got, what you are 
saying is you got what you could get by what appears to be a 
lot of hard work.
    Mr. Cohen. Yes, sir.
    Mr. Chandler. I have got one other question, if I may, Mr. 
Chairman. And this is I think better answered by Dr. Epstein 
possibly. The S&T Directorate seems to have a strong focus on 
biological threats that are human caused, things like anthrax, 
smallpox, that sort of thing. Do you think that this, and I 
understand how important those are, is this in your view the 
main priority, or should the priority, or should we be, are we 
doing enough, let me ask it that way, are we doing enough to 
prepare for natural threats, naturally occurring threats? For 
instance, the avian flu.
    Dr. Epstein. I think I will echo Under Secretary Cohen's 
reply that we are never doing enough. There is a lot of threats 
out there. One challenge with this particular question is that 
natural threats, well, let me back up. There is two different 
Cabinet departments involved, and so part of the challenge is 
not just determining how much money needs to go to it, but what 
is the relative role of the two departments. And the point I 
make here is that there is no correct way to make that 
boundary. These are both, at least on the bio-terrorism side, a 
bio-terrorist attack is an intentional attack, and it is a 
disease. You have got one Cabinet department to worry about 
disease. You have got another one that worries about 
intentional attacks, and they will both have to be involved. I 
think it is appropriate that the bio-terror focus that the 
Department of Homeland Security has is there. I think it is 
appropriate that is their largest program. When one looks out 
into the future and says, all the ways that technology can be 
abused by folks who have ill-intent, what are the capabilities 
that might put the most power in the hands of the smallest 
groups in the most places. Biological weapons are certainly one 
that is a serious problem. No matter how serious one thinks it 
is today, it is not getting any better in the future.
    The pandemic natural disease problem, again, it is 
something that we have to expect we will see. Parts of the 
government are mobilized to do it, and I, it is hard to give a 
short answer as to whether we have the right balance. I mean, I 
think they are both important, and I think they both are 
getting attention, and we just need to keep our eyes open to 
them.
    Chairman Wu. Thank you very much. The gentleman from Texas.
    Mr. Hall. Mr. Chairman, thank you. When I asked the Admiral 
a question that I asked a few moments ago, I noticed Ms. Ward 
gave me an eyebrow there, and I want to follow up with her and 
leave little enough time for Mr. Oxford maybe to tag onto it, 
too, because I asked those two the question, but I think you 
probably have more real experience at the level that I am 
talking about, because I note in your background that you have 
been in the trenches at the local level, and you were in the 
city management business for the city of Orlando. Probably, I 
was stationed there in 1943, at Daytona Beach, and drive over 
to Orlando. The magnificent growth at that time, you were part 
of that. And city managers are kind of like tail gunners. They 
are usually removed after each mission, and if you survived 
that, you had a lot of good experience there.
    I want to ask you----
    Ms. Ward. It has changed a lot.
    Mr. Hall.--to help us with that. I note that you were a 
task force leader. You were a coordinator of a regional area, 
and you have been early days in public safety. Now, for a 
little community like Blackland or Munson in my home, I live in 
the smallest county in Texas of 254 counties, and we would be a 
great one to test to see how far really what the Admiral's 
working 23 hours a day on, reaches us. Give me some ideas as to 
how we can, I can tell folks there that I see day in and day 
out, that I go to church with and see on the streets, how they 
could benefit from what all five of you are doing?
    Ms. Ward. I was very happy to hear the Admiral acknowledge 
the fact that some of the local people probably don't know what 
is going on, because that is a very true statement. That is one 
of the benefits of the group that I belong to, and I had not 
seen the tech solutions website and will be happy to provide 
outreach to the membership and their members so that they will 
know that that is available. That is one of the hardest things 
that we deal with is getting back down to the trenches.
    Mr. Hall. It is the figures, the numbers alone just are 
stultifying.
    Ms. Ward. That is correct. And that is actually the value 
of our group, the NPSTC group.
    Mr. Hall. Yes.
    Ms. Ward. Our associations represent all of these people, 
so what we end up working with SAFECOM on, goes back into our 
associations, and then is funneled down to the lowest level, 
including the volunteer fire departments that were referenced 
earlier. That is why we are hoping that this esteemed group 
will see the value of what we do with the SAFECOM group, take 
into consideration the 9/11 Commission's recommendation, 
Secretary Chertoff has also said that inter-operability is 
going to be one of the major issues to get resolved and kind of 
not dilute the message that we, and our mission by changing the 
personality of SAFECOM. Because those people that work in your 
community, the public safety people, the only way they are 
going to be able to get reached is through some mechanism where 
the State and local people have input into what is going on 
here in Washington. And I will tell you, you know, I come from 
local government. I would never have any funding to be sitting 
in this chair from Orange County where I worked or the City of 
Orlando if it was not for the associations that were supporting 
me to be here. So that is a major issue that this committee and 
Congress in general I hope will take into consideration that 
you have to find a means to be able to get local and State 
participation, and the means is through the associations and 
through supporting groups like ours that bring associations 
together.
    Mr. Hall. And the means are green, aren't they?
    Ms. Ward. Yes, sir.
    Mr. Hall. And that is what, where we are supposed to come 
in.
    Ms. Ward. Yes, sir.
    Mr. Hall. Mr. Oxford, if I have a minute or so left, do you 
want to add to that?
    Mr. Oxford. Yes, sir. First of all, I want to point out 
that when we stood up in my office, we acknowledged the need to 
have an aggressive dialogue at the State and local level. I 
have an office director for State and local affairs that 
reports directly to me. Since that first day we have had an 
aggressive outreach through a series of workshops at the State 
and local level. Just a month ago we had a series of telephone 
conferences that engaged 34 separate states, about 150 people, 
starting with homeland security advisors on down, to talk to 
them about the threat, about their problem, the things they 
could bring to this table. In concert with that we have done 
specific commercial off-the-shelf testing for State and local 
people that are interested in acquiring radiation detection 
equipment. We then post those results on the first responder 
knowledge base, so they all have access to the test results so 
they can make these acquisitions in an informed way.
    As they acquire this equipment we also have established a 
training program where we write the curricula for how to use 
these devices. Using grants and training funding then, we are 
allowing delivery at the State and local level to the people 
using the equipment so they know how to do that. In a like 
manner we have set up a series of pilot programs in the 
Southeast, and in the Northeast we have established regional 
technical support laboratories so if they have an alarm, they 
have someone they can call to get the alarm resolved. They can 
also call my joint analysis center directly to understand what 
to do with the alarm information that they have.
    So we have had an aggressive program. I have a director for 
operations who is a senior FBI agent. He is working now with 
all the JTTFs as well as all the fusion centers that are 
evolving across the country to bring out relevance to each of 
those states. So we can talk a lot more in detail later, but we 
have had an aggressive State and local outreach.
    Mr. Hall. Well, I thank you for that information. It is a 
wonderful thing, and I have noticed so many times at the local 
level that, for example, a lot of times you don't even fix a 
bad bridge until a teenager gets killed there, and then that 
brings it to your attention and why haven't you done it before, 
and when did you know the bridge was bad? We are going through 
that with the hospital out here about 100 miles from here, 
right today, at the federal level. Information is really great, 
and you all have a major job of making that information, 
sifting it down to the local levels where they can use it and 
have it available if it is there, and I thank you for it. I 
yield back, sir.
    Chairman Wu. Thank you very much, Mr. Hall. Pardon me. I 
want to apologize first to the three other witnesses. I intend 
to bring you in right now, well, in a moment, to address the 
risk assessment issues, which the Under Secretary talked about 
during my first round of questions. But before I do that, Mr. 
Oxford, I heard the Under Secretary refer to you as Dr. Oxford. 
And if we, if this subcommittee has deprived you of a Ph.D., I 
deeply apologize, and let me just refer to you as Director 
Oxford.
    And the question I have for you is that in your testimony 
you have referred to a research agenda that is at least in part 
driven by end user requirements. However, specifically with 
respect to the Securing the Cities Initiative, there have been 
publicized reports, The New York Times, among others, that DNDO 
is not addressing the cost and maintenance and other 
requirements of local governments who ultimately will be 
responsible for paying for the equipment, its operations, and 
maintenance. Is there a formal structure for the ultimate end 
users to have their say in the technologies that you are not 
only developing but apparently deploying in the Securing the 
Cities Initiative?
    Mr. Oxford. Well, thank you for both those questions, and 
with the absence of the Ranking Member I will say that I am Mr. 
or Director, and I work for a living so I never went on to the 
other academic pursuits. But I take those as accolades.
    We have a very aggressive program with the New York City 
officials. This is a developer, user combination. My 
counterpart in New York is the deputy commissioner for counter 
terrorism as designated by the actual police commissioner in 
New York. Mayor Bloomberg has delegated the radiation detection 
issue to Ray Kelly, the police commissioner. He, in turn, has 
delegated this to his counter terrorism deputy commissioner. He 
has formulated a structure within the New York region of 
bringing together all the major entities that exist within New 
York City as well as New York State, New Jersey, and 
Connecticut at this point in time. They have veto authority on 
any potential deployments that we have to that region. This is 
an active dialogue where we are building a deployment 
architecture that will be predicated on system capability as 
well as their ability to actually operationally respond to any 
alarms. We can't just have detectors in place that have alarms 
that they do not have the operational capacity to respond to.
    So it is a strong, mutual dialogue. Them having veto 
authority over any potential deployments that we might make, as 
well as they will observe any testing that we do on the systems 
to make sure they work in the capacity of how they want them to 
work within the city before we deploy.
    Chairman Wu. Well, Director Oxford, the veto authority is 
great, but one hopes develop the technology that everyone can 
use rather than having a veto so that it is not deployed.
    As we turn to the other three witnesses, you know, I am 
going to cite a few numbers here, and we did this quickly, and 
this is, I only gave the staff a few hours to pull this 
together, and this is down and dirty. As the speaker said in 
the meeting last night, in her time on the Intel Committee, the 
plural of anecdote is not data, but this is slightly better 
than anecdote and not as thorough as a real risk assessment.
    According to the numbers that we pulled together, computer 
consulting firms estimated that total economic loss of all 
forms from cyber attack in 2003, was $226 billion. That, I will 
skip a number of these other related statistics. That the 
insurance industry estimates that financial losses due to a 
tsunami could be up to $100 billion, that weather-related 
losses between 1980, and 2005, in the United States alone 
according to NOAA, is over $500 billion, and I will skip the 
numbers pertaining to deaths from explosives as opposed to 
other causes in human-caused incidents.
    But I am deeply concerned about the proper integration of 
formal risk analysis and we understand that there are some 
challenges there with good solid risk analysis. But I would 
like our, if you will, outside witnesses to talk with me a 
little bit about this and how we could better integrate the 
risks that we face with the research that we are doing so that 
we properly face the threats of the future.
    Dr. Epstein. Any of us just jump in?
    Chairman Wu. Why don't we start with you, Dr. Epstein.
    Dr. Epstein. You have got your finger on a terribly 
important problem, and it is a terribly hard one. Let me back 
up a little bit. Much of the methodology we have to make this 
kind of calculation today comes from looking at engineered 
systems. We have a whole science of nuclear reactor accidents, 
probability of risk assessment. What is the probability this 
valve will fail, this pipe will burst? Another branch that we 
are drawing from is sort of looking at infectious disease, 
natural-occurring incidents, weather, things were we have a 
database, things where we have statistics, things where nature 
isn't going to change what it does because we do something.
    We have got a very different problem here looking at the 
intentional threat. We have got adversaries that are looking 
not only at what we are doing in and where we are weak. They 
may look at the output of our risk assessment, which says we 
think risk A is high, we think risk B is low, and they may hit 
us on risk B. So in principle this is a much more difficult job 
than anything that has looked like risk assessment or 
probabilistic analysis before. And my comments on the field are 
not so much that I think there is a lot of things we need to do 
to figure out how to handle the problem. It may be cautionary 
that it is a terribly important question, and there may be 
fundamental limits on what analysis will tell us.
    So the type of approach I like to see is structures that 
help guide our thinking. We will never know what the right 
number is for the probability of a terrorist attack, let us 
say, but we have to have a system where if I think it is high, 
I jack it up. If I think it is low, I jack it down, and I get 
to see what happens on other parts of my portfolio. I do think 
we have the right institutions involved. If the National 
Academy of Sciences is gearing up to look at what is the state 
of science in this field, they have the ability to tap those 
people in the academic community. The Homeland Security 
Institute that Under Secretary Cohen mentioned was created by, 
suggested by act of Congress, created by DHS, with these 
specific types of questions in mind. If that power can be 
devoted to looking at these questions, then we have got the 
right analytic skills and the ability to draw on the people, 
who, if there is an answer there, one would hope they are able 
to come to it.
    But my basic point is this is a very different question 
than what we have been trying to do in the past when we have 
been doing things that sound similar.
    Chairman Wu. Thank you, Dr. Epstein. For the next two 
witnesses, my apologizes to the panel in general. Those bells 
and whistles that you all have been hearing, I mean, it could 
be worse. The ship could be sinking, but we have just been 
called to a vote. That was a few minutes ago. We have about 
five minutes left for the vote. So if you all could try to make 
your comments in about a minute or so that would be deeply 
appreciated. Mr. Czerwinski.
    Mr. Czerwinski. I will be brief. Let me just try and 
reframe the issue in this way. Risk is different in homeland 
security than it is in anywhere else. The reason for that is 
that what is at risk is just about everything. If you think 
about what the DOD has or what the Defense Department has to 
worry about in terms of pursuing its objectives, it worries 
about its own combatants, it worries about non-combatants, and 
it worries about the enemy. Well, in homeland security we are 
worried about everything else. The global economy is a part of 
the equation, so we have to look at this in such a way where we 
can't just say, well, the risk is this. We have got 
vulnerabilities, and we have got threats against those, so now 
we have risks. Instead, we have to take a look at much, much 
broader picture, at the impact of the certain A, B, or C level 
types of vulnerabilities that Dr. Epstein was talking about and 
say what would the consequences on these. That is really where 
risk comes out.
    The impact of certain attacks is one thing but also the 
impact of the measures we use against those attacks. An 
overreaction in homeland security by the U.S. Government could 
be even worse than the actual attack itself, and we have seen 
this in the past.
    What IBM has been doing now for a few years is actually 
modeling and simulation exercises that show what these sort of 
impacts might be, actions and the impact of those as well in 
certain cases of pandemics, but now we are looking at one in 
terms of global trade and travel flows as well.
    So we can go into this at another time, but I would just 
suggest broadening the picture in that way. Thank you.
    Chairman Wu. Thank you.
    Ms. Ward. This is an interesting question for someone who 
represents first responders. We respond as things happen, 
immediately. Risk assessment comes through different groups 
like in Florida. I was on the Regional Domestic Security Task 
Force, where we brought in different entities and different 
agencies to talk with us about how our ports, I found this 
discussion today quite interesting because those are some of 
the same things that we were dealing with on the local level.
    Our first responders are reactionary. We have to wait until 
the phone rings basically telling us to go to a 911 call. We 
have to look at our crime stats or our fire stats to do fire 
prevention. So we are not in the same role as some of my co-
panelists. But I will tell you that in our work with these 
other entities, one of the number one priorities for us is that 
we can talk to them.
    So I will come back to the inter-operability discussion and 
just kind of wind up by hoping that this committee will look at 
the value of the first responders. They are the first ones on 
the scene, long before any assistance comes from the State or 
federal level, and these are the people that we need to take 
care of. And our interest in inter-operability is taking care 
of them so that they will be able to talk to each other and ask 
for help when they need it.
    So we would ask that you look at our groups, look at our 
associations, and look to supporting our programs that allow us 
to have input into the federal level.
    Chairman Wu. Thank you very much, Ms. Ward. Thank you for 
your work. Thank you all for your fine work. We look, this 
committee looks forward to working together with all of you 
over time to improve the processes at which we can best 
identify threats to our nation and to ameliorate them as best 
as possible. Perhaps there were those, Mr. Czerwinski, you hit 
on the point that our national defense is focused on one set of 
issues, whereas homeland defense is focused on so many more. 
Perhaps there were those who predicted or at least said it was 
possible for a Japanese military strike at Pearl Harbor in 
1941. Maybe yes, maybe no. I haven't looked at the history 
closely enough to know that. I know that through all the time 
that I was growing up this nation was preparing for another 
bolt out of the blue, and we were probably looking the wrong 
direction, except for perhaps just a few people when the bolt 
out of the blue finally came. It is our job to try to do our 
best, do our level best to have the technology and the people 
in place to prevent that from happening, to do what we need to 
do.
    I want to thank all the witnesses for being here today, and 
I now need to bring this hearing to a close. I want to thank 
all the witnesses for testifying. It has been highly 
educational. I look forward to working with the agencies and 
working with our outside information sources.
    If there is no objection, the record will remain open for 
additional statements. Hearing none, so ordered. Members, 
questions will be submitted and answers may be given for the 
record. Without objection, so ordered. This hearing is now 
closed.
    [Whereupon, at 11:49 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Jay M. Cohen, Under Secretary of Science and Technology, 
        Department of Homeland Security

Questions submitted by Chairman David Wu

Staff

Q1.  In your written testimony, you stated that you have hired 66 
percent of your full staff.

Q1a.  In which divisions or offices do you lack staff? Do you have 
adequate mid-level employees to support your Directorate's day-to-day 
activities? What impact does this have on operations and how will 
things change when you are fully staffed? What percentage of your 
current staff are detailed from other federal agencies? Of those 
detailees, how many are in senior level positions?

Q1b.  In which divisions or offices do you lack staff?

A1a,b. Program manager and program execution functions across the S&T 
Directorate are not fully staffed by federal employees; however, they 
are better staffed now than prior to the ramping up of S&T Directorate 
hiring efforts at my direction. The bulk of our hiring actions are 
focused on bringing on program management expertise and building the 
next generation of senior program managers.

Q1c.  Do you have adequate mid-level employees to support your 
Directorate's day-to-day activities?

A1c. The S&T Directorate supports its day-to-day activities by 
supplementing its federal staff with contractual support and some 
detailees from other federal agencies and other entities, e.g., 
national laboratories and State and local governments. The S&T 
Directorate's goal is to further solidify this staff by increasing the 
ratio of federal employees to contractual staff.

Q1d.  What impact does this have on operations and how will things 
change when you are fully staffed?

A1d. As the S&T Directorate builds its federal staff, it will create 
more permanency and build morale, leading to retention of valuable 
employees and institutional memory, which helps to maintain consistency 
and improve efficiency.

Q1e.  What percentage of your current staff are detailed from other 
federal agencies?

A1e. As of pay period three, the S&T Directorate had 262 FTE. The 
detailed staff equates to six percent (a total of 17 employees).

Q1f.  Of those detailees, how many are in senior level positions?

A1f. One detail employee is in a senior position.

MANPADS

Q2.  The request for the explosives account is reduced significantly in 
the FY 2008 budget, due to the end of funding for the counter-MANPADS 
program. However, there have been a number of news reports about 
airlines being uninterested in purchasing counter-MANPADS technology 
because of its purchase price and high maintenance costs.

     Why is R&D for counter-MANPADs technology being discontinued 
before it can be manufactured and maintained for an acceptable cost to 
end users? What are the lessons learned from this program and has the 
S&T Directorate changed its technology development programs as a 
result?

A2. As directed by Congress, the objectives of the program's final 
phase, Phase III, include establishing a better basis for estimating 
the sustainability costs for systems derived from military technology. 
To go further and achieve manufacturing, maintainability, and 
sustainability costs acceptable to end users would require substantial 
investment across multiple years, which is beyond the scope of the S&T 
Directorate program as defined by the Congress.
    Congress directed DHS to develop and demonstrate military Counter-
MANPADS technology for protecting commercial aircraft, which the 
program has accomplished. Counter-MANPADS has been a very successful 
program resulting in two systems that could protect commercial airlines 
if deployed. This program employed a rigorous systems engineering 
approach using knowledge-based acquisition principles. Among the 
important lessons learned are: a comprehensive test and evaluation 
program must fully account for the operational environment; that life-
cycle costs must be addressed early and completely; that modeling and 
simulation produce substantial dividends; and engaging all stakeholders 
early and often is crucial to success. This has proven to be an 
excellent model for major systems development programs, which the S&T 
Directorate would follow for similar programs that are meant to be 
carried all the way to a deployment decision. Many S&T Directorate 
programs feed into broad pilot programs managed by the Transportation 
Security Administration (TSA), which would carry the technology to 
deployment for use by TSA agents and first responders. In such cases, 
the S&T Directorate would develop the technology to a level appropriate 
for use in pilot deployment projects.
    The developmental phases of the Counter-MANPADS program will end in 
early 2009, with Phase III in-service operational suitability 
evaluations in cargo and passenger airline environments.

MSIs

Q3.  You mentioned in your testimony that some funding for the 
University Centers of Excellence and scholarship and fellowship 
programs will go towards increasing the participation of under-
represented minorities and minority-serving institutions (MSIs) in 
these programs.

Q3a.  What is the current level of participation by under-represented 
students (including women and minorities) and MSIs? What are your 
specific plans for outreach to and retention of these groups in the S&T 
Directorate's education programs?

A3a. Currently there are 255 students participating in the Scholarship 
and Fellowship Program at the undergraduate and graduate levels. Of 
that number 44 percent or 115 are women and 39 students identified 
themselves as under-represented minorities. Please note that providing 
information on race and ethnicity is voluntary, therefore not all 
minority students may have been identified. Since the inception of the 
Program in 2003, scholarships and fellowships have been awarded to 17 
students from 13 Minority Serving Institutions (MSIs): 11 students from 
Historically Black Colleges and Universities (HBCUs) and six students 
from Hispanic Serving Institutions (HSIs).

Q3b.  What are your specific plans for outreach to and retention of 
these groups in the S&T Directorate's education programs?

A3b. In FY 2007, the S&T Directorate established the Minority Serving 
Institutions (MSI) program to enhance outreach, recruiting and 
retention. The MSI initiatives are designed to improve the capabilities 
of MSIs to conduct research in areas critical to homeland security, 
develop a new generation of scientists capable of advancing homeland 
security goals and aid in faculty retention in the broad area of 
homeland security science, technology, engineering and mathematics (HS-
STEM). Competitive incentives will be used to integrate the MSIs with 
the DHS University Centers of Excellence, to develop homeland security 
research and training capabilities at the MSIs, and to develop career 
pathways for MSI HS-STEM students at DHS, State and local agencies, 
national laboratories and Centers of Excellence. Finally, the program 
will develop internship and career opportunities at a variety of DHS 
venues.
    Program activities include:

        <bullet>  Conducting a Summer Research Team (SRT) Program for 
        MSI that provides a 10-12 week summer research experience for 
        teams, consisting of a faculty member and up to two students, 
        to perform research at a DHS University Center or Excellence 
        (COE) that aligns with the DHS mission. The program began in 
        2005 and to date there have been 16 teams and 43 faculty and 
        students from 15 MSIs who have participated in the program. 
        Several of these SRT projects have evolved into longer-term and 
        more extensive partnerships between MSIs and existing COEs Team 
        selections for 2007 are in progress.

        <bullet>  Sponsoring a Summer Workshop on Teaching Terrorism 
        for faculty and graduate students at Minority Serving 
        Institutions (MSIs). The workshop will: 1) offer an intensive 
        short-course on the fundamentals of terrorism; 2) introduce 
        academics to new and innovative techniques utilized to teach 
        terrorism; and 3) provide access to high-level officials 
        working in the intelligence and counter-terrorism fields. It 
        will also feature expert specialists from the Centers of 
        Excellence and integrate curriculum content from the DHS 
        Centers of Excellence including material on the social-
        behavioral causes and consequences of terrorism, terrorism risk 
        analysis, food security, zoonotic disease defense, and 
        catastrophic event preparedness and response.

        <bullet>  Establishing DHS HS-STEM Leadership and Career 
        Development Grants to MSIs to support programs in critical HS-
        STEM areas. These programs provide MSIs with funds to support 
        early career faculty to establish or expand education, research 
        and training activities in HS-STEM areas. The faculty awards 
        are closely linked to scholarship and fellowship awards to 
        qualified undergraduate and graduate students in related 
        homeland security STEM disciplines who intend to pursue 
        homeland security professional and scientific careers.

    The S&T Directorate conducted further outreach efforts in 2007. 
University Programs hosted three regional MSI workshops, which took 
place on February 4 in Baltimore targeting Historically Black Colleges 
and Universities (HBCUs), on February 21 at Broward Community College 
(Florida) targeting Hispanic Serving Institutions (HSIs), HBCUs and MSI 
community colleges, and on February 28 at USC (California) targeting 
HSIs and Tribal Colleges. At these workshops, DHS:

        <bullet>  Introduced the MSIs to four new solicitations for 
        Centers of Excellence (COE), explained the opportunities those 
        represent and encouraged the MSIs to submit proposals as lead 
        institutions and as partners;

        <bullet>  Explained the ideas and expectations for the new MSI 
        program that U/S Cohen initiated, and solicit the MSIs input. 
        Note: UP revamped the MSI Leadership and Career Development 
        Grant program significantly in response to comments received 
        from MSIs at these workshops;

        <bullet>  Described the 2007 Summer Research Team program and 
        opportunities for partnerships with COEs;

        <bullet>  Described DHS Scholarship and Fellowship Programs and 
        the DHS Postdoctoral Research Associateship Program; and

        <bullet>  Invited the MSIs to a ten-day summer workshop on 
        teaching terrorism (SWOTT) specifically developed for MSIs. 
        Note: DHS is supporting the attendance of interested MSI 
        faculty to this workshop until capacity is reached.

    Other UP MSI Activities have included:

        <bullet>  Participation in the White House Initiative on 
        Hispanic Serving Institutions (HSIs) conference planning 
        committee in Fall 2006;

        <bullet>  Meeting with Hispanic Association of Colleges and 
        Universities and HBCUs at their annual meetings and, at UP's 
        requests, met on ways to disseminate information, engage HSIs 
        and HBCUs, and present at their major conferences;

        <bullet>  Participation in a workshop for Native Americans on 
        the risk of terrorism for Casinos;

        <bullet>  Meeting with a number of other federal agencies on 
        ways to collaborate and leverage MSI resources;

        <bullet>  Collaboration with the White House Initiatives on 
        HBCUs and TCUs on ways to disseminate information and provide 
        speaking opportunities at their key venues; and

        <bullet>  Reaching out to MSIs to encourage MSI students to 
        apply for DHS Scholarships and Fellowships.

    In addition, the Department wants to enhance the role of MSIs 
within the COEs by increasing both the number and extent of 
institutional partnerships between MSIs and the COEs; either through 
new COEs, for which MSIs could be lead institutions, or by expanding 
the network at existing COEs. The current COEs have a total of 15 MSI 
partners.

Human-Technology Interface

Q4.  The newly created Human Factors division within the S&T 
Directorate could potentially save DHS millions of dollars by providing 
``Human-Technology Interface'' testing services that could help 
determine whether technology was easy to use and socially acceptable.

     What are your plans for leveraging this capability?

A4. The creation of the Human Factors Division within the S&T 
Directorate reflects the leadership's recognition that integrating 
human factors elements early in the Research and Development (R&D) 
process can increase the effectiveness of technologies and decrease 
long-term costs. Utilizing the capital available in the Human Factors 
Division, the S&T Directorate is working to embed human systems 
elements into all phases of the R&D process, from the basic and applied 
research stages to the formulation of acquisition guidance. We are also 
working to leverage the resources of our partners at the Department of 
Defense, NASA, the FAA, and the national labs--including the work being 
done at the Transportation Security Lab--to inform and enhance this 
work.
    The S&T Directorate also includes human-technology interface as a 
key component in the qualification and certification of security 
screening and detection technologies. For example, extensive human-
technology interface assessment of hand-held metal detectors was 
conducted prior to their qualification and procurement by the 
Transportation Security Administration (TSA). Further, recognizing that 
incorporating human factors elements into each system it deploys is 
critical, the S&T Directorate is formalizing, through the establishment 
of a Community Acceptance of Technologies Panel, the already routine 
interface DHS programs have with first responders and the American 
public.

Transportation Security Lab

Q5.  I understand that the Transportation Security Lab (TSL) would like 
to offer its testing and evaluation services to private entities for a 
fee.

     What is your opinion of this idea? Why should the Federal 
Government offer these types of testing and evaluation services instead 
of the private sector?

A5. The S&T Directorate is open to the concept where DHS Laboratories, 
such as the Transportation Security Lab (TSL), would perform testing 
and evaluation services for a fee and on a confidential basis. It is 
important that our unique facilities and testing expertise be made 
available to commercial industry and others for the impartial testing 
of technologies being deployed at the Nation's airports to screen 
baggage. Currently, TSL and other DHS labs bear the entire costs of 
performing services that benefit baggage inspection equipment 
manufacturers. By adopting user fees, we are not seeking to compete 
with private industry in any way. Rather, we are seeking to offer 
industry the use of the unique DHS facilities and skilled personnel on 
a not-to-interfere basis.

Questions submitted by Representative Phil Gingrey

Projects

Q1.  The S&T Directorate actively pursues high-risk, high-yield 
research and development activities through the Office of Innovation, 
with the explicit expectation that many of these projects will fail.

     How will the Directorate choose projects to pursue in this office? 
What processes are in place to ensure that projects that are not coming 
to fruition are in fact terminated?

A1. The Director of Innovation/HSARPA works closely with the Under 
Secretary for Science and Technology, the Division Directors, other 
Portfolio Directors, industry, academia, other government 
organizations, and other sources to determine topic areas for projects. 
The Director utilizes many sources for guidance including:

        <bullet>  DHS Goals and Priorities as described by the 
        Secretary of Homeland Security;

        <bullet>  Office of Management and Budget (OMB) and Office of 
        Science and Technology Policy (OSTP) Research and Development 
        Budget Priority Guidance;

        <bullet>  Goals set by the Under Secretary for Science and 
        Technology;

        <bullet>  Congressional Direction; and

        <bullet>  Our Customers, the agencies and agents that are on 
        the front lines of DHS law enforcement and protection services. 
        Through the IPT process they are already providing us with 
        their list of needs. If we believe there is a potential 
        solution that may be high risk but would revolutionize the way 
        the need is met, either by greatly increasing performance and 
        capability or by reducing the procurement and maintenance 
        costs, we may decide to select that project for accelerated 
        prototyping.

        <bullet>  Our Vendors, we have received some very innovative 
        ideas from industry, from DHS labs and national labs in the war 
        on terrorism. If these ideas are such that they would provide 
        leap ahead capabilities if successful, we consider them for 
        Office of Innovation execution.

    All the projects that are executed under the Office of Innovation 
will have program plans and schedules developed that include milestone 
events, and exit ramps if the technologies do not appear to be 
progressing. The S&T Directorate will hold periodic reviews for all 
programs, including innovation, and the decision to continue a program 
or terminate will come from the senior staff involved in those reviews.

Coordination Activities

Q2.  Your testimony identified ways in which the S&T Directorate 
coordinates with other agencies and groups throughout the Federal 
Government. Similarly, Mr. Oxford identified coordination activities 
undertaken at DNDO in his testimony. However, neither of your 
statements mentions coordination activities between DNDO and the S&T 
Directorate.

     Do you consult with DNDO for strategic planning and budgeting 
purposes? What mechanisms exist within the Department of Homeland 
Security to coordinate and balance the activities of the S&T 
Directorate and DNDO?

A2. S&T and DNDO continue to have a close relationship within the 
Department and do coordinate efforts at all levels from the shared use 
of the radiological and nuclear expertise at the Environmental 
Measurements Laboratory (EML) to the integration of requirements and 
system development of technologies for use in Departmental initiatives 
such as Secure Freight. The overarching missions of the two agencies 
are clearly delineated and therefore do not require a formal 
collaboration during strategic planning and budgeting activities there 
are multiple working level interactions that incorporate requirements 
and de-conflict overlapping and collocated sensor and architecture 
development programs. DNDO was also invited to participate in the S&T 
IPT process to provide them out-year program insight and a sense of 
Departmental priorities in the R&D arena.

Improving Methodologies

Q3.  Dr. Epstein suggests that improving methodologies for determining 
which threats to address and how much to spend on each should be a high 
priority for the government.

     What activities do you have in your organization to address the 
need for decision-support and long-term strategic planning? What 
interagency efforts are underway to plan across disciplines and 
threats?

A3. The foundation for the S&T Directorate's overall decision-support 
approach is the Planning, Programming, Budgeting, and Execution (PPBE) 
process, which initiates and monitors S&T Directorate programs and 
ensures that these programs result in a focused effort to improve 
homeland security through science and technology. The S&T Directorate's 
PPBE process uses risk-informed assessment tools to inform the 
development of program priorities, and to focus efforts on addressing 
high-consequence threats. The Homeland Security Institute (HSI) has 
developed an independent model to assess the potential for S&T 
Directorate programs to reduce homeland security risk and this model 
has been used to evaluate programs based on an adjustable set of 
criteria which can inform the S&T Directorate's PPBE process. This 
model estimates S&T Directorate program contributions to existing 
homeland security capability gaps while weighing the homeland security 
risk reduction value of the programs.
    The S&T Directorate is committed to delivering capabilities that 
DHS components can rely on to meet their operational needs. To 
accomplish this, the S&T Directorate facilitated Customer-led 
Integrated Product Teams (IPTs) to identify homeland security 
capability requirements across the Department. Approximately half of 
the S&T budget was dedicated to developing products identified by DHS 
customer-led IPTs that established capability gaps and requirements to 
drive and inform the research and development (R&D) efforts of the S&T 
Directorate. These gaps will enable the S&T Directorate to identify key 
customer-oriented programs. In meeting these customer capability 
requirements, the S&T Directorate draws on the best technologies and 
technology researchers and developers from across the homeland security 
research enterprise ranging from the private sector to other government 
agencies, to universities, to international allies. The S&T Directorate 
has already put in place numerous interagency Memoranda of 
Understanding to ensure efficient coordination between the S&T 
Directorate and other federal, State and local agencies; and the S&T 
Directorate has Divisions dedicated to Interagency and International 
collaboration. In executing its balanced portfolio of investments (from 
basic research to technology transition), the S&T Directorate is 
determined to be the model customer-focused, output-oriented, full-
service science and technology organization that delivers significant 
value and supports and enhances DHS mission success.

Questions submitted by Representative Judy Biggert

Protective Measures

Q1a.  How is DHS implementing its responsibility to analyze critical 
national infrastructure vulnerabilities and to implement protective 
measures?

A1a. The Science and Technology (S&T) Directorate provides analysis of 
critical infrastructure vulnerabilities and supports the implementation 
of protective measures through its Critical Infrastructure Protection 
(CIP) Modeling, Simulation and Analysis (MSA) program. Activities 
carried out through this program include risk-informed prioritization 
of strategies and resource allocations in support of the National 
Strategy for the Physical Protection of Critical Infrastructure and Key 
Assets. For example, one project within the program, the Critical 
Infrastructure Decision Support System (CIPDSS), provides risk informed 
insights for making critical infrastructure protection decisions by 
considering all 17 critical Infrastructures and their primary 
interdependencies. Once fully developed, the CIPDSS will assist 
decision-makers in making informed choices by computing human health 
and safety, economic, public confidence, national security, and 
environmental impacts. The CIPDSS will transition to the DHS's National 
Infrastructure Simulation and Analysis Center (NISAC) for operational 
use in FY 2008.

Q1b.  Why has DHS chosen to fund certain of its infrastructure risk 
assessment and analysis research at the national laboratories on a 
year-to-year basis rather than a ``line-item'' budget basis?

A1b. We have recently realigned the S&T Directorate's budget to match 
the S&T Directorate organization and to map S&T Directorate programs 
more directly with the components and missions within DHS. This 
provides our customers and congress with more transparency to our 
budget and activities. The incorporation of risk assessments and the 
analysis of critical infrastructure sectors into S&T Directorate 
programs require a holistic program approach, which relies on 
understanding existing, emerging and perceived threats. A line item for 
risk assessments would not align those activities with the programs 
they support.

Q1c.  What is the division of labor among the various laboratory 
programs in this effort?

A1c. Argonne National Laboratory (ANL), Los Alamos National Laboratory 
(LANL), and Sandia National Laboratories (SNL) all participate in 
CIPDSS's development. Tasks related to program coordination, 
development of system architecture and tools, and prototyping and 
deployment will be performed by all of the laboratories. Tasks related 
to consequence model development will be emphasized at LANL and SNL. 
Decision model development will be emphasized at ANL.

Q1d.  How do you distinguish one lab's function and capabilities from 
another's?

A1d. The S&T Directorate, through collaborative interactions, works 
with the national laboratories to identify which laboratories have the 
functions and capabilities that are most suitable for specific 
programs/projects carried out by the S&T Directorate.

Q1e.  What provisions has DHS made for communications connectivity and 
shared access to common databases among the laboratories?

A1e. The S&T Directorate arranges communications connectivity and 
shared access to common databases among the laboratories based on 
program/project needs. One example is the CIPDSS program, in which 
participants communicate regularly and share data, models, and results 
through multiple mechanisms. This includes weekly conference calls that 
include all three participating national labs and quarterly face-to-
face meetings that include most technical members. Tri-lab team members 
share data through the Knowledge Management (KM) portal hosted at SNL. 
Papers, technical communications, and working papers are shared through 
the KM portal. System models are shared through web-based Concurrent 
Version Systems repositories. Lastly, data resulting from computer 
simulation runs are automatically shared across the tri-lab team using 
automatic database synchronization mechanisms.
                   Answers to Post-Hearing Questions
Responses by Vayl S. Oxford, Director, Domestic Nuclear Detection 
        Office, Department of Homeland Security

Questions submitted by Chairman David Wu

Detailees

Q1.  You mentioned in your written testimony that you have detailees on 
staff from other federal agencies, including the Departments of Energy 
and Defense.

     What percentage of your staff is detailed from another agency? How 
do you ensure that interagency personnel are not improperly involved in 
making grant money available to their home agencies? For example, what 
conflict-of-interest rules and guidance are in place at DNDO?

A1. Currently 40 percent of DNDO staff members are detailees. Of this, 
29 percent are interagency detailees from the Departments of Energy 
(DOE), Defense (DOD) and Justice (DOJ/FBI), as well as the Nuclear 
Regulatory Commission (NRC). Detailees from the Department of Defense 
include officers and civilians from the Army, Air Force, Navy, Defense 
Threat Reduction Agency, and the Under Secretary of Defense for 
Acquisition, Technology and Logistics. In addition, DNDO has detailees 
from other DHS Components such as the U.S. Coast Guard, Customs and 
Border Protection, and the Transportation Security Administration, 
which make up the remaining 11 percent of the detailee staff.
    Interagency personnel are subject to Department of Homeland 
Security Management Directive 0480.1, Ethics/Standards of Conduct; 
Executive Order 12674, Principles of Ethical Conduct for Government 
Officers and Employees; and 5 C.F.R. Part 2635, Standards of Ethical 
Conduct for Employees of the Executive Branch. The DHS Ethics Office 
provides mandatory initial ethics orientation to all new employees, 
including detailees, as well as mandatory ethics training on an annual 
basis. In addition, detailees are not allowed to make funding decisions 
that affect their sending organizations. DNDO's budget and contracting 
offices are independent from the program offices in which detailees 
reside. Furthermore, grants would not be provided to other federal 
agencies (the source of DNDO detailees).

Student Interest

Q2.  You pointed out in your testimony the serious problem with 
decreasing student interest in the field of nuclear science, and I am 
pleased to see that you are working with the National Science 
Foundation to provide funding for students interested in this field.

     How do you plan to make sure students who take advantage of this 
funding opportunity choose to go into go into homeland security-related 
positions, especially at DNDO? Also, what is the actual job market for 
people with these degrees? What studies or analyses indicate strong 
demand for nuclear scientists? How many graduates in nuclear science do 
we need each year, and at what level (Bachelor's, Master's, or Ph.D.)?

A2. As stated in the testimony, the nuclear science community is 
forecasting a need for approximately 100 additional new Ph.D.s per year 
in order to fill the overall demand, which includes homeland security. 
Historically eight to ten percent of nuclear scientists go into 
homeland security-related positions and we expect this percentage to 
remain the same or increase. Research and development for homeland 
security is performed at national laboratories, companies, and 
universities by nuclear scientists who have broad interests, not just 
security. Through its Transformational R&D Directorate, DNDO is 
reaching out to this research community with a combination of Broad 
Agency Announcements, Calls for Proposals, and National Science 
Foundation (NSF) solicitations. We do not require nuclear scientists 
who receive awards under the Academic Research Initiative (ARI) to join 
DNDO, but we do expect them to join the nuclear science community, 
whose work contributes to DNDO's programs and activities.
    The job market in nuclear science is improving with opportunities 
in homeland security, medical applications, basic research, defense, 
etc. An increasing number of nuclear scientists are being sought by 
DOE, Nuclear Regulatory Commission (NRC), Environmental Protection 
Agency (EPA), Food and Drug Administration (FDA), DHS, Defense Threat 
Reduction Agency (DTRA), and the intelligence agencies. In addition, 
many universities' nuclear engineering departments are seeking new 
faculty members and department heads. The American Nuclear Society's 
Special Committee on Federal Investment in Nuclear Education found 
``nearly uniform anecdotal evidence that the current production rate 
for NSE (nuclear science and engineering) graduates is not sufficient 
to meet demand.''
    In November 2004, the DOE/NSF Nuclear Science Advisory Committee 
recommended that the number of new Ph.D.s in nuclear science be 
increased by 20 percent over the next five to 10 years. The need for 
additional graduates with Bachelor's and Master's Degrees is assumed to 
be in a similar, 20 percent range.
    The shortage in graduates is documented in the following five 
publications:

        --  Education in Nuclear Science: A Status Report and 
        Recommendations for the Beginning of the 21st Century, DOE/NSF 
        Nuclear Science Advisory Committee, Subcommittee on Education, 
        November 2004.

        --  Report to the Nuclear Science Advisory Committee: Guidance 
        for Implementing the 2002 Long Range Plan, 23 June 2005, pgs. 
        69-73.

        --  The Future of the Nuclear Workforce: The Government's Role, 
        Laura Beth Bienhoff, Washington Internships for Students of 
        Engineering, American Nuclear Society, 2003, 50 pgs.

        --  Nuclear's Human Element: Defining the Federal Government's 
        Role in Sustaining a Vibrant U.S. University-Based Nuclear 
        Science and Engineering Education System for the 21st Century, 
        American Nuclear Society, Special Committee on Federal 
        Investment in Nuclear Education, December 2006, 28 pgs.

        --  Opportunities in Nuclear Science: A Long-Range Plan for the 
        Next Decade, DOE/NSF Nuclear Science Advisory Committee, April 
        2002, 148 pgs.

Risk Assessment

Q3.  What sort of risk assessment does DNDO use when determining where 
to deploy their detection technology?

     We heard in the hearing from you and Mr. Czerwinski that DNDO has 
global responsibilities; however it seems that deployment of detection 
technologies is limited to highly-visible, highly-trafficked ports of 
entry with relatively little attention given to intercepting smuggled 
materials in foreign countries or detecting materials smuggled across 
more remote borders. How do you decide where to direct your efforts?

A3. In assessing risks, DNDO relies on its gap analysis to guide the 
deployment of detection technology as well as the development of new 
detection technologies and new detection concepts of operation. In this 
analysis, DNDO has determined the existing baseline architecture of USG 
capabilities and organized it into a set of detection layers that are 
grouped into three main categories (international, border, and 
interior).
    From this baseline architecture, DNDO looks at all possible paths 
from the original source of the radiological or nuclear material or 
weapon to a target within the U.S. Typically, DNDO will look at 
authorized pathways, e.g., Ports of Entry (POEs); other land, air, and 
maritime pathways; and unauthorized pathways (e.g., illegal crossing of 
land borders in remote areas). From this examination of pathways, DNDO 
identifies gaps, i.e., areas where detection is not currently 
sufficient. For each gap, DNDO identifies options to fill the gaps, 
evaluates the likely effectiveness of the options, and makes 
recommendations for programs (either deployment, new concepts of 
operations, or new research and development) to address the 
architecture gaps.
    In formulating recommendations, DNDO is guided by the language in 
NSPD-43/HSPD-14, which states that ``DNDO will be responsible for the 
implementation of the domestic portion of the global architecture,'' 
while ``the Secretaries of State, Defense and Energy will maintain 
their respective responsibilities for policy guidance and 
implementation of the portion of the global architecture outside the 
United States.'' Those international responsibilities include State's 
EXBS programs, Energy's Second Line of Defense and Megaports programs, 
and Defense's Cooperative Threat Reduction activities. This process has 
led DNDO to focus additional efforts to develop detection strategies 
for general aviation pathways, small maritime pathways, and remote 
border crossings, as well as interior layer detection (e.g., Securing 
the Cities).
    DNDO is constantly updating its gap analysis and, to the greatest 
extent possible, incorporating risk as it relates to the current threat 
as a factor in its deployment decisions throughout all (land, air, and 
maritime) pathways.

Questions submitted by Representative Phil Gingrey

Funding

Q1.  Your testimony submitted to the Committee describes a remarkable 
difference in funding awards between National Laboratories and private 
industry and academia. For instance, you cite a call for proposals to 
National Labs in December 2005 that awarded nearly $40 million to 44 
proposals from a pool of 150, a success rate of nearly 30 percent. 
Whereas, a similar announcement to the private sector and academia 
awarded only $3.1 million to seven institutions, out of a pool of 200 
submissions: a 3.5 percent success rate.

     What accounts for this stark difference in funding amounts and 
success?

A1. DNDO would like to clarify that the 200 submissions referred to 
above pertain to the informal white paper phase. The actual number of 
proposals received by private industry and universities was 75. 
Therefore, the number that should be compared to the 150 proposals for 
the National Labs is 75 rather than 200.
    It should be further noted that DNDO made the awards in two parts. 
DNDO awarded the first set of grants to seven academic institutions, 
and the second set to 10 private industry participants. Thus, a total 
of 17 awards worth approximately $12 million have been made, putting 
the success rate at nearly 23 percent so far for this announcement.
    The differences in award timing were due to differences in the 
grants and contracting processes. Regardless, these research projects 
were started as soon as the awards could be made. For FY 2007, awards 
to industry and academia will utilize approximately one-third of 
exploratory research funding under DNDO's Transformational Research and 
Development Directorate. Also, it should be noted that in addition to 
these projects, industry and academia have other projects and 
opportunities which are not included in the awards above. These include 
opportunities with DNDO's Small Business Innovative Research program 
and the newly initiated Academic Research Initiative.

Coordination Activities

Q2.  At the hearing, you identified ways in which DNDO coordinates 
radiological detection research with other agencies and groups. 
Similarly, Under Secretary Cohen identified coordination activities 
undertaken by the S&T Directorate in his testimony. However, neither of 
your statements mentions coordination activities between DNDO and the 
S&T Directorate.

     Do you consult with the S&T Directorate for strategic planning and 
budgeting purposes? What mechanisms exist within the Department of 
Homeland Security to coordinate and balance the activities of the S&T 
Directorate and DNDO? What interagency efforts are underway to plan 
across disciplines and threats?

A2. Yes. S&T and DNDO continue to have a close relationship within the 
Department, coordinating efforts at all levels--from the shared use of 
the radiological and nuclear expertise at the Environmental 
Measurements Laboratory (EML) to the integration of requirements and 
system development of technologies being developed for use in 
Departmental initiatives such as Secure Freight. In addition, there are 
multiple working level interactions that incorporate requirements and 
de-conflict overlapping and collocated sensor and architecture 
development programs. DNDO was also invited to participate in the S&T 
Integrated Product Team (IPT) process to provide them with out-year 
program insight and a sense of Departmental priorities in the R&D 
arena. Section 502 (d) of the SAFE Port Act of 2006 also requires that 
S&T and DNDO develop an annual report that speaks to the coordination 
between the two Components.

Threats

Q3.  Dr. Epstein suggests that improving methodologies for determining 
which threats to address and how much to spend on each should be a high 
priority for the government.

     What activities do you have in your organization to address the 
need for decision-support and long-term strategic planning? What 
interagency efforts are underway to plan across disciplines and 
threats?

A3. DNDO recognizes the need for formal systems engineering processes 
to support and document mission, requirements, concepts of operation, 
and program performance. These processes include risk analysis to 
prioritize threats and cost-benefit analysis to evaluate particular 
programs.
    Currently, DNDO is developing an end-to-end technology development 
plan that starts from a detection architecture gap analysis and 
documents the process from the identification of options, through 
prototype development, operational testing, deployment, and continuous 
evaluation. This documentation will provide decision support to the 
strategic planning process and will ensure the government pursues 
effective programs at every stage.
    DNDO Red Teaming and Net Assessments (RTNA) are also developing an 
end-to-end probabilistic methodology for analysis of detection 
architecture effectiveness that is grounded in both adversary 
capability and detection node operational performance. Collaboration is 
occurring with Defense Threat Reduction Agency, elements of the 
intelligence community, Department of Energy, and United States Coast 
Guard on this project. This methodology will enhance global situational 
awareness and support interagency collaborative planning, course-of-
action evaluations, tabletop exercises, including red team and blue 
team assessments, and analyses of battle management, exercise support, 
crisis action planning, and interagency collaborative planning. This 
will also be an effective tool to support technology investments and 
related decision making. The methodology defines and measures adversary 
capabilities through intelligent overlay of interagency threat 
databases, individual expert analyses, and adversary emulation 
operations. It also defines and measures detection node performance 
through network models for systems and CONOPS at individual detection 
layers and is based on a process developed for DNDO architecture 
studies and risk analyses.
    In addition to DNDO internal risk assessment, DNDO is actively 
participating in DHS-wide programs such as the Risk Informed Planning 
Program which seeks to perform risk analysis across disciplines and 
threats to provide a comparable risk assessment between DHS components. 
DNDO is beginning to work directly with DHS Science and Technology to 
perform a WMD risk assessment common to chemical, biological, 
radiological, and nuclear weapons.
    DNDO plays a key role in interdisciplinary planning. One of DNDO's 
founding principles was the allocation of responsibilities called, 
``centralized planning with decentralized execution.'' This means that 
DNDO is responsible for developing the global detection architecture, 
conducting test and evaluation of available systems that may be 
deployed, and assessing the effectiveness of the deployed architecture 
through red teaming and other means. However, it remains the 
responsibility of interagency partners to execute their respective 
portions of the global architecture.
    Through centralized planning, DNDO seeks to fully utilize expertise 
from implementing agencies, and leverage, not duplicate, existing 
initiatives related to nuclear detection. Several mechanisms facilitate 
collaboration between interagency partners. For example, DNDO uses the 
Interagency Coordination Council (ICC) as a forum for effective 
coordination and, when required, as a mechanism for conflict resolution 
across all appropriate departments and agencies. ICC members will 
resolve policy issues that arise across organizational boundaries. In 
addition, members will serve as liaisons between their respective 
organizations and the DNDO to ensure that the interagency community is 
fully aware of each other's activities as they relate to the mission of 
the DNDO. Another example would be the use of interagency detailees as 
full-time DNDO staff members. These detailees play a critical role in 
helping DNDO interface with its implementing partners across the global 
nuclear detection architecture. Frequent dialogue facilitated by DNDO 
detailees with their home organizations results in a thorough 
understanding of implementing agency operations, technological 
requirements, reporting and information analysis needs--all of which 
drive DNDO operations.

Overview

Q4.  Please provide to the Committee an overview of the activities DNDO 
has taken to include first-responders in the planning and operations of 
your research and development activities.

A4. To periodically engage the State and local (S&L) community, DNDO 
formed an S&L Stakeholder Working Group and has held five Working Group 
meetings each lasting three days. Working group meetings are designed 
specifically to bring the Nation's preventive rad/nuc detection 
community together, inform participants on activities within DNDO and 
the community, and obtain feedback on DNDO's programs and initiatives.
    Since its inception, DNDO has made it a fundamental priority to 
work together with, and receive feedback from, its S&L first responders 
in developing programs and products. This continual loop of information 
exchange has been mutually beneficial to DNDO and S&L jurisdictions and 
has helped refine various programs/products/services throughout the 
entire life cycle of the development process:

        --  Securing The Cities Initiative (STC): Under STC, DNDO has 
        led a consortium of S&L stakeholders in the New York City 
        region to establish a region-wide coordinated radiation 
        detection and interdiction capability. This effort includes 
        agencies from the States of NY, NJ, and CT. An overarching STC 
        Working Group was established in January 2007, with several 
        specialized committees including the Equipment Working Group. 
        Through interactive discussions and live technology 
        demonstrations, this group has addressed responder operational 
        equipment requirements in an effort to focus DNDO acquisition 
        and research efforts, and has agreed upon an initial set of 
        equipment to be procured and distributed to responders 
        throughout the region. This group has also brought developers 
        of DNDO's SUV-based mobile Advanced Spectroscopic Portal System 
        face to face with the operators in the region to facilitate the 
        design process. Additionally, the group is addressing long-term 
        sustainability issues such as equipment maintenance and 
        calibration on a regional basis.

        --  Southeast Transportation Corridor Pilot (SETCP): Under 
        SETCP, DNDO has reached out to nine Southeast States, plus the 
        District of Columbia, and identified first responders with 
        preventive rad/nuc detection responsibilities in their 
        respective jurisdictions. For the last year, DNDO has met with 
        these individuals at least quarterly and has solicited their 
        functional requirements through directed surveys, interactive 
        discussions, and live technology demonstrations. This group was 
        instrumental in developing the Commercial Vehicle Inspection 
        annex to the Preventive Rad/Nuc Detection Program Management 
        Handbook. S&L participants also had input on the development of 
        the functional requirements for the SUV-based mobile Advanced 
        Spectroscopic Portal System. The SETCP live technology 
        demonstration (November 2006) was operated entirely by S&L 
        responders.

        --  Radiation Detection Device Testing: DNDO works closely with 
        a group of S&L first responders to produce test results that 
        would be helpful for S&L jurisdictions as they make decisions 
        about which detection equipment to purchase. For the Anole test 
        series, S&L first responders reviewed the draft report to 
        ensure its readability and usefulness. For the Bobcat test 
        series, CONOPS from S&L first responders were utilized to 
        generate real-world test scenarios. Additionally, S&L first 
        responders participated in hands-on testing of equipment.

        --  Display and Algorithm Integrated Product Teams (IPT): The 
        Human Portable Radiation Detection System program staff, and 
        the Human Factors Team that supported the Display and Algorithm 
        IPTs, worked with S&L public safety representatives to help 
        design equipment that would meet the needs of the first 
        responders. Some of the entities who participated included: 
        fire departments, law enforcement, and emergency management 
        from Montgomery County, MD, Virginia Department of Emergency 
        Management, and the Government of the District of Columbia. 
        Additionally, the Human Factors Team coordinated its activities 
        with other S&L public safety officials as well as with the U.S. 
        Coast Guard, and Customs and Border Protection.

        --  Training Curriculum: DNDO worked with the S&L Stakeholder 
        Working Group to review and gather training requirements, as 
        well as develop curriculum for various levels and types of 
        preventive rad/nuc detection training courses.

        --  Alarm Resolution Response Protocols: DNDO incorporated S&L 
        public safety agencies into the development of detailed 
        protocols for resolving detection alarms.

        --  Preventive Rad/Nuc Detection Program Management Handbook 
        and Commercial Vehicle Inspection (CVI) Rad/Nuc Module: DNDO 
        developed both of these products during numerous working 
        sessions with a multi-jurisdictional, multi-disciplinary 
        audience of S&L public safety officials. The program management 
        handbook provides consistent guidance for building or enhancing 
        State and local preventive rad/nuc detection programs. The CVI 
        Rad/Nuc Module provides guidance to S&L jurisdictions that may 
        choose to incorporate preventive rad/nuc detection into their 
        CVI program in a variety of ways, including within mobile weigh 
        station operations, within CVI roadside inspection operations, 
        or by using relocatable portal monitors on by-pass routes.

        --  Homeland Security Presidential Directive (HSPD-8): DNDO 
        worked with the DHS Office of Grants and Training to ensure 
        consistency between HSPD-8 guidance and DNDO programs, as well 
        as coordinate the involvement of S&L public safety 
        representatives.

        --  Maritime Pilot and a Maritime Test Bed: S&L public safety 
        representatives are currently working with DNDO to define the 
        pilot and testbed.

Questions submitted by Representative Judy Biggert

RDD

Q1a.  How is DHS implementing plans to protect against radiological 
weapons and radiological dispersal devices?

      How does DHS evaluate the Radiological Dispersal Device (RDD) 
threat? What studies have been done to analyze the potential damage and 
consequences of an RDD attack? How does DHS distinguish its mission and 
R&D program on RDDs from that of DOE, DTRA, the military services and 
the FBI? What plans and programs does DHS have to analyze, mitigate, 
and respond to the RDD threat? How would DHS determine the source of an 
RDD attack? What data bases exist to support this effort? Since such an 
attack would be different from an actual nuclear explosion, how do 
these data bases differ from data bases maintained to determine the 
characteristics of foreign nuclear weapons? (The specific answer would 
probably be classified but the general question is: Are the data bases 
the same or different?)

A1a. DHS/DNDO has a three tiered approach, closely coordinated with 
other agencies, to protect the Nation from RDD devices. This approach 
includes: 1) identifying the potential radiological materials that 
could be used as an effective RDD; 2) securing and/or eliminating these 
sources and; 3) pursuing ways to make the commercial devices that 
employ radioactive sources more tamper proof. Examples of DNDO 
initiatives are documented below:

        --  DNDO is working with federal partners (NRC, DOE), industry, 
        and licensees in the United States to investigate 
        vulnerabilities and identify solutions to reduce the risk of 
        unauthorized access to the Cesium-137 sources found in 
        irradiators used in medical and research facilities.

        --  DNDO is participating with the NRC, other federal agencies, 
        and the Agreement States in setting the data requirements for 
        the national source tracking system to improve the usefulness 
        of the database for source security.

        --  DNDO is participating in an effort to promote the design 
        and production of non-nuclear alternatives for industrial 
        devices that currently use radioactive sources.

        --  DNDO serves as the DHS representative on the NRC-chaired, 
        Radiation Source Protection and Security Task Force, also known 
        as the Energy Policy Act Task Force. The Task Force is 
        responsible for a continuing comprehensive review of the status 
        of radioactive source security and for reporting periodically 
        to Congress on that status.

        --  DNDO is participating with the NRC, other federal agencies, 
        and the Agreement States in the Alternative Technologies 
        subgroup, as part of the Energy Policy Act Task Force. This 
        subgroup is investigating the feasibility of alternatives to 
        the commercial use of certain higher risk radioactive sources.

        --  DNDO is participating with the NRC, other federal agencies, 
        and the Agreement States Cesium Chloride subgroup, as part of 
        the Energy Policy Act Task Force. This subgroup is 
        investigating methods to reduce the RDD risk from this 
        particular radioactive source.

    Furthermore, DNDO is beginning engagements with six UASI Tier I 
Urban Areas, followed by the additional 39 UASI Tier II Urban Areas by 
the end of FY 2009, as part of an operational implementation and 
outreach strategy that aims to improve State and local capabilities to 
detect and interdict radiological and nuclear threats. Coordinated 
implementation support includes: initial engagements with senior 
leaders from the Department of Energy, CBP, and the FBI; enlistment of 
the FBI's Joint Terrorism Task Forces; formulation of initial 
preventive rad/nuc detection program plans; threat briefings; response 
and protocol development; and training and exercise options.

Q1b.  How does DHS evaluate the Radiological Dispersal Device (RDD) 
threat? What studies have been done to analyze the potential damage and 
consequences of an RDD attack?

A1b. DHS and DNDO use a combination of intelligence community and 
official government sources, as well as our own assessments, to 
evaluate a range of radiological and nuclear threats, including those 
posed by RDDs. The RDD threat is evaluated from both a threat and 
vulnerability standpoint--how susceptible are we to this type of 
attack, and what can be done to detect and prevent the attack. Numerous 
studies, both classified and unclassified have been conducted 
(including several under DHS sponsorship at the National Labs) that 
have characterized in detail the significant potential damage and 
consequences that could result from an RDD attack.

Q1c.  How does DHS distinguish its mission and R&D program on RDDs from 
that of DOE, DTRA, the military services and the FBI?

A1c. From an R&D perspective, there are three key agencies doing R&D 
for nuclear detection: DOE/NA-22 focuses on R&D to support non-
proliferation, proliferation detection, and counter-terrorism; DOD/DTRA 
focuses on R&D to support international interdiction and response, and 
counter-proliferation; and DHS/DNDO focuses on R&D to support 
prevention of a domestic event. Specifically, DOE and DTRA assist in 
the securing and detection of illicit trafficking of sources from or 
within other nations, which reduce the risk of RDDs domestically. The 
FBI brings to bear the investigative and law enforcement databases and 
professional relationships that DNDO relies on to make asset deployment 
decisions for potential domestic RDD threats.
    We routinely coordinate with all of these agencies for ongoing 
projects and new announcements. This allows each agency to leverage 
technology advancements gained from other investments and transition 
needed technologies to users more rapidly. In addition, close 
coordination prevents redundancy in these R&D programs.
    With respect to R&D for DNDO's nuclear forensics mission, DNDO's 
National Technical Nuclear Forensics Center leads a centralized, 
formalized interagency coordination process that ensures agencies' R&D 
programs and initiatives are jointly planned and executed in a manner 
consistent with roles and missions defined in national policy guidance.

Q1d.  What plans and programs does DHS have to analyze, mitigate, and 
respond to the RDD threat?

A1d. DHS plans and programs related to RDDs may be divided into 
prevention and detection, which DNDO concentrates on, and mitigation 
and response, which are addressed by other DHS components such as the 
Directorate for National Protection and Programs, the Federal Emergency 
Management Agency, and the Office of Health Affairs; these programs 
have recently been re-organized and realigned. A significant DHS-wide 
and interagency effort has gone into preparing for RDD events, 
including contingency planning for the National Planning Scenarios, one 
of which is an RDD. DHS analysis of the RDD threat is ongoing. The 
generic effects of different types of RDDs employed in urban areas have 
been modeled, with some U.S. city-specific data generated to develop 
possible RDD scenarios. The predominant part of DNDO's mission involves 
the detection and prevention of radiological and nuclear terrorist 
events prior to the event happening.
    DHS recognizes that an RDD threat could emanate from within our 
borders, so we are also working to improve detection and interdiction 
capabilities within our domestic interior as part of a broader layered 
defense. While detection at POEs, including systems that screen 
containers at seaports, is an important part of the solution, we must 
also develop solutions for non-POE applications for maritime, aviation, 
and land modes, including next-generation human portable detection 
equipment and mobile standoff assets. For example, DNDO is making 
progress to replace personal radiation detectors (pagers) now held by 
first responders with equally compact and more accurate devices that 
can detect both gamma and neutron radiation and identify isotopes of 
RDDs.
    To improve source security and decrease the availability of 
radioactive sources to our adversaries, DNDO is working with other USG 
agencies and with industry to further protect and account for 
radioactive sources. DNDO is working to eliminate the sources within 
the United States that could be used for RDDs and also working to track 
radioactive sources of concern (industrial and medical) for security 
and situational awareness purposes. As a part of an interagency effort, 
DNDO also works with international counterparts to help other countries 
prevent and detect radiological or nuclear threats closer to the 
source.
    Finally, we must remain vigilant and build greater public awareness 
of ``what to look for,'' pre-detonation signs of radiological or 
nuclear threat anomalies in neighborhoods, workplaces, and 
transportation corridors that could launch a coordinated response to 
stop the attack.
    The modeling work that is part of our initial analysis of the RDD 
threat can also help in post-event mitigation. DNDO has worked to 
computer model the effects of an RDD detonated in an urban area, 
allowing us to understand the size and scope of the impact on the 
population. In the event of an actual RDD event, DNDO will be a source 
of radiological/nuclear technical expertise and will support FEMA, HHS 
and other federal agencies to mitigate the effects.

Q1e.  How would DHS determine the source of an RDD attack? What data 
bases exist to support this effort? Since such an attack would be 
different from an actual nuclear explosion, how do these data bases 
differ from data bases maintained to determine the characteristics of 
foreign nuclear weapons? (The specific answer would probably be 
classified but the general question is--are the data bases the same or 
different?)

A1e. In formulating the response to these questions, it is understood 
that the ``source of an RDD attack'' refers to ``who is responsible'' 
and this includes as one input the ``source of material.'' It is 
further understood that the nuclear forensics process is necessarily 
interagency, with respective roles and responsibilities defined by 
statutes and policy directives. As part of the interagency effort DNDO 
is responsible for developing a ``pre-detonation materials forensic 
analysis capability in support of the lead federal agency. In most 
instances the FBI will be the LFA and will be responsible for leading 
the interagency attribution effort. The following response addresses 
each question in turn:

Q1f.  How would DHS determine the source of an RDD attack?

A1f. As indicated DHS is not responsible for determining the source of 
an RDD attack. DHS is improving/developing a pre-detonation materials 
forensic analysis capability that will be used principally by the FBI 
in support of its overarching attribution efforts. In general however, 
the key forensic processes supporting attribution of an RDD attack are 
described below:

        --  Material evidence would be collected from the scene that 
        would contain nuclear forensic signatures indicative of the 
        material source and RDD design. Conventional law enforcement 
        forensic samples related to the conventional (non-nuclear) 
        explosion would also be collected.

        --  The evidence would be analyzed at laboratories that have 
        been equipped to conduct both radiochemical analyses and 
        traditional forensic examinations of contaminated evidence.

        --  Many databases housed in various federal agencies exist to 
        support conventional law enforcement forensics. Regarding the 
        radioactive material source, databases are developed for this 
        type of application.

        --  Data from analyses of the radiological material will be 
        interpreted by the appropriate laboratory and, as required, 
        peer reviewed by a group of experts to help identify the source 
        of the material. The material's source is one input that will 
        be used to address the question of ``who is responsible?'' 
        Other traditional forensics will be utilized, and all the 
        technical information will be combined with law enforcement and 
        intelligence information to help develop the case for 
        attribution (i.e., all source information fusion).

Q1g.  What data bases exist to support this effort?

A1g. The President directed the development of an integrated system of 
information from all sources concerning worldwide nuclear material 
holdings and their security status, the Nuclear Materials Information 
Program.

Q1h.  Since such an attack would be different from an actual nuclear 
explosion, how do these data bases differ from data bases maintained to 
determine the characteristics of foreign nuclear weapons? (The specific 
answer would probably be classified but the general question is--are 
the data bases the same or different?)

A1h. Due to fundamental differences in device design and materials 
used, there are inherent differences between the data captured in 
databases of RDD and nuclear weapon characteristics. In general, an RDD 
is very different from a nuclear device that produces yield. 
Essentially, the RDD databases cover two types of materials: 1) 
radiological sources and 2) nuclear fuels. Radiological source 
information includes information concerning commercial, industrial, and 
government produced or owned radiological sources, and the nuclear 
fuels information captures reactor fuels information from commercial 
power, research, and government reactors. For both types of materials, 
much of the data are derived from manufacturing information and 
includes isotopic and elemental information, material information on 
the cladding and other structures (as applicable), date of manufacture, 
intended use, etc. Foreign nuclear weapons characteristics databases do 
not address radiological sources or reactor fuels (and are highly 
classified). Therefore, the databases are inherently quite different.

Outreach and Support

Q2.  How is DHS implementing its outreach and support of regional 
assets? How are priorities set for funding regional assets? How are 
regional programs coordinated across all of DHS? What is the schedule 
for providing support to all regions of the country?

A2. DNDO, through its Operations Support Directorate and Office of 
State & Local Affairs, reaches out to State and local authorities and 
helps them prioritize their demand for federal support capabilities as 
well as identify their requirements for the design, requirements, and 
deployment of detection systems within the United States. DNDO is 
beginning engagements with the six (6) UASI Tier I Urban Areas, 
followed by the additional 39 UASI Tier II Urban Areas into the 
domestic layer of the GNDA by the end of FY 2009.
    Working closely with the DHS Office of Intelligence and Analysis, 
DNDO ensures that national level expertise is in place to support 
prompt alarm adjudication. Reachback capability gives the responder 
community access to National Laboratory expertise to analyze spectral 
data and determine if a threat is present. We have established 
procedures and connectivity to three regional reachback laboratories as 
well as the National Operations Center. We routinely drill and exercise 
reachback capabilities, and have the capability to adjudicate all 
domestically referred primary-level radiation detection alarms. DNDO 
also works to ensure that regional preventative rad/nuc detection 
programs are coordinated across all of DHS. Coordinated support 
includes: initial engagements with senior leaders from the Department 
of Energy, CBP, and the FBI; enlistment of the FBI's Joint Terrorism 
Task Forces; formulation of initial preventative rad/nuc detection 
program plans; threat briefings; response and protocol development; and 
training and exercise options.
    Through the Southeast Transportation Corridor Pilot (SETCP), DNDO 
is laying the groundwork for how DHS can encourage individual states to 
look at preventive rad/nuc detection as a necessary mission, as well as 
how states can coordinate with each other to regionally address rad/nuc 
threats. SETCP works through Regional Task Teams, comprising of state 
representatives from the law enforcement, radiological health, and 
emergency planning/operations communities. Dialogue with these 
representatives was coordinated through the State Homeland Security 
Advisors, both individually within each state and collectively across 
the region. As a result, the participating states have shared goals, 
technical approaches, concepts of operation (CONOPS) and lessons 
learned. In addition, DNDO has solidified support through the 
administration of two sets of Cooperative Agreements that have placed 
new radiation detection systems into the hands of individual states, 
but with an overlay of regional CONOPS to improve the use of these 
devices and to establish connectivity to the DNDO Joint Analysis Center 
and to Regional Reachback centers (also established by DNDO).
    The following Cooperative Agreement awards have been made to States 
participating in the DNDO Southeast Transportation Corridor Pilot 
(SETCP). A portion of these awards (GA, KY, SC, TN, and VA) were 
awarded 26 Sept 2006. The remainder (AL, DC, FL, MS, NC) are scheduled 
for award on or about 1 June 2007. NOTE: Virginia is scheduled to 
receive an additional equipment allocation in FY2007 (an ASP Variant L 
unit) under their original Cooperative Agreement.
    These Cooperative Agreements comprise a combination of cash grants, 
equipment grants, and services (such as site design and installation of 
fixed portal hardware). Cash grants supported local purchase of 
detector hardware, plus travel and allowable personnel costs for 
participation in SETCP-sponsored training and exercises.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Under the SETCP, the States are also being supported by the 
development of Concepts of Operation (CONOPS) to guide the use of the 
issued equipment. Each State is also receiving assistance in 
establishing a data exchange capability for preventive rad/nuc 
detection data, both within the state and between the state and the 
DNDO Joint Analysis Center (JAC).
    Under Securing the Cities Initiative (STC), DNDO has led a 
consortium of S&L stakeholders in the New York City region to establish 
a region-wide coordinated radiation detection and interdiction 
capability. This effort includes agencies from the states of NY, NJ, 
and CT. An overarching STC Working Group was established in January 
2007, with several specialized committees including the Equipment 
Working Group. Through interactive discussions and live technology 
demonstrations, this group has addressed responder operational 
equipment requirements in an effort to focus DNDO acquisition and 
research efforts, and has agreed upon an initial set of equipment to be 
procured and distributed to responders throughout the region. This 
group has also brought developers of DNDO's SUV-based mobile Advanced 
Spectroscopic Portal System face-to-face with the operators in the 
region to facilitate the design process. Additionally, the group is 
addressing long-term sustainability issues such as equipment 
maintenance and calibration on a regional basis.
    DNDO also has a strong working relationship with the DHS Office of 
Grants and Training (G&T), particularly regarding the development and 
delivery of preventative rad/nuc detection training courses. DNDO, in 
coordination with G&T, develops and executes training courses, table 
tops, and other exercises and operational drills to provide federal, 
State and local agencies with structure processes to refine and 
standardize their procedures for the management of issues related to 
detection, alarm adjudication, incident reporting, and control and 
security of radioactive materials. This year's plans include training 
for 1,200 law enforcement personnel and first responders. In FY 2008, 
DNDO has a goal of training 2,400 individuals. DNDO also worked with 
G&T to ensure consistency between HSPD-8 guidance and DNDO programs.
                   Answers to Post-Hearing Questions
Responses by Gerald L. Epstein, Senior Fellow for Science and Security, 
        Homeland Security Program, Center for Strategic and 
        International Studies

Questions submitted by Chairman David Wu

Q1.  You pointed out in your written testimony that classified 
biological research can result in suspicion of the S&T Directorate's 
intent, and suggest that allowing outside observers to help oversee 
classified biological research can help alleviate some of the 
suspicion. Is the biology community currently involved in helping 
oversee S&T's biological research? If so, has S&T been providing 
outside observers with adequate information and access? If not, what do 
you recommend should be done?

A1. At present I am not aware of a mechanism by which members of the 
non-governmental biology community have the opportunity to review the 
entire biological research program, or the entire set of classified 
biological research activities, within the Department of Homeland 
Security. However, there are a number of mechanisms through which 
member of the non-governmental biology community with appropriate 
security clearances have or could have the opportunity to review 
specific biological research activities, including classified ones, 
that are conducted or sponsored by DHS. Without claiming that this list 
is necessarily complete, these mechanisms include:

        <bullet>  Review by panels of the National Academies (the 
        National Academy of Sciences, the National Academy of 
        Engineering, the Institute of Medicine, and/or the National 
        Research Council)

           Federal agencies including DHS often make use of the 
        National Academies to review research or address technical 
        issues involving their research programs. Academy panels have 
        the ability to obtain security clearances for panel members to 
        enable them to address classified research. One particularly 
        relevant panel is the Standing Committee on Biodefense Analysis 
        and Countermeasures, the principal function of which is ``to 
        coordinate studies requested by the National Biodefense 
        Analysis and Countermeasures Center related to biodefense 
        analysis in support of the Department of Homeland Security'' 
        \1\ According to National Academies' staff supporting this 
        panel, all members of this panel, which includes distinguished 
        academic biological scientists, have been granted or have 
        applied for security clearances at the SECRET level, and they 
        have received classified briefings in the past on the subject 
        of risk assessment. This panel is in a position to receive 
        unclassified or classified briefings (at the SECRET level or 
        lower) on specific research activities associated with the 
        National Biodefense Analysis and Countermeasures Center 
        (NBACC), although I do not believe that it has yet been asked 
        to do so.\2\ (Disclosure: Although I am not a member of this 
        panel, I have participated in several of its meetings as an 
        invited guest speaker, including briefings and discussions on 
        assuring compliance with the Biological Weapons Convention.)
---------------------------------------------------------------------------
    \1\ The National Academies, web page on Committee on Biodefense 
Analysis and Countermeasures (http://www7.nationalacademies.org/BAST/
BAST<INF>-</INF>Biodefense<INF>-</INF>Analysis<INF>-</INF>Committee.html
)
    \2\ Among other things, NBACC will perform studies and laboratory 
experiments--including classified ones--to ``fill in information gaps 
to better understand current and future biological threats, assess 
vulnerabilities, conduct risk assessments, and determine potential 
impacts in order to guide the development of countermeasures. . .'' 
(Fact Sheet: National Biodefense Analysis and Countermeasures Center,'' 
February 24, 2005, http://www.dhs.gov/xnews/releases/
press<INF>-</INF>release<INF>-</INF>0627.shtm). Given its role in 
understanding potential threats, NBACC activities--and in particular 
classified NBACC activities--are likely to be controversial with 
respect to treaty compliance.

---------------------------------------------------------------------------
        <bullet>  NBACC Scientific Advisory Committee

           Late in 2006, DHS awarded a contract to the Battelle 
        National Biodefense Institute to operate NBACC, and this 
        contractor is still in the process of establishing some of its 
        management structures. According to staff within the Department 
        of Homeland Security S&T Directorate, to which NBACC reports, 
        Battelle intends to create an outside scientific advisory 
        panel, including academic and other non-governmental 
        scientists, that will presumably will have some standing 
        responsibility to review and oversee the NBACC scientific 
        program, including its classified aspects.

        <bullet>  External Reviews by Entities such as the JASONs.

           Should the Department of Homeland Security so wish, it could 
        ask for reviews of its activities, including classified 
        activities, by independent entities such as the JASONs, a group 
        of non-governmental, largely academic scientists with high 
        security clearances who do analyses and studies for a wide 
        range of government agencies, including agencies in the 
        national security sector. Members of this group can review 
        highly classified programs.

           Although originally comprised almost exclusively of 
        physicists and other physical scientists, the JASONs have been 
        expanding their domain of expertise and now include three 
        nationally known biologists. To take on any significant role in 
        reviewing life science research, this complement of life 
        sciences would have to be expanded considerably, but at least 
        there is an initial life sciences capability today. I am not 
        aware that the JASONs have been asked to review any of DHS' 
        classified biological activities, and they would typically not 
        serve in a standing oversight role, but (subject to available 
        personnel) they could be enlisted for specific studies.

    I believe that DHS is providing adequate information and access to 
external reviews it has asked for, but I do not believe that outside 
reviews are currently being done on a systematic or comprehensive 
basis. (The DHS S&T program does undergo regular program reviews by 
scientists and others who are within government but outside DHS, 
including some from agencies such as NIH that are outside the 
traditional national security community.) Recognizing that it may be 
quite difficult and time-consuming for an outside group to be briefed 
on, and to probe in depth, an entire research portfolio--a task that 
clearly depends on the size and scope of that research portfolio--I 
would recommend that DHS implement a process in which non-governmental 
scientists with appropriate security clearances have more regular and 
more systematic opportunity to review the suite of classified DHS 
biological research activities. I note that DHS is currently 
implementing a process by which its entire research portfolio--both 
unclassified and classified--is reviewed by senior Departmental 
officials to ensure compliance with laws, treaties, and policy. This is 
a tiered review in which activities that warrant higher scrutiny get 
it--and a similar ``tiering'' philosophy could be applied to external 
technical review to DHS as well.
    Since government agencies other than the Department of Homeland 
Security might also conduct classified biological research activities, 
it is also important that government-wide activities are reviewed with 
respect to technical merit and treaty compliance, and such reviews gain 
credibility to the extent that they involve members of the non-
governmental biology community (and other outside observers). My 
conversations with senior government officials in several different 
agencies assure me that they are aware of the importance of such 
reviews and are working to develop processes to facilitate them. I 
would like to highlight two relevant efforts here.

        <bullet>  The Biological Sciences Experts Group (BSEG) of the 
        National Counterproliferation Center

           In response to the recommendation of the Commission on the 
        Intelligence Capabilities of the United States Regarding 
        Weapons of Mass Destruction that the Intelligence Community 
        engage more effectively with life scientists outside of the 
        U.S. government, the National Counterproliferation Center 
        within the Office of the Director of National Intelligence has 
        created a Biological Sciences Experts Group (BSEG). This group, 
        on which I serve, consists of non-governmental members with 
        expertise in a range of disciplines associated with the 
        biological sciences. Its members serve strictly in an advisory 
        capacity. and they have no standing responsibility to review or 
        assess classified biological research. However, members are 
        available to provide advice on specific scientific and 
        technical activities relevant to the Intelligence Community's 
        missions, and they do constitute a mechanism to provide 
        selected IC activities (which could include biological 
        research) with independent, external, technical review. 
        Speaking for myself, I believe it would be appropriate for BSEG 
        members to address the credibility, legitimacy, and technical 
        merit of IC biological research activities. Moreover, I 
        believe--and have no reason to think my colleagues disagree--
        that the IC staffers working with this group are genuinely 
        interested in obtaining independent and non-governmental views, 
        and that they take seriously the requests and conclusions of 
        BSEG members.

        <bullet>  Wider technical and programmatic engagement and peer 
        review by security-cleared non-governmental experts

           Allowing more U.S. classified biological research activities 
        to undergo external technical reviews would require increasing 
        the availability of external reviewers who have security 
        clearances. In the spirit of the WMD Commission's charge to the 
        Intelligence Community to increase its engagement with the U.S. 
        biological research community, efforts are underway to identify 
        precisely these people--technical experts outside of government 
        who currently hold security clearances--to ask them if they 
        would be willing, on occasion, to perform technical reviews of 
        classified projects.

Question submitted by Representative Phil Gingrey

Q1.  How does the difference in structure between the end-to-end, 
research to operations, responsibilities of DNDO and the research-only 
management activities of the S&T Directorate affect their ability to 
provide technologies that reflect mature operational concepts and 
systems design?

A1. The difference in structure would likely complicate future efforts 
to merge DNDO with the S&T Directorate, but I don't see that it 
necessarily makes either of these organizations better in general at 
reflecting mature operational concepts and systems designs than the 
other.
    Even though DNDO's role extends further ``downstream'' than S&T's 
does in terms of developing the architecture in which its products will 
be used, neither DNDO nor S&T is likely to be the employer of the 
individual who will be using that piece of equipment at the field. Both 
of these agencies, therefore, must overcome the difficulty of designing 
equipment for someone who is ultimately not under the agencies' direct 
control, and to which that agency might not have direct access.
    DNDO has the explicit charge of developing an architecture for 
nuclear detection in addition to developing and procuring nuclear 
detectors themselves, whereas other DHS S&T activities seek to develop 
and deploy technology to support concepts, architectures, or 
requirements that are either in place already or are being developed by 
other DHS offices. (Biowatch had been an exception to this when its 
system architecture as well as its individual detectors were developed 
by DHS S&T, but responsibility for the overall architecture and 
operation of that program has since been moved out of DHS S&T.) In this 
sense, DNDO may have greater freedom to design systems and sensors that 
complement each other than DHS S&T, since it would presumably have 
fewer external constituencies or agencies to deal with. However, this 
does not necessarily mean that a DNDO system will better reflect 
``mature operational concepts,'' and could in fact imply the opposite: 
if DNDO does not have to meet requirements as established by another 
agency, it may be more tempted to set its own aggressive technical 
milestones that draw on less mature operational concepts. However, I am 
not aware of any specific evidence to that effect, and I am not sure 
this effect is very strong in any event.
                   Answers to Post-Hearing Questions
Responses by Jonah J. Czerwinski, Managing Consultant, IBM Global 
        Business Services; Senior Fellow, Homeland Security, IBM Global 
        Leadership Initiative

Questions submitted by Chairman David Wu

Q1.  In your opinion, what are the benefits of the Domestic Nuclear 
Detection Office's Securing the Cities Initiative? Is this type of 
project likely to be successful in preventing the unlawful transport 
and detonation of nuclear or radiological devices in the U.S.? Do you 
believe that the requested funding level of $30 million for FY 2008 is 
appropriate?

A1. The DNDO's Securing the Cities Initiative (SCI) reflects an 
investment in an important part of a layered defense. While efforts to 
secure sources of nuclear material in troubled areas remain critical, 
in addition to interdiction operations like the Proliferation Security 
Initiative, efforts like SCI help close an important gap in today's 
detection mission.
    Because even the most effective global effort to stop illicit 
movement of dangerous nuclear material will be less than 100 percent 
successful, it is wise to consider domestic detection efforts in major 
cities. A perpetrator may be able to obtain nuclear material and evade 
detection overseas, en route, and across the U.S. border which is known 
to be porous in parts. If this occurs, it is likely that intelligence 
communities will have some warning and be able to provide law 
enforcement and other authorities with valuable information to aid in 
an apprehension. An SCI effort would greatly help augment intelligence 
and law enforcement officials by providing added warning and more 
accurate information about the location of nuclear material.
    The scenario of nuclear material smuggled across U.S. borders, 
while dangerously possible, is perhaps as likely as nuclear material 
obtained from within the United States for use against a major U.S. 
city. Dangerous source material for a dirty bomb can be found in 
unsecured commercial locations or universities where nuclear material 
is located for legitimate uses. If a perpetrator steals this material, 
SCI capabilities provide a better ability to locate and isolate the 
material.
    Whether or not SCI will be successful is difficult to say at this 
stage, but some precedence already exists that indicates such an effort 
could indeed be effective. The Department of Defense (DOD) already 
deploys their own version of SCI focused exclusively on protecting 
bases within the U.S. Detectors are in place surrounding the bases to 
detect a potential nuclear threat in vicinity of the base. Ongoing R&D 
for these programs is focused on increasing the ability to detect 
source material moving at greater speeds along public roads that lead 
to these bases. The potential for cooperation between DNDO and DOD 
should be pursued for mutual benefit.
    Lastly, DNDO's budget request for SCI deserves attention. The 
Nation's investment in SCI should reflect a commitment to thinking 
creatively and responsibly about the threat of nuclear terrorism in 
America's cities. The nearly $11 billion to be spent on missile defense 
next fiscal year places the SCI budget in perspective. With an overall 
DNDO budget of approximately $550 million, dedicating $30 million to 
Securing the Cities seems appropriate. At this early stage, a healthier 
investment like this would help identify more promising routes to 
success while weeding out potential dead-ends. SCI is equal parts R&D 
and strategy.

Q2.  From the FY 2008 budget request and information I've received from 
DNDO, it seems that deployment of detection technologies is limited to 
highly-visible, highly-trafficked ports of entry with relatively little 
attention given to intercepting smuggled materials in foreign countries 
or detecting materials smuggled across more remote borders. Is this an 
appropriate way to deploy detection technologies? If not, what factors 
should DNDO consider when determining where to deploy their detectors?

A2. The deployment strategy of detectors and other countermeasures in 
combating smuggling nuclear weapons may be one of the most important 
considerations in assessing the DNDO strategy. However, that the 
strategy and budget seem to indicate a focus on domestic choke points 
(i.e., highly trafficked points of entry) is appropriate at this stage 
for two reasons. First, efforts to detect or otherwise counter the 
threat of smuggled nuclear material overseas are mainly conducted by 
other agencies, but there is an important role for the DNDO. Second, 
the DNDO was wise to begin their deployment strategy at major points of 
entry first given the priority of closing obvious gaps soonest, but 
they must move forward with a plan to deploy along less populated, and 
therefore less guarded, sections of the U.S. border, among other 
improvements.
    The effort to combat smuggled nuclear material is a global one. 
Indeed the DNDO was originally named the National Nuclear Defense 
Office to reflect a broader mission than the one it is perceived to 
have today. After working its way through the interagency process, this 
title lost the word ``national,'' which was replaced with Domestic, and 
the word ``defense'' became detection, in an apparent effort to winnow 
the mission of this new office. In practice, this makes some sense 
since both the Department of Energy and the Department of Defense also 
play a role in this area. The DHS office was given the detection 
mission only, but that has since evolved for good reason. Today, the 
DNDO works very closely with other agencies to develop not only new 
capabilities, but also the global deployment strategy that reflects and 
informs the use of detection efforts by all federal agencies including 
DOE, DOD, and others.
    When the DNDO was created in April 2004, the White House placed 
significant emphasis on deploying detection capabilities quickly and in 
the most needed places. This had both positive and negative effects. 
The priority on deploying detectors quickly naturally sacrificed 
quality in the short run. The ``pagers'' and first-generation portal 
monitors (RPMs) suffered from poor selectivity that forced them to 
signal an alarm when encountering non-threatening materials that 
naturally contain radiation. This led to news reports and internal 
assessments that showed RPMs signaling a ``hit'' when only ceramic tile 
or other commercial material was found in an a container or truck hold. 
The other major trade-off that resulted from an accelerated deployment 
schedule was the low sensitivity of the earlier detectors (many of 
which are still in use). Low sensitivity leads many detectors to be 
unable to sense the presence of source material because, ironically, 
HEU and other elements actually give off very low levels of radiation 
prior to detonation. Current research and development underway at DNDO 
already shows major progress in both selectivity and sensitivity in a 
variety of settings.
    The priority of placing detection capabilities at highly trafficked 
points of entry reflects a judgment call the DNDO and DHS leadership 
had to make at the time DNDO stood up and began using its first budget 
in FY 2005. Given limited resources, the constraints of a new 
organization, and an evolving threat, the choice was made to start with 
the most likely choke points based on traffic patterns (both licit and 
illicit) and the risk these areas posed to surrounding infrastructure 
and populations. Over time, the DNDO plan reflects an intention to 
contribute to anti-terrorism programs overseas by supporting the DHS-
DOE-State Department Secure Freight Initiative and NATO's Operation 
Active Endeavor. This is a positive development that also indicates the 
aggressive progress DNDO is making in the field of nuclear detection. 
Future development in DNDO's deployment strategy certainly includes 
efforts like Securing the Cities, but also networked detection 
capabilities in less traveled sections of the border to close those 
serious gaps you cited. An important improvement in strategy would 
include the use of decoys, hidden detectors, and mobile sensors to 
offset the adversary and increase the deterrent value of our anti-
terrorism capabilities.

Question submitted by Representative Phil Gingrey

Q1.  How does the difference in structure between the end-to-end, 
research to operations, responsibilities of DNDO and the research-only 
management activities of the S&T Directorate affect their ability to 
provide technologies that reflect mature operational concepts and 
systems design?

A1. Improving technology, including better sensors and more effective 
forensics capabilities, is a vital--perhaps the most vital--step toward 
defending against a covert nuclear attack. To obtain this objective 
requires long-term, sustained research commitments across the Executive 
Branch and better use of the national labs, among other measures. While 
the lethality of a nuclear attack on the homeland is known among 
experts and decision-makers, a strategic approach to developing 
advanced sensing and detecting capabilities had become stove-piped and 
stultified in the Executive Branch prior to establishing the Domestic 
Nuclear Detection Office.
    Acknowledging that the nuclear threat is different from most other 
threats posed by weapons of mass destruction, and that the expensive 
and complicated basic research needed to make progress is spread across 
several concerned agencies, including DHS, DOD, DOE, and others, this 
information served as the foundation for creating a single organization 
to draw upon existing capabilities and support development and 
acquisition of needed capabilities. To accomplish this critical 
mission, that new organization required an end-to-end process that 
spans the effort from research to deployment.
    Operations, however, were never presumed to be a part of the DNDO. 
To this day, the DNDO remains focused on research, development, and 
acquisition to support the originally stated mission of integrating and 
accelerating a better defense against smuggled nuclear weapons. Its 
charter stops short of an operational role, which should continue to be 
the responsibility of relevant authorities such as Customs and Border 
Protection and parts of the Defense and Energy Departments.
                   Answers to Post-Hearing Questions
Responses by Marilyn Ward, Executive Director, National Public Safety 
        Telecommunications Council (NPSTC)

Question submitted by Chairman David Wu

Q1.  During the hearing, both Under Secretary Cohen and Director Oxford 
noted that the Department of Homeland Security Science and Technology 
Directorate and Domestic Nuclear Detection Office have efforts underway 
to respond to the needs of first responders. From the perspective of 
NPSTC and its members, how responsive has DNDO been to criticism of the 
high cost and difficulty of use of its technologies?

A1. The National Public Safety Telecommunications Council is focused on 
the issues of public safety wireless communications and inter-
operability and does not closely follow or monitor the efforts of the 
Domestic Nuclear Detection Office. As such, I cannot comment on the 
responsiveness of the DNDO or its technologies.

Question submitted by Representative Phil Gingrey

Q1.  What is the awareness of the TechSolutions website within the 
first-responder community? Will this site allow first-responders an 
appropriate level of access to DHS research and development planning?

A1. To the best of my knowledge, I am unaware that the National Public 
Safety Telecommunications Council community is aware of the 
TechSolutions website.

                                   

</pre></body></html>
